                       REDACTED AND UNCLASSIFIED




Because this report contains information classified as “Secret” by the Federal
Bureau of Investigation (FBI), we had to redact (white out) certain tables and
 graphs. Many of these exhibits include information about the number of FBI
personnel assigned to national security matters for fiscal years 1996 through
     2001. According to the FBI and the Central Intelligence Agency, this
   information must be classified under guidelines issued by the Director of
                            Central Intelligence.




        FEDERAL BUREAU OF INVESTIGATION
                 CASEWORK AND
          HUMAN RESOURCE ALLOCATION

                      U.S. Department of Justice
                    Office of the Inspector General
                             Audit Division

                           Audit Report 03-37
                            September 2003



                         REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


           FEDERAL BUREAU OF INVESTIGATION
       CASEWORK AND HUMAN RESOURCE ALLOCATION

                           EXECUTIVE SUMMARY

       The Federal Bureau of Investigation (FBI) is the principal investigative
arm of the Department of Justice (Department). The agency’s mission is to
investigate violations of federal criminal law, protect the U.S. from foreign
intelligence and terrorist activities, and provide leadership and assistance to
other law enforcement agencies. In the aftermath of the terrorist attacks of
September 11, 2001 (hereafter referred to as 9/11), the FBI reallocated its
resources to focus more on international and domestic terrorism in order to
detect and deter future terrorist acts.

       The FBI Director issued a memorandum to all employees in May 2002
reprioritizing the agency’s mission, indicating that the FBI would emphasize
prevention rather than prosecution by shifting its organizational focus from
traditional reactive law enforcement operations to prioritizing intelligence
gathering and analysis. The Director noted that counterterrorism is the top
priority of every FBI field office. Subsequent to this memorandum, the
Director reprogrammed agents assigned in various other law enforcement
areas into terrorism-related programs.

       This Office of the Inspector General (OIG) review examined the FBI’s
use of personnel resources in its investigative programs over an almost
7-year period, six years before the 9/11 terrorist attacks and nine months
after the attacks.1 In addition, we reviewed the FBI’s planned allocation of
resources during this same October 1995 to June 2002 time period. We also
examined the types and numbers of cases the FBI investigated during this
period.

      Perhaps as important as the results of this review is the fact that this
type of detailed statistical analysis of FBI planning, resource usage, and
casework had never been undertaken by the FBI. While much of the data
examined in this review concerns the period pre-9/11, we believe this review
provides helpful information into how the FBI allocated its agent and support
resources before, during, and shortly after the 9/11 attacks. We also believe
that this analysis, and the techniques used in this analysis, will prove helpful
to the FBI as it continues to revisit the balance between its terrorism and
non-terrorism-related responsibilities. Details of our audit objectives, scope,
and methodology can be found in Appendix I.
1
  As of June 1, 2002, the FBI employed 26,735 people, of which 11,267 were special
agents.


                        REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


FBI Priorities

      According to the FBI’s 5-year strategic plan issued in May 1998, the
Bureau’s highest priority is national and economic security. This is defined as
“foreign intelligence, terrorist, and criminal activities that directly threaten the
national or economic security of the United States.” The strategic plan further
states that as a national organization, the FBI must first address those issues
that are national in scope and those crimes that threaten the security of the
nation. The FBI’s plan identified three general functional areas that describe
and prioritize the variety of threats that it must address to realize the goal of
enhanced national and individual security.




                                 - ii -
                      REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED



                  TIER ONE: National and Economic Security
         Foreign intelligence, terrorist, and criminal activities that directly
         threaten the national or economic security of the United States.
                                  STRATEGIC GOALS
    •     Identify, prevent, defeat intelligence operations that constitute a
          threat to U.S. national security.
    •     Prevent, disrupt, defeat terrorist operations before they occur.
    •     Deter and prevent criminal conspiracies from defrauding major
          U.S. industries and the U.S. government.
    •     Deter the unlawful exploitation of emerging technologies by foreign
          powers, terrorists, and criminal elements.

            TIER TWO: Criminal Enterprises and Public Integrity
        Crimes that affect public safety or undermine the integrity of American
                                         society.
                                    STRATEGIC GOALS
    •     Identify, disrupt, and dismantle organized criminal enterprises.
    •     Identify, disrupt, and dismantle targeted international and national
          drug trafficking organizations.
    •     Reduce public corruption at all levels of government.
    •     Deter civil rights violations.

                     TIER THREE: Individuals and Property
            Crimes that affect individuals and crimes against property.
                                    STRATEGIC GOAL
    •     Reduce the impact of the most significant crimes that affect
          individuals and property.


Source: FBI Strategic Plan 1998 – 2003

FBI Programs

     As of June 2002, the FBI classified its investigative activities into ten
programs according to the nature of the work. Within each of these
programs, the activities are further categorized by an investigative

                                   - iii –
                         REDACTED AND UNCLASSIFIED
                              REDACTED AND UNCLASSIFIED


 classification and, if appropriate, a sub-program. The programs and their
 areas of responsibility, as illustrated by the sub-program and investigative
 classification examples listed, are as follows:

                                                               SUB-PROGRAM AND
ACRONYM                  PROGRAM NAME
                                                            CLASSIFICATION EXAMPLES
                                                          Foreign Counterintelligence
    NFIP           National Foreign Intelligence          FBI Security
                                                          International Terrorism

                   National Infrastructure                Computer Intrusion Criminal Matters
  NIPCIP
                   Protection/Computer Intrusion          Protection of Transportation Facilities

                                                          Counterterrorism Preparedness
      DT           Domestic Terrorism
                                                          Weapons of Mass Destruction

                                                          Bankruptcy Fraud
    WCC            White Collar Crime                     Health Care Fraud
                                                          Wire and Mail Fraud

                                                          Mexican/Criminal Syndicates
    OC/D           Organized Crime/Drugs
                                                          Asian Criminal Enterprise

                                                          Fugitives
                   Violent Crimes &
    VCMO                                                  Violent Gangs
                   Major Offenders
                                                          Crimes Against Children

                                                          Racial Discrimination
      CR           Civil Rights
                                                          Involuntary Servitude and Slavery

                                                          Background Investigations
                                                          Recruitment and Processing
     APP           Applicant Matters
                                                          Investigations of White House Staff &
                                                          Visitors

                                                          Federal Training
   TRAIN           Training
                                                          State and Local Training

                                                          Freedom of Information Act Issues
    MISC           Miscellaneous Matters
                                                          Public Relations Matters
Source: FBI Finance Division and FY 2002 Investigative Classifications booklet


 The FBI’s Utilization of Personnel Resources

        Although the strategic plan consistently identified national security
 issues as the FBI’s highest priority, prior to 9/11 the Bureau devoted
 significantly more special agent resources to traditional law enforcement

                                        - iv –
                              REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


activities such as white collar crime, organized crime, drug, and violent
crime investigations than to domestic and international terrorism issues.
In fact, as shown in
the table to the                    AGENT USAGE IN TERRORISM-RELATED AND
       2                              NON TERRORISM-RELATED PROGRAMS
right, in fiscal year
(FY) 2000 (the last        8,000
full fiscal year prior



                             AVERAGE AGENTS ON BOARD (AOB)
                                                Terro rism   No n-Terro rism

to 9/11) the FBI           7,000

utilized 6,815 agents      6,000
in non terrorism-
                           5,000
related criminal
investigative              4,000
programs: 2,426 in
                           3,000
White Collar Crime
(WCC), 2,172 in            2,000
Organized                  1,000
Crime/Drugs (OC/D),
2,055 in Violent               0
                                      2000                 2001              Jun-02
Crimes and Major
                                                  FISCAL YEAR
Offenders (VCMO),
                                             Source: FBI TURK System
and 162 in Civil
Rights (CR). In
comparison, a total of 2,126 agents worked in the FBI’s three programs
related to terrorism.

      Similarly, in FY 2001 the FBI’s non-terrorism programs continued to
dominate agent utilization. This situation changed dramatically in FY 2002
when the number of FBI special agents working on terrorism-related matters
more than doubled from the previous year, to 4,680, while the number
dedicated to non-terrorism matters fell from 6,449 to 3,976.

      In comparison to agent utilization, an analysis of the FBI’s utilization of
its support personnel over the same period revealed that the Bureau’s use of
these resources has been in line with its strategic plan since the beginning of
our review period in FY 1996; NFIP3 has consistently utilized more



2
  Our analyses of resource utilization are based upon information contained in the FBI’s
Time Utilization and Recordkeeping (TURK) system, a module of the payroll system. The
TURK system contains data on non-supervisory, non-Headquarters personnel utilization
(Average On Board) and work hours expended. The data is captured in 13 TURK periods in
each fiscal year, with each TURK period consisting of two, two-week pay periods.
3
  The FBI’s international terrorism efforts are consolidated in the National Foreign
Intelligence Program (NFIP).

                                    -v–
                         REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


support personnel resources than any other program. In fact, when all other
programs are combined, NFIP continues to lead in the utilization of support
                                                personnel resources.
           SUPPORT PERSONNEL UTILIZATION
             NFIP vs. ALL OTHER PROGRAMS
                                                However, even when
                  FY 1996 THROUGH 2001          support personnel are
                                                added to special agents,
                                                the FBI’s terrorism-related
                                                programs utilized
                                                significantly fewer
                      CLASSIFIED
                                                personnel resources in
                    INFORMATION
                                                FYs 2000 and 2001 than
                       REDACTED
                                                those not related to
                                                terrorism. However, the
                                                increase in agents working
                                                terrorism matters in
                                                FY 2002, combined with
    Source: FBI TURK System
                                                the already significant
                                                number of support staff
 related to these programs, brought the Bureau’s resource utilization more in
 line with its strategic plan.

FBI Response to 9/11

      After 9/11, a large number of FBI personnel were immediately
assigned to investigate the attacks. In addition, the newly-appointed FBI
Director4 announced that the agency would be undergoing a restructuring,
national security would be the agency’s top priority, additional agents would
be assigned to international and domestic terrorism issues, and the FBI’s
investigative efforts would be reprioritized.

        The FBI’s investigation of the 9/11 terrorist attacks, called
PENTTBOMB, used enormous personnel resources – as of June 1, 2002,
Bureau personnel had charged almost four million work hours to this case,
consisting of approximately 3.6 million hours charged by special agents and
over 400,000 hours charged by support personnel. The majority of these
hours were charged in the weeks immediately following 9/11; after this
initial burst of investigative activity the number of work hours expended on
terrorism-related matters began decreasing. However, the level of effort
expended in the FBI’s National Foreign Intelligence Program as of June 1,
2002, remained dramatically higher than the level of effort put forth prior to
9/11. In fact, while most other programs experienced a decrease in agent
work hours, NFIP saw an increase of 62 percent from August 2001 to June 1,
2002.
4
    Robert S. Mueller, III was sworn in as FBI Director on September 4, 2001.

                                    - vi –
                          REDACTED AND UNCLASSIFIED
                                   REDACTED AND UNCLASSIFIED
                                     AGENT HOURS BY FBI PROGRAM AREA
                                      SEPTEMBER 2000 TO JUNE 1, 2002

              1,600,000

              1,400,000

              1,200,000
AGENT HOURS




              1,000,000

               800,000

               600,000

               400,000

               200,000

                     0




                          -S 1
                                 01




                                 01




                                 02
                                 01



                                 01




                                 02




                          U 2
                         JU 1




                                 02
                          O 1
                                 01
                          -F 1

                          M 1




                          -F 2

                          M 2
                                 00




                                 01
                                   0




                                   1
                         -D 0




                         -D 1
                                  0




                                 0
                                 0




                                 0
                                 0

                                 0




                                 0

                                 0
                    CT T 0
                    CT T 0

                                 0




                                 0
                               G
                               Y
                             PR




                             PR
                               R



                               Y




                               R



                               Y
                               E




                               E
                    SE EP
                               E
                              N




                              N
                   FE EB




                   FE EB
                  EC EC
                  EC EC
                              V




                              V
                             N




                             N
                             A




                             N



                             U




                             A
                  JU UL
                             C




                 M MA




                             C




                 M MA
                            A




                            A
                            O




                            O
                           A




                           A
                          U




                         -A
                          O




                          -J




                          -J
                        -N




                        -N
                       R-




                       R-
                         J




                        -J
                        -J




                        G
                       P-




                       P-
                      00




                      01
                       N




                       N
                      B-




                      B-
                        -




                        -
                     LY
                       V




                       V
                     PR




                     PR

                      Y
                      Y




                      U
                     A




                     A
                    JA




                    JA
                    SE




                     O




                     O
                    A




                    A
                    A
                   M




                   M
                   N




                   A




                   N




                   A
                   O




                   O
                 D




                 D
                                                    TURK PERIOD

                            NFIP    NIPCIP   DT   WCC   OC/D      VCMO   CR   APP   TRAIN


              Source: FBI TURK System


      Following 9/11, the FBI also took steps to devote additional resources
to international and domestic terrorism matters in general, not just to the
investigation of the terrorist
attacks. In December 2001 the                         FBI PRIORITIES
FBI Director announced a                                    May 2002
reorganization of the Bureau and          1. Protect the U.S. from terrorist attack
created Executive Assistant               2. Protect the U.S. against foreign
                                          intelligence operations and espionage
Director positions to minimize the        3. Protect the U.S. against cyber-based
supervisory span of control of            attacks and high-technology crimes
executive management.                     4. Combat public corruption at all levels
Following this, the Director              5. Protect civil rights
released a list in May 2002 that          6. Combat transnational and national
                                          criminal organizations and enterprises
reprioritized the Bureau’s activities. 7. Combat major white collar crime
Although making anti-terrorism            8. Combat significant violent crime
work its main priority was                9. Support federal, state, local, and
reflective of strategic priorities        international partners
already in place, the ranking of          10. Upgrade technology to successfully
                                          perform the FBI’s mission
other FBI work was new. For
                                           Source: http://www.fbi.gov
example, combating white collar
crime, parts of which were
formerly a top strategic priority, fell below that of work related to terrorism,
computer security, public corruption, civil rights, and organized crime.



                                             - vii –
                                   REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


       In support of these new priorities, the Director adjusted staffing
numbers for each of the investigative program areas, moving agent positions
into its NFIP and Domestic Terrorism (DT) programs. This realignment of
agent resources, along with new agent positions provided in the FY 2002
budget, resulted in the FBI dedicating 685 additional agents to terrorism-
related matters in FY 2002. Primarily, these agents were moved from drug
investigations within the FBI’s Organized Crime/Drugs program; however,
agent positions also were reassigned from its Violent Crimes and Major
Offenders (VCMO) and White Collar Crime (WCC) programs.

       As shown in the graph on the previous page, the increases in NFIP
began in the TURK period in which 9/11 occurred. The increases in agent
hours dedicated to terrorism-related matters were a direct result of the
catastrophic events of that day. Had 9/11 not occurred, the data indicates
that agent utilization in NFIP would have remained unchanged in FY 2001.
Consequently, without this major terrorist event, Bureau-wide agent
utilization would have remained the same and would not have begun to
come into alignment with the strategic plan.

A Program-by-Program Look at the FBI

       Before 9/11 and the related FBI restructuring, not only did NFIP utilize a
smaller number of agent resources than the WCC and VCMO programs, it also
utilized a smaller percentage of its allocated personnel than these other
programs. The FBI’s Resource Management and Allocation (RMA) office
allocates the Bureau’s human resources and establishes Funded Staffing Levels
(FSLs) for agents and support. Under this system, each FSL equals one
person. Program Managers then monitor human resource utilization by
comparing Average On Board (AOB) numbers to the number of allocated FSLs.
If the AOB number is less than the FSL, the FBI is using fewer human
resources than it was allocated, thus underutilizing. If the AOB is greater than
the FSL, the FBI is using more human resources than allocated for a particular
program area, or overutilizing.

       Using data from the FBI’s TURK system, we calculated annual AOB
totals for special agent personnel5 for the FBI as a whole and for the
individual FBI programs. We then compared the annualized AOB data to the
annual FSL data for FYs 1996 through 2001. We found that the FBI
generally underutilized its agent resources in FYs 1996 through 2001; an
occurrence that most FBI officials we interviewed attributed to vacancies.
The following matrix provides a summary of our program-level analysis. The

5
   We did not perform this analysis for support personnel because support personnel are
allocated by type (clerical/administrative, investigative, and technical), not by investigative
programs.

                                    - viii –
                          REDACTED AND UNCLASSIFIED
                              REDACTED AND UNCLASSIFIED


yellow shading indicates underutilization while the blue shading indicates
overutilization.

                              FBI SPECIAL AGENT UTILIZATION

     PROGRAM                                                                              Utilization
                           1996      1997      1998       1999       2000       2001              6
                   FY                                                                       Rate


        FBI-WIDE             U         U          U          U          U          O        97.8%

           NFIP              U         U          U          U          U          O        89.8%
         NIPCIP7            NA         NA        NA          U          O          O        91.6%
             DT              O         U          U          U          O          U        90.5%
           WCC               U         U          U          U          U          U        95.5%
           OC/D              U         U          U          U          U          U        91.2%
           VCMO              O         O          O          O          O          O       105.6%
             CR              U         U          O          O          O          U       103.6%
      APPLICANTS             O         O          O          O          O          O       245.2%
       TRAINING              O         O          O          O          O          O       146.7%
    Source: FBI TURK system and FSL data

       Our comparison of agent resource utilization at the program level
revealed that although utilization varied among criminal investigative
programs, only the VCMO program lacked a period of underutilization that
reflected the trend for the Bureau as a whole. Instead, the VCMO program
overutilized its agent resources for each year in the reviewed timeframe. In
addition, the terrorism-related programs (NFIP, NIPCIP, and DT) and the
Organized Crime/Drugs (OC/D) program underutilized its agent resources at
a rate much greater than the overall Bureau-wide underutilization.

      Further, the non-criminal investigative programs of Applicant Matters
and Training utilized considerably more resources than allocated on a
consistent basis.8 According to FBI officials, this occurred because these
programs support all other programs. For example, the officials advised that
much of the work in the Applicant program was dedicated to the recruitment
and hiring of new personnel for all areas, and personnel in all programs
charged time to Training, regardless of the program to which they were
dedicated. We have recommended that the FBI examine the planning factors

6
    We calculated the utilization rate by dividing the total AOB by the total FSL for the review period.
7
    The National Infrastructure Protection/Computer Intrusion Program was created in FY 1999.
8
    Examples of the work performed within these programs are provided in the table on page iv.

                                        - ix –
                              REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


and processes for these programs and make necessary adjustments to more
closely approximate the agent resources they need.

FBI Field Offices: Investigative Programs Receiving the Most
Resources

       The historical trend of low agent resource utilization in the FBI’s
terrorism-related programs also is evident in the results of our analysis of
FBI field office data. To determine how the FBI’s program-specific work has
been distributed throughout the FBI’s field structure, we conducted an
annual (by fiscal year) analysis of resource utilization by program for each of
the FBI’s 56 field offices. For each office, we determined the program that
utilized the most agent resources for the most fiscal years during the seven
fiscal year periods reviewed, and characterized the office by that program
designation. For example, we designated the Albany Field Office as a WCC
office, and the Washington, D.C., Field Office as an NFIP office because of
the programs in which the predominance of its agent resources were utilized
from FY 1996 through June 1, 2002.

       Of the 56 FBI field offices, 25 offices expended the most special agent
resources in WCC; 16 offices focused on VCMO; 10 offices worked more in
OC/D; and the predominant program in 4 offices was NFIP. In the remaining
office, agent utilization was distributed evenly between the VCMO and WCC
programs. As shown in the following chart, the predominant program in
75 percent of the FBI’s field offices was either WCC or VCMO.

          PREDOMINANT PROGRAMS FOR FBI FIELD OFFICES
              OCTOBER 1, 1995 through JUNE 1, 2002


                                           NFIP
                                OC/D       7%
                                18%

                        WCC &
                        VCMO
                         2%



                                                      WCC
                                                      45%
                          VCMO
                          28%




                            Source: FBI TURK System

                                -x–
                     REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED


Universe of FBI Cases

       In addition to our analysis of the FBI’s human resource allocation and
utilization, we also obtained, from the Bureau’s Automated Case Support
(ACS) system,9 data of all cases recorded between October 1, 1995, and
June 14, 2002. This reflected all cases that were opened during our review
period, as well as those that were opened prior to the start of the review
period but remained open as of October 1, 1995.

       Our analysis of FBI casework revealed that the VCMO program
accounted for the most cases worked10 during this timeframe. In fact, one
quarter of all the cases the FBI worked during that period were in VCMO.
NFIP accounted for 17 percent of the cases while the Domestic Terrorism (DT)
program made up only one percent during the same time period. This
distribution of cases is shown in the following chart.

                              BREAKDOWN OF FBI CASES
                           OCTOBER 1995 through JUNE 2002



                                            MISC
                                            16%               WCC
                                                              13%
                                                                    OC/D
                                NFIP                                       CR
                                                                     3%
                                17%                                        3%

                                                                          TRAIN
                                                                            1%
                                                                         DT
                                                                         1%

                                     APP                            NIPCIP
                                     21%                   VCMO      0%
                                                           25%




                                       Source: FBI ACS System




9
   ACS is a centralized electronic case management system used by the FBI. It contains both
historical and current case data for all FBI cases, except those that have been destroyed or archived.

10
     We defined a case as “worked” if it was open at any time during our review period.

                                       - xi –
                             REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED


      Following 9/11 and the FBI’s increased attention to national
security-related matters, the FBI began opening more terrorism-related
investigations. While the average number of case openings per month in the
VCMO, WCC, OC/D, and Civil Rights (CR) programs decreased in FY 2002,
the average monthly case opening rate in the NFIP and DT programs
increased.

       Our review of FBI casework also revealed trends in case openings and
closings unrelated to 9/11. In general, we identified a downward trend in
both the number of cases opened and closed per month. Specifically,
between FYs 1997 and 2001 we identified a one-third reduction in case
openings, from an average of just over 12,000 cases opened per month in
FY 1997 to a little more than 8,000 in FY 2001. This trend reversed in the
first eight months of FY 2002 when about 2,000 additional cases per month
were opened, many of which were in the NFIP and DT programs.

       Our review of case closings revealed a similar trend. Excluding FY 1999,
the FBI consistently closed fewer cases per month in each successive fiscal
year from 1998 to June 2002. We excluded the FY 1999 data because in
April 1999 the FBI administratively closed a large number of inactive cases in
preparation for its Year 2000 computer systems conversion.

       In reviewing FBI casework, it is important to note that cases in
different programs vary significantly in importance and resource
commitment. We reviewed the time FBI personnel spent investigating
certain significant investigations designated as major cases.11 These are
investigations, which, at their outset, are of national importance and/or
indicate the potential for a massive commitment of manpower throughout
FBI field offices.

      Using data from the TURK system, we calculated the hours charged by
FBI personnel from October 1995 through June 2002 to all major cases. As
detailed in the following table, we found that, by a large margin, the major
case utilizing the most combined agent and support resources during that
time period has been the investigation of the attacks on 9/11. Further review
revealed that 11 of the top 15 major cases, in terms of total FBI personnel
hours worked (special agent and support personnel), from October 1995
through June 2002 are related to terrorism.



11
   The FBI designates major cases to track the time spent on large, national investigations. Aside from
these major cases, the FBI does not track time by individual cases.




                                     - xii –
                           REDACTED AND UNCLASSIFIED
                              REDACTED AND UNCLASSIFIED


                             TOP 15 FBI MAJOR CASES12
                         OCTOBER 1995 THROUGH JUNE 200213

         RANK             MAJOR CASE                                           HOURS14
           1 PENTTBOMB                                                        3,994,968
           2 INNOCENT IMAGES                                                     628,255
           3 CAMPCON                                                             332,378
           4 2002 OLYMPIC WINTER GAMES                                          297,075
           5 OKBOMB                                                             294,157
           6 SW BORDER PROJECT/PUBLIC CORRUPTION                                 274,450
           7 UNABOM                                                             223,586
           8 SANDBOMB                                                           213,145
           9 CENTBOM                                                            179,265
          10 THUNDER ROLL                                                       166,682
          11 AMADO CARRILLO FUENTES INITIATIVE                                   147,429
          12 KENBOM                                                             145,645
          13 1996 SUMMER OLYMPICS                                               143,163
          14 AMERITHRAX                                                         116,575
          15 USAMA BIN LADEN15                                                   92,569
         Source: FBI TURK System and FBI Finance Division


Conclusions and Recommendations

       The FBI’s 1998 5-year strategic plan stated that preventing and
defeating foreign intelligence, terrorist, and criminal activities that directly
threaten the national security of the United States were the Bureau’s highest
priorities. However, prior to the 9/11 terrorist attacks the FBI utilized more
of its agent resources in the White Collar Crime (WCC), Violent Crimes and
Major Offenders (VCMO), and Organized Crime/Drugs (OC/D) programs than
in programs related to terrorism. To its credit, the Bureau responded to the
9/11 tragedy with an unprecedented level of effort. Additionally, as time
progressed and the amount of resources dedicated to the PENTTBOMB
investigation decreased, FBI personnel continued to devote more time to
terrorism-related matters in general than any other single area, thus bringing
the Bureau’s operations into closer alignment with its strategic plan.

      We believe the FBI needs to ensure that its operational priorities, in
terms of human resource utilization and investigations, consistently coincide
with the priorities that are established through the strategic planning
12
     A description of these major cases appears in Appendix II.
13
     Terrorism-related cases are identified in bolded italics.
14
   The hours shown do not necessarily represent total hours charged to these cases. Instead, the
number reflects the hours charged during our review period of October 1, 1995, through June 1, 2002.
15
     This case was opened on May 14, 1999.

                                        - xiii –
                              REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


process. Based on the issues we identified in this report, we offer seven
recommendations to improve the FBI’s management of human resources
and casework. Our recommendations focus on encouraging the FBI to
review systematically its personnel allocation process and its methods for
evaluating human resource utilization. The FBI should also examine the
decreasing rate of case openings and closings and the increasing population
of open cases to identify the causes of these recent trends. We believe it is
important that the FBI closely review the information we have provided and
address weaknesses in its human resource allocation and utilization
processes as well as the recent trends in its casework, to help ensure that
Bureau activities do not differ widely from its strategic plan.




                               - xiv –
                     REDACTED AND UNCLASSIFIED
                   REDACTED AND UNCLASSIFIED


  FEDERAL BUREAU OF INVESTIGATION CASEWORK AND
           HUMAN RESOURCE ALLOCATION

                       TABLE OF CONTENTS
CHAPTER 1:   INTRODUCTION ........................................................... 1
             Jurisdiction and Span of Control ..................................... 1
             FBI Reorganization ....................................................... 2
             FBI Reprioritization....................................................... 6
             Audit Approach ............................................................ 8
             Prior Reviews............................................................... 9

CHAPTER 2:   RESOURCE ALLOCATION, TIME UTILIZATION, AND
             CASEWORK DATA....................................................... 10
             Resource Allocation .................................................... 10
             Resource Utilization Data............................................. 12
             FBI Casework Data ..................................................... 15

CHAPTER 3:   TRENDS IN RESOURCE UTILIZATION
             FY 1996 THROUGH FY 2001 ......................................... 19
             FBI Strategic Priorities ................................................ 21
             Special Agents ........................................................... 23
             Support Personnel ...................................................... 25
             Conclusion ................................................................ 27

CHAPTER 4:   RESOURCE IMPACT OF TERRORIST EVENTS
             OF 9/11/01 ............................................................... 28
             Changes in Hours Worked............................................ 29
             Changes in Personnel Distribution................................. 32
             Ratio of Agents to Support Before and After 9/11............ 35
             Conclusion ................................................................ 37

CHAPTER 5:   COMPARISON OF RESOURCE PLANNING
             TO UTILIZATION ........................................................ 38
             FBI Resource Planning ................................................ 38
             National Foreign Intelligence Program ........................... 40
             National Infrastructure Protection/
             Computer Intrusion Program........................................ 41
             Domestic Terrorism Program........................................ 42


                   REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED

                White Collar Crime Program......................................... 43
                Organized Crime/Drugs Program .................................. 44
                Violent Crimes and Major Offenders Program ................. 45
                Civil Rights Program ................................................... 46
                Applicant Matters Program........................................... 48
                Training Program ....................................................... 49
                Conclusion ................................................................ 50

CHAPTER 6:      FIELD OFFICE AGENT RESOURCE SPECIALIZATION ......... 52

CHAPTER 7:      TRENDS IN RESOURCE UTILIZATION ON
                MAJOR CASES............................................................ 57
                Overall FBI Largest Major Cases ................................... 57
                Major Case Activities: Agents vs. Support Personnel....... 58
                System Improvements ................................................ 59

CHAPTER 8:      FBI CASEWORK.......................................................... 60
                Data Analysis............................................................. 61
                Cases Worked............................................................ 62
                Case Openings........................................................... 64
                Case Closings ............................................................ 65
                Cases Opened and Closed in the Same Fiscal Year .......... 67

CHAPTER 9:      OVERALL CONCLUSIONS AND RECOMMENDATIONS ........ 70

                STATEMENT ON MANAGEMENT CONTROLS .................... 75

APPENDIX I:     OBJECTIVES, SCOPE, AND METHODOLOGY .................... 76

APPENDIX II:    EXAMPLES OF MAJOR CASES ....................................... 82

APPENDIX III:   LIST OF TURK PERIODS IN REVIEW TIMEFRAME ............. 87

APPENDIX IV:    CROSSWALK OF FBI PROGRAMS AND SUB-PROGRAMS.... 91

APPENDIX V:     DEFINITIONS OF ACRONYMS AND ABBREVIATIONS ........ 94

APPENDIX VI:    FEDERAL BUREAU OF INVESTIGATION RESPONSE .......... 95

APPENDIX VII: OFFICE OF THE INSPECTOR GENERAL,
              AUDIT DIVISION ANALYSIS AND SUMMARY OF
              ACTIONS NECESSARY TO CLOSE THE REPORT...............109


                      REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


                       CHAPTER 1: INTRODUCTION

        The Federal Bureau of Investigation’s (FBI) mission is to protect the
U.S. from foreign intelligence and terrorist activities, investigate violations of
federal criminal law, and provide leadership and assistance to other law
enforcement agencies. It is the principal investigative arm of the
Department of Justice (Department) and has the broadest jurisdiction of any
federal criminal justice agency. It is authorized to investigate more than
200 categories of federal crimes. The FBI’s criminal investigative functions
fall into the categories of counterterrorism, including cyber crime; foreign
counterintelligence; organized crime/drugs; violent crimes and major
offenders; white collar crime; and civil rights.16

     As of June 1, 2002, the FBI employed 26,735 people, of which
11,267 were special agents. The remaining employees are professional and
administrative personnel such as translators, intelligence specialists,
mechanics, and administrative assistants.

       Our audit objectives were to: 1) review the FBI’s allocation and
utilization of human resources in its investigative programs from FY 1996
through June 2002, and 2) determine the types and number of cases
investigated over the same time period. Additional information on our audit
objectives, scope, and methodology is contained in Appendix I.

Jurisdiction and Span of Control

       The FBI does not have one specific statutory charter. The agency
derives its authority primarily from Title 28 of the Code of Federal
Regulations (CFR) and Titles 18 and 28 of the U.S. Code. Title 28 of the CFR
grants the FBI Director the authority to investigate violations of laws,
including criminal drug laws, except in cases in which such responsibility is
by statute or otherwise specifically assigned to another investigative agency.
It also makes the FBI Director’s authority regarding criminal drug laws
concurrent to that of the Administrator of the Drug Enforcement
Administration (DEA). Title 28 of the CFR also mandates that the FBI
exercise lead agency responsibility when investigating crimes in its
jurisdiction that involve terrorist activities or acts in preparation of terrorist
activities within U.S. jurisdiction. This includes the collection, coordination,
analysis, management, and dissemination of intelligence and criminal
information.

16
   These categories, and other non-criminal investigative activities, are described in more
detail in the section entitled Investigative Programs, Sub-Programs, and Classifications on
page 15.


                         REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


       Many of the FBI’s other functions, including much of its national security
and counterintelligence activities, are authorized by Executive Order or
Congressional mandate. Congressional directives sometimes result in the FBI
having the authority to investigate crimes for which other federal agencies also
have jurisdiction. For example, the FBI and Internal Revenue Service both
have the authority to conduct investigations of federal gambling violations. In
addition, the FBI, the United States Marshals Service (USMS), and the Federal
Bureau of Prisons each have jurisdiction over violations of federal escape and
rescue statutes. The FBI has entered into agreements with other federal
agencies to reduce duplication of effort by sharing information, defining
jurisdictional issues, and delineating agency responsibilities.

      Because federal and state laws address similar criminal activity, FBI
investigative activities overlap with those of state and local law enforcement
agencies. For example, there are similar state and federal laws related to
carjacking, fraud, child support matters, automobile theft, and drug crimes.

FBI Reorganization

      On November 8, 2001, the Attorney General responded to the
September 11, 2001 attacks (hereafter referred to as 9/11) by announcing
reforms and restructuring within the Department of Justice. Specifically, he
stated that the Department’s first and overriding priority was now defending
the nation against terrorist attacks. He further directed that the FBI be
reformed to put prevention of terrorism at the center of its law enforcement
and national security efforts.

       In December 2001, the FBI announced a restructuring of its
organization. Recognizing new areas of importance, it created a Chief
Information Officer position, Cyber Division, Security Division, Office of
Intelligence, Office of Law Enforcement Coordination, and Records
Management Division. In May 2002, the FBI created a new Investigative
Technologies Division and transferred to it some technical investigative
functions from the Laboratory Division. In addition, to reduce the bottleneck
of information and work flowing into the Deputy Director’s office, the Director
created Executive Assistant Director positions that oversee 13 divisions and
4 offices, most of which are located at FBI Headquarters.

      Counterterrorism and Counterintelligence Branch – Consisting of the
Counterterrorism and Counterintelligence Divisions, this branch is
responsible for national security initiatives. The Counterintelligence Division
investigates violations of espionage statutes. The Counterterrorism
Division’s activities include threat assessments, investigations, and
responses to threats and attacks against critical infrastructure, as well as the
coordination of federal efforts to assist state and local first responders.

                                -2–
                     REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


       Law Enforcement Services Branch – This branch includes FBI activities
that support its investigative functions, such as the forensic laboratory,
criminal justice information services (e.g., National Crime Information Center,
Fingerprint Identification Program, and Uniform Crime Reporting), and the
training academy. In addition, this branch is responsible for facilitating
coordination and information sharing with other law enforcement agencies,
both foreign and domestic.

      Administration Branch – FBI functions related to budgetary and fiscal
matters, information resources and management, personnel, and internal
security are housed in this branch.

      Cyber and Criminal Investigative Divisions – The Cyber Division
addresses criminal investigations where information technology is the principal
instrument of criminal activity. The Criminal Investigative Division includes
the programs related to the FBI’s traditional law enforcement activities,
namely: financial/white collar crime (e.g., public corruption; economic crimes;
and health care, internet, and government fraud); organized crime (e.g., drug
matters, racketeering, and money laundering); violent crimes and major
offenders (e.g., fugitive apprehension, gangs, kidnappings, bank robberies,
and serial murders); and civil rights violations.

      In addition to the reorganization of FBI activities described above, in
FY 2003 the FBI Director announced that he had proposed the creation of a
new Executive Assistant Director for Intelligence position. This proposal
places the Office of Intelligence under the supervision of this new Executive
Assistant Director and includes a plan to elevate intelligence work within the
FBI to a status comparable to that currently given to national security and
criminal investigative matters. The Attorney General approved this proposal
on May 21, 2003.

       These branches and their respective divisions and offices provide
guidance for 56 field offices, approximately 400 satellite offices (called
resident agencies), and four specialized field installations located throughout
the U.S., as well as more than 40 foreign liaison posts known as Legal
Attachés. Within these branches are the investigative programs under which
all of the FBI’s cases are classified. As of June 2002, the FBI categorized
each of its investigations under one of the following ten programs:

   •   National Foreign Intelligence                  •   White Collar Crime
   •   Domestic Terrorism                             •   Civil Rights
   •   National Infrastructure/Computer Intrusion     •   Applicant Matters
   •   Organized Crime/Drugs                          •   Training
   •   Violent Crimes & Major Offenders               •   Miscellaneous

                                -3–
                     REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


      The FBI’s international terrorism efforts are combined in the National
Foreign Intelligence Program (NFIP). The FBI’s reorganization resulted in
this program no longer being consolidated into one area of responsibility on
the organizational chart. Instead, portions of NFIP are housed in the
Counterterrorism, Counterintelligence, and Cyber Divisions. The FBI’s recent
reorganization is depicted in the organizational chart (Exhibit 1-1) on the
following page. Additional information on the FBI’s investigative programs is
found in Chapter 2.




                                -4–
                     REDACTED AND UNCLASSIFIED
                                                     REDACTED AND UNCLASSIFIED


                      EXHIBIT 1-1:
            FEDERAL BUREAU OF INVESTIGATION                                                                                        Chief of Staff
                  ORGANIZATION CHART
                                  as of 05/21/2003                                                                              Inspection Division
                               Source: FBI Finance Division
                                                                                                                                Office of Public Affairs

                                                                                                                            Congressional Affairs Office
                                                                         DIRECTOR
                                   SAC Advisory                                                                              Office of the Ombudsman
                                    Committee
                                                                             Deputy
                                                                             Director                                        Office of General Counsel

                       = component existing                                                                             Office of Equal Employment Opportunity
                         prior to reorganization
                                                                                                                             Chief Information Officer
                       = component created in
                         reorganization                                                                                 Office of Professional Responsibility



                                          Executive Assistant Director
Executive Assistant Director                                                                              Executive Assistant Director               Executive Assistant Director
                                             for Counterterrorism/
      for Intelligence                                                                                   for Law Enforcement Services                    for Administration
                                              Counterintelligence


                                                                                           Office of Law Enforcement
                                                                                                  Coordination                                                          Records
                                                                                                                                           Office of Strategic
                                                                                                                                                Planning
                                                                                                                                                                       Management
                                                                                             Office of International
                                                                                                   Operations
                                                                                                                                                                        Division

                                                                                           Critical Incident Response
                                                                                                      Group


                                                                                                                                               Administrative
                                                                                                                                                                         Security
                                                                                                                                                 Services
                                                                                                                                                                         Division
                                                                                      Criminal                                                   Division
         Office of                                               Cyber                                    Training         Laboratory
        Intelligence                                                                Investigative
                                                                Division                                  Division          Division
                                                                                      Division



                                                                                                    Criminal Justice
                                         Counter-              Counter-                                                    Investigative                               Information
                                                                                                      Information                                     Finance
                                         terrorism            intelligence                                                 Technologies                                 Resources
                                                                                                        Services                                      Division
                                          Division              Division                                                     Division                                    Division
                                                                                                        Division




                                                                -5–
                                                     REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


FBI Reprioritization

      The FBI Director announced in December 2001 that he was taking
steps to reprioritize the work performed by the agency. On May 21, 2002,
he issued a memorandum to all FBI employees emphasizing the following list
of organizational priorities:

     1.     Protect the United States from terrorist attack.
     2.     Protect the United States against foreign intelligence operations
            and espionage.
     3.     Protect the United States against cyber-based attacks and high
            technology crimes.
     4.     Combat public corruption at all levels.
     5.     Protect civil rights.
     6.     Combat transnational and national criminal organizations and
            enterprises.
     7.     Combat major white collar crime.
     8.     Combat significant violent crime.
     9.     Support federal, state, county, municipal, and international
            partners.
     10.    Upgrade technology to successfully perform the FBI’s mission.

      In the memorandum, the Director also emphasized that the FBI would
focus on a new goal of prevention rather than prosecution. He added that the
FBI would shift its focus from traditional reactive law enforcement operations
and increase its emphasis and resources in the intelligence and analysis
areas, although it would continue to foster partnerships with other federal,
state, and local law enforcement agencies. The Director noted that
counterterrorism is the top priority of every field office, as well as FBI
Headquarters, and that this will require a constant reassessment and shifting
of resources to address counterterrorism.

       The Director also stated in his announcement that within the FBI’s
traditional areas of responsibility (i.e., white collar crime, organized crime,
and violent crime investigations), the agency would focus its resources on
major crimes where it could make unique law enforcement contributions. In
late May 2002, the Director formally moved, or reprogrammed, agents
assigned to several other law enforcement areas into terrorism-related
programs. As shown in the following table, the Drugs component suffered
the largest loss of dedicated agent personnel.

                                 -6–
                      REDACTED AND UNCLASSIFIED
                                           REDACTED AND UNCLASSIFIED



                                        EXHIBIT 1-2
                           ALLOCATION OF FBI SPECIAL AGENTS AS OF
                                       MAY 29, 2002

                                                                  ALLOCATED
                                                                         17
                                                                   AGENTS
                              INVESTIGATIVE PROGRAM             BEFORE   AFTER   CHANGE
                           Foreign Counterintelligence18
           TERRORISM




                           Security18
            RELATED




                                                                      CLASSIFIED
                           International Terrorism18                 INFORMATION
                           Domestic Terrorism                          REDACTED
                           National Infrastructure
                           Protection/Computer Intrusion
                                         SUBTOTAL                2,212   2,897     685
                           Civil Rights                           153      153       0
           NON-TERRORISM




                                               19
                           Organized Crime                        700      698      -2
                                 19
                           Drugs                                  890      490    -400
              RELATED




                                      20
                           OCDETF                                 488      488       0
                           Violent Crimes and Major Offenders    1,821   1,762     -59
                           White Collar Crime                    2,405   2,360     -45
                           Applicant Matters                      121       80     -41
                           Training                                91       91       0
                                            SUBTOTAL             6,669   6,122    -547
                                                       21
                                   OVERALL TOTALS               8,881    9,019     138
             Source: FBI Resource Management and Allocation office


17
   Reflects the Director’s proposal to reorganize the FBI, as well as other changes, as of
May 29, 2002. A discussion of the process of allocating special agent resources can be
found in Chapter 2.
18
     This is a component of the National Foreign Intelligence Program.
19
     This is a component of the Organized Crime/Drugs (OC/D) Program.
20
    The Organized Crime/Drug Enforcement Task Force (OCDETF) program is a coordinated
effort of the following nine federal agencies: DEA; FBI; the former Immigration and
Naturalization Service (now a part of the Department of Homeland Security); USMS;
U.S. Attorneys; Bureau of Alcohol, Tobacco and Firearms; U.S. Customs; Internal Revenue
Service; and U.S. Coast Guard. The FBI’s budget specifically earmarks positions for this
purpose and identifies them as reimbursable resources. Although both the OC/D and
Violent Crimes and Major Offenders programs contribute to the overall FBI OCDETF effort,
this component is considered part of the OC/D program.
21
   The totals do not reflect the FBI’s full contingent of special agents; they represent only
non-supervisory special agents assigned to field offices.

                                                      -7–
                                           REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


       Prior to the shift, the Drugs component accounted for 890 agent
positions; however, the Director’s mandate moved 400 of these agents out
of Drugs, reducing the program by 45 percent. In addition, the Organized
Crime, Violent Crimes and Major Offenders, White Collar Crime, and
Applicant Matters programs saw decreases in their dedicated agent
resources. The reprogramming, in concert with the creation of additional
agent positions in the FBI budget, resulted in 685 additional agents
dedicated to terrorism-related matters.

Audit Approach

       This audit sought to review the FBI’s pattern of utilizing resources to
investigate the various crimes under its jurisdiction, both before and
immediately following the 9/11 terrorist attacks. To accomplish this, we
interviewed more than 50 FBI officials and employees to gain an
understanding of its automated systems and its resource allocation process.
We then obtained data from the FBI’s Time Utilization and Recordkeeping
(TURK) system for the period of October 1, 1995, through June 1, 2002.
Using this data, we performed an analysis of trends in overall resource
utilization between FYs 1996 and 2001 (Chapter 3), an analysis of the
impact of 9/11 on FBI resource utilization (Chapter 4), a comparative trend
analysis of resource planning and utilization on a program-by-program basis
(Chapter 5), a review of predominant investigative programs in each of the
56 field offices (Chapter 6), and a review of resource utilization on the top
15 major cases22 (Chapter 7).

      Additionally, we examined the types and number of cases the FBI
investigated both before and after 9/11. To that end, we obtained data from
the FBI’s Automated Case Support (ACS) system for each case that was
active between October 1, 1995, and June 14, 2002. We summarized this
data by investigative program and analyzed trends in the FBI’s casework
related to the average number of active cases per month, average number
of cases opened per month, and the average number of cases closed per
month. In addition, we identified trends in the average number of “short-
term” cases – cases that opened and closed in the same fiscal year. We
performed these analyses on both an overall and program-by-program
basis. The results of these analyses can be found in Chapter 8.




22
   Major cases are investigative matters, which, at their outset, are of national importance
and/or indicate the potential for a massive commitment of manpower throughout the field.
For examples of major cases, see Appendix II.

                                    -8–
                         REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


Prior Reviews

       We did not identify any prior Office of the Inspector General (OIG) or
General Accounting Office reviews of trends in FBI resource allocation,
utilization, or case activity. According to the FBI, it has not performed any
comprehensive reviews or trend analyses on an agency-wide basis;
however, individual FBI program managers do receive resource utilization
reports and perform ad-hoc reviews of activities for which they are
responsible.23




23
    For more information on these reviews, see the sections entitled FBI Programmatic Use
of TURK Data and FBI Programmatic Use of ACS Data on pages 14 and 17, respectively.

                                   -9–
                        REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED


CHAPTER 2: RESOURCE ALLOCATION, TIME UTILIZATION,
               AND CASEWORK DATA
       Before discussing the results of our analyses of the FBI’s resource
utilization and casework, we first discuss the Bureau’s resource allocation
process and the systems in which the utilization and casework data are
maintained. We then describe the terminology and evaluative instruments
the agency uses.

Resource Allocation

       The FBI allocates its human resources by establishing Funded Staffing
Levels (FSLs) within each of its investigative program areas. For example,
Exhibit 1-2 shows that the Violent Crimes and Major Offenders program was
allocated 1,762 special agents in 2002. This means that the FBI manager in
charge of the program had that many agents to divide among the 56 field
offices. The FBI Resource Management and Allocation (RMA) office is
responsible for establishing the allocations annually as part of the budget
planning and execution process.

       Process – The process for setting agent and support FSLs begins when
the FBI Finance office directs the Headquarters program managers to submit
resource requests. Each manager reviews annual reports submitted by the
field offices, develops a consolidated request for resources dedicated to the
specific program area, and submits it to the Finance office. The Finance
office reviews each request to ensure it supports the FBI’s strategic plan and
is sufficiently justified. The resource requests are then incorporated into the
budget request that is submitted to the Department’s Justice Management
Division. A flowchart of the FBI budget process is on the following page.

       Using the approved budget figures and in consideration of the FBI’s
priorities and historical use of resources, the RMA office sets the FSLs, by
program, for the fiscal year. Based on a needs analysis completed by each
field office, which includes the Annual Field Office Reports (AFORs), crime
surveys, statistical accomplishments, how the offices have utilized resources
in the past, and direct consultation with field office management,
Headquarters program managers and the RMA office determine the personnel
to be allocated to each field office and submit the information to the Director
for approval.24 After the Director approves the annual FSLs, the RMA office
may make minor adjustments to reflect the occasional transfer of positions
between programs or offices.

24
    Because the FSLs cannot be established until after Congress approves the budget, the allocations
are not finalized until after the start of the fiscal year. For example, the FY 2003 budget was not
approved until February 2003, and the FSLs were not established and sent to field offices until
May 7, 2003.

                                     - 10 –
                           REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED


                                                       EXHIBIT 2-1
                                                   FBI BUDGET PROCESS
                                                                      Attorney General (AG)
                              FBI Executive
FBI Finance Division                                         Office of Management & Budget (OMB)            Congress
                               Managers                       Justice Management Division (JMD)




  Meets with Executive
 Managers to formulate
                                                                                                       Discusses budget request
 budget requests for the
                                                                                                         extensively with FBI
    upcoming year
                                                                                                              Director.
                                                                        AG reviews &
                                                                          approves
                                                                        budget request



  Meets with Strategic
   Planning Office
                                                                                                            Approves
                                                                                                             budget
                                                                        OM B reviews
                                                                         & approves
Develops budget planning                                                budget request
        requests


                            Develops budget requests
                               based on AFORs &
                           consultation with field offices                                                  May amend
                                                                                                             budget
Reviews budget requests                                                 JM D reviews
                                                                         & approves
       & makes
                                                                        budget request
   recommendations

                           Reviews recommendations &
                            makes priority rankings for
                                 budget requests
                                                                                                                 May
                                                                                                              supplement
 Revises budget requests                                                                                        budget
 to comply with current
  AG & OMB guidelines




Coordinates with JMD to
  produce final budget
        request




          Flowchart                                                                                Flow Direction
                                Start/End                    Action               Decision
           Legend


                                       - 11 –
                             REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


       Special agent FSLs reflect only non-supervisory agents in the field
offices; Headquarters and supervisory personnel are not included. Similarly,
FSLs are established for support personnel in FBI field offices only.
However, the FBI does not allocate support FSLs by investigative program.
Instead, field offices are allocated a total number of support personnel in
each of three categories: clerical/administrative, investigative, and
technical.

      OIG Data Collection – We obtained annual special agent and support
FSL information for each fiscal year in the review period. The annual agent
FSL data was broken down by field office and by program and/or sub-
program. We also obtained annual support FSLs for each field office. In our
analyses using FSL data, we utilized the final allocations for each fiscal year
that reflected any mid-year adjustments.

Resource Utilization Data

      Automated System – The FBI uses the Time Utilization and
Recordkeeping (TURK) system to track time spent by most investigative
personnel. Because TURK is used to track investigative efforts, only certain
personnel are required to record their time in the system. According to FBI
guidelines, TURK data input is limited to the following field office
personnel:25


            SPECIAL AGENTS                                SUPPORT

        •   non-supervisory special            •   investigative specialists
            agents grade GS-13
            and below                          •   language specialists

                                               •   financial assistants/analysts
        •   grade GS-14 Chief
            Division Counsels                  •   information technology
                                                   specialists-forensic examiners

        •   grade GS-14 Assistant              •   intelligence research specialists
            Division Counsels
                                               •   surveillance specialists


      These agents and support personnel are referred to as “TURKing”
personnel. These TURKing personnel physically record their time on a paper
form called the FD-420a. Rather than recording the actual number of hours

25
   FBI Headquarters personnel are not required to record their time in TURK because,
generally, they do not work on investigative matters.

                                  - 12 –
                        REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED


they spend working on a particular matter, they record the percentage of
time they work by investigative classification.26 For example, if an agent
spent an entire day working on bank robberies, he would record that
100 percent of his time was expended in the “91” classification, which falls in
the Violent Crimes and Major Offenders (VCMO) program. If, however, that
agent evenly divided his time between bank robbery matters and financial
institution fraud, he would record 50 percent of his time in the VCMO
program and the remaining 50 percent in the “29” classification, found in the
White Collar Crime program. While it is possible to work on several
classifications in a single day, all the percentages listed on the timesheet
must equal 100 percent for each day (these percentages are based on a
10-hour day for agents27 and an 8-hour day for support personnel).

        In general, the TURK system tracks time by investigative program or
sub-program, not by individual case.28 However, the FBI has designated a
small number of investigations as “major cases” and TURKing personnel
working on these investigations record the appropriate major case number
on their TURK forms in addition to all normal data.29 This enables the FBI to
capture the total time expended on its highest profile investigations while
still capturing investigative time by classification.

      The FBI Finance Division maintains the TURK system, which is a
module of the FBI’s payroll system called the Administrative Time Capture
(ATC) system. Although the information is entered into the system
biweekly along with time and attendance data, TURK data collection is
divided into 13 TURK periods per fiscal year, making each TURK period
consist of 2 pay periods. For example, September 11, 2001, occurred in
TURK period 13 of FY 2001, which ran from August 26, 2001, through
September 22, 2001.30

     Data Elements - TURK data is presented in the form of straight work
hours, Direct Agent Work Years (DAWYs), Direct Support Work Years
(DSWYs), and Average On Board (AOB). The ATC system calculates DAWYs

26
     As of FY 2002, the FBI had 311 separate investigative classifications.
27
   Generally, federal law enforcement officers are not granted overtime pay. Instead, they
receive Law Enforcement Availability Pay amounting to 10 hours above a standard
workweek.
28
     For a more detailed discussion of FBI programs and sub-programs, see page 15.
29
     See Appendix II for examples of major cases.
30
     A list of dates for each TURK period in the review timeframe appears in Appendix III.


                                     - 13 –
                           REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


and DSWYs to provide an idea of work effort in FBI programs and sub-
programs for each TURK period. In general, one DAWY equals 2,600 work
hours (10 hours per day times 260 work days per year) and one DSWY
equals 2,080 work hours (8 hours per day times 260 work days per year).31
DAWYs and DSWYs are based upon total hours and are indicators of overall
work effort, but they actually reflect a larger number of people than are
actually working at a particular time because the calculations allow for a
level of effort beyond the standard workday. Further, prior to calculating
DAWYs and DSWYs, the ATC system prorates all recorded leave and
miscellaneous time back into the TURK record of each employee. This is
accomplished through use of an automated Investigative Program Allocator,
which prorates the data back into the TURK record of each employee based
on investigative activity in that employee’s previous six pay periods.

      The ATC system also calculates AOB at the end of each TURK period to
approximate the equivalent number of actual agents that achieved the
DAWY expended in a particular program and/or sub-program. Unlike with
DAWYs and DSWYs, though, it does not prorate leave and miscellaneous
time back into TURK prior to performing the calculation. The ATC system
computes AOB directly from the percentages entered on the FD-420a, and
no matter how many hours an individual employee works, he or she can
never be counted as more than one person. Over the course of a year, this
number should closely approximate the average number of TURKing agents
that were on-board during the year. Thus, AOB is the best indication the FBI
has of estimating the actual number of personnel that are working at any
particular time. In general, we performed our analyses using this AOB data.

      FBI Programmatic Use of TURK Data – The FBI refers to the rate at
which personnel resources are expended as the “burn rate.” It uses the
term “underburn” to indicate when resource usage is less than resource
allocation, and the term “overburn” when resource usage is greater than
resource allocation. TURK program officials prepare quarterly reports of
TURK resource utilization data for distribution to all Headquarters program
managers, which includes resource allocation figures and burn rates.
Therefore, each Headquarters program manager is aware of the rate at
which their program is using the resources allocated.

       In addition to these quarterly reports, the FBI Inspection Division
obtains resource utilization and allocation data, as well as burn rates, from
TURK program officials, which it uses during its triennial reviews of FBI field
offices. Field office management, including Special Agents in Charge,
Assistant Special Agents in Charge, and Supervisory Special Agents

31
   The actual calculation of DAWYs and DSWYs can change slightly each year, depending
on the exact number of workdays in the year. The formulae appear in Appendix I.

                                  - 14 –
                        REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED


responsible for investigative squads, are evaluated in part on their utilization
of allocated resources and resulting burn rates.

      OIG Data Collection - We obtained TURK work hour information for
both agent and support personnel from October 1, 1995, through June 1,
2002. This universe included 559,661 records consisting of TURK work
hours, captured for each field office at the program and sub-program levels,
for each TURK period in the reviewed timeframe.32 The data included hourly
miscellaneous and leave time, as well as hours captured, when appropriate,
in FBI major cases.

       In addition to work hour data, we also obtained AOB data for both
agent and support personnel from October 1, 1995, through June 1, 2002.
This accounted for a total of 36,588 records representing the AOB for each
field office (captured at the program and sub-program level) for each fiscal
year in the review period.32

FBI Casework Data

      Automated System - The Automated Case Support (ACS) system is the
centralized electronic case management system used by the FBI. It contains
both historical and current case data for all FBI cases, except those that
have been destroyed or archived. All FBI facilities, including field offices,
resident agencies, Headquarters, and Legal Attaché offices, have access to
ACS. The system, which came on-line on October 16, 1995, consists of the
following three components:

        •    Investigative Case Management - used to open a case and assign a
             unique 9-digit case number, called the Universal Case File Number,
             which consists of the FBI crime classification number; a two-letter
             alpha code designating the field office that opened the case; and a
             consecutive, numerical designator generated by the system.

        •    Electronic Case File - used to maintain investigative
             documentation, such as interview transcripts.

        •    Universal Index - used to maintain index records for a case and
             allows the searching of records in a variety of ways.

      Investigative Programs, Sub-Programs, and Classifications – The FBI
assigns each of its cases to an investigative classification according to the
nature of the case. Each of these classifications fall into one FBI program,
32
    In addition to data from the field offices, our universes included resource utilization data for three
special, non-field office units (related to campaign finance investigations, independent counsels, and
the Critical Incident Response Group) that operated out of Headquarters during our review period.
Individuals in these units were required to record their time in the TURK system.

                                       - 15 –
                             REDACTED AND UNCLASSIFIED
                                REDACTED AND UNCLASSIFIED


   and, if appropriate, a sub-program. As of June 2002, the FBI had
   10 programs, 48 sub-programs, and 311 investigative classifications.33 The
   programs and their areas of responsibility, as illustrated by the
   accompanying sub-program and investigative classification examples, are as
   follows:

                                   EXHIBIT 2-2
                FBI PROGRAMS, SUB-PROGRAMS, AND CLASSIFICATIONS

                                                                  SUB-PROGRAM AND
ACRONYM                 PROGRAM NAME
                                                               CLASSIFICATION EXAMPLES
                                                       Foreign Counterintelligence
   NFIP          National Foreign Intelligence         FBI Security
                                                       International Terrorism
                 National Infrastructure               Computer Intrusion Criminal Matters
 NIPCIP          Protection/Computer Intrusion         Protection of Transportation Facilities
                                                       Counterterrorism Preparedness
     DT          Domestic Terrorism
                                                       Weapons of Mass Destruction
                                                       Bankruptcy Fraud
   WCC           White Collar Crime                    Health Care Fraud
                                                       Wire and Mail Fraud
                                                       Mexican/Criminal Syndicates
  OC/D           Organized Crime/Drugs                 Asian Criminal Enterprise
                                                       OCDETF
                                                       Fugitives
  VCMO           Violent Crimes & Major Offenders      Violent Gangs
                                                       Crimes Against Children
                                                       Racial Discrimination
     CR          Civil Rights
                                                       Involuntary Servitude and Slavery
                                                       Background Investigations
    APP          Applicant Matters                     Recruitment and Processing
                                                       Investigations of White House Staff & Visitors
                                                       Federal Training
  TRAIN          Training
                                                       State and Local Training
                                                       Freedom of Information Act Issues
   MISC          Miscellaneous Matters
                                                       Public Relations Matters
Source: FBI Finance Division and FY 2002 Investigative Classifications booklet


         These programs and sub-programs are not static; during our review
   period, the FBI created one new program (the National Infrastructure
   Protection/Computer Intrusion Program) and several sub-programs,
   eliminated certain sub-programs, and transferred some classifications and
   sub-programs into other programs. Generally, when a program ceases to
   exist the FBI re-classifies the cases in that program in order to have them

   33
        A crosswalk of FBI programs and sub-programs appears in Appendix IV.

                                          - 16 –
                                REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


assigned to the most appropriate current program. The elimination of
programs does not affect the resource data we collected from the TURK
system because TURK data is captured by investigative classifications, which
are updated each year and always assigned to current FBI programs.

       ACS officials said that the FBI has analyzed a variety of methods for
classifying cases. Currently, once a case is accepted, the FBI classifies it
according to the nature of the criminal violation and the program area that
has the greatest expertise involving the investigation of that particular
crime. The FBI will, though, reclassify a case if it discovers the case more
appropriately belongs in a different classification than the one in which it was
first placed. For example, officials in the Organized Crime/Drugs (OC/D)
program described a recent investigation that began as a small White Collar
Crime program stock fraud case until it was discovered there were ties to
organized crime. When that occurred, the field office converted the case to
an OC/D case.

       Case Acceptance – As noted in Chapter 1, the FBI has the authority to
investigate any federal crime not specifically assigned to any other federal
agency. Individual FBI field offices decide if they will investigate a particular
matter, basing their decision on priorities set by Headquarters, knowledge of
the local criminal environment, the interest of other federal agencies in the
jurisdiction, and the prosecution threshold of the local U.S. Attorney’s Office.
While field office managers usually make this determination, they
occasionally elevate the decision to program managers in Headquarters.

       FBI Programmatic Use of ACS Data – Supervisors in field offices are
required to periodically review all open cases with their agents. To
accomplish this, the supervisor can print a report from ACS of all cases
assigned to the agent. In addition, field offices complete Monthly
Administrative Reports that detail activity in each investigative program.
Included in these reports are the numbers of previously open cases, case
openings, and case closings by type (e.g., U.S. Attorney declinations).
These reports are electronically submitted to Headquarters and distributed to
the program managers. Some program managers considered the reports to
be helpful and used them in managing their programs, but others thought
their utility was negligible. Further, the FBI does not currently use ACS data
to perform any long-term reviews of case-related activity for the Bureau as a
whole.

       OIG Data Collection – We obtained ACS data consisting of all cases
recorded in the system between October 1, 1995, and June 14, 2002. This
reflected all cases that were opened during our review period, as well as
those that were opened prior to the start of the review period but remained

                                - 17 –
                      REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED


open as of October 1, 1995. The file contained 1,799,198 records, and
provided, among other things, the case number, open date, close date, and
investigative program for each case.




                              - 18 –
                    REDACTED AND UNCLASSIFIED
                           REDACTED AND UNCLASSIFIED


         CHAPTER 3: TRENDS IN RESOURCE UTILIZATION
                  FY 1996 THROUGH FY 2001

      Following the 9/11 attacks, the FBI announced that it planned to shift
a large number of resources to work on counterterrorism efforts in its
National Foreign Intelligence, Domestic Terrorism, and National
Infrastructure Protection/Computer Intrusion programs. To address where
the FBI’s resources were allocated prior to 9/11, we conducted a trend
analysis of FBI resource utilization from October 1995 to FY 2001.34

      As noted in Exhibit 3-1, in FY 1996 through FY 2001, the FBI utilized
the bulk of its human resources in four primary areas: White Collar Crime
(WCC), Organized Crime/Drugs (OC/D), National Foreign Intelligence (NFIP),
and Violent Crimes and Major Offenders (VCMO). During that timeframe,
there were at least 1,400 more personnel on board for each of these four
programs in each fiscal year than for any other program. As seen on the
bottom portion of the following chart, the remaining programs incurred
much lower amounts of human resource usage. This bottom cluster consists
of the National Infrastructure Protection/Computer Intrusion (NIPCIP),
Domestic Terrorism (DT), Civil Rights (CR), Applicant Matters (APP), and
Training (TRAIN) programs.




34
     Resource utilization is displayed in terms of Average On Board, as defined in Chapter 2.

                                     - 19 –
                           REDACTED AND UNCLASSIFIED
                              REDACTED AND UNCLASSIFIED

                                        EXHIBIT 3-1
                          COMBINED AGENT AND SUPPORT UTILIZATION
                              FISCAL YEARS 1996 THROUGH 2001




                                        CLASSIFIED
                                       INFORMATION
                                         REDACTED




Source: FBI TURK System

                                        - 20 –
                              REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED


       In each of the six fiscal years reviewed, the FBI utilized the most human
resources in the White Collar Crime program, at an average of 2,591 agent
and support personnel per year. Further, this program experienced a general
increase over the time period reviewed. Similarly, the trend in resource usage
in the National Foreign Intelligence Program showed a general increase in
utilization during the period studied. The other two programs in the top
cluster, Organized Crime/Drugs and Violent Crimes and Major Offenders, also
received a great deal of resources, with averages of 2,311 and 2,183
personnel, respectively. The highest annual number of human resource
utilization in the bottom cluster of FBI programs came from Domestic
Terrorism, at 428.

FBI Strategic Priorities

       We also reviewed the FBI’s strategic plan for 1998 through 2003 to
determine the types of activities on which the FBI stated it was most
important to focus its efforts.35 The strategic plan sets the agenda for the
Bureau by establishing specific 5-year strategic goals and broad strategies for
achieving those goals. It also divides FBI priorities into three levels (or “tiers”)
of importance, with tier one activities being the most important and tier three
being the least important. However, FBI investigative programs are not
clearly assigned within the tier structure. Some programs have activities that
relate to more than one tier; for example, the White Collar Crime program
includes activities that can be classified within each of the tiers.

      Tier One: National and Economic Security – Tier one represents the
area of highest priority for the FBI and focuses on national and economic
security, including foreign intelligence, terrorism, and criminal activity of such
importance to the U.S. that the FBI must be at full capacity to respond.
These are also crimes over which the FBI holds exclusive jurisdiction.

       Strategic goals for tier one include preventing and defeating foreign
intelligence operations and terrorist activities before they occur, as well as
preventing criminal conspiracies from defrauding major U.S. industries and
the federal government. The strategic plan refers to the National Foreign
35
     As identified in OIG report number 02-38 entitled “A Review of the Federal Bureau of Investigation’s
Counterterrorism Program: Threat Assessment, Strategic Planning, and Resource Management,’’ the
FBI’s strategic plan has not been updated since 1998. As a result, we recommended that the FBI
update its strategic planning process and close the gap between planning and operations by
establishing an effective system of performance measures and standards and holding managers at all
levels accountable for achieving the goals and objectives stated in FBI strategic plans. As a result of
our strategic planning recommendations, the FBI is updating its strategic plan. Further, according to
the FBI, as part of the 2003 strategic planning process, all programs will be required to develop
performance measures for assessing national program performance and for evaluating individual field
office performance. In addition, the FBI’s inspection process is being re-engineered to focus on
outcome/results-based performance measures and to hold managers accountable for individual and
program performance.

                                       - 21 –
                             REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


Intelligence, Domestic Terrorism, and National Infrastructure Protection/
Computer Intrusion programs in the tier one section. In addition, significant
investigations under the White Collar Crime program address issues related
to economic security.

       Tier Two: Criminal Enterprises and Public Integrity – Tier two priorities
rank second in importance, and are predominately characterized by
investigations of criminal organizations that exploit social, economic, or
political circumstances.

      Tier two strategic goals focus on disrupting and dismantling organized
criminal enterprises, violent multi-jurisdictional gangs, and drug-trafficking
organizations, and on reducing public corruption and civil rights violations.
These goals apply to the Organized Crime/Drugs, Civil Rights, and White
Collar Crime programs.

       Tier Three: Individuals and Property – As priorities for the FBI, tier
three criminal activities rank lowest. Crimes that fall into tier three are those
where the FBI is expected to respond quickly and efficiently, but the FBI’s
role in these cases is to supplement the activities of state and local law
enforcement.

       The primary goal of tier three is to reduce the impact of the most
significant crimes affecting individuals and property. According to the
strategic plan, these goals apply to the Violent Crimes and Major Offenders
program and some lower-level White Collar Crime program activities.

       As noted in Chapter 1 of this report, the FBI Director released a new
set of top priorities for the Bureau in May 2002. These priorities reiterated
the place of terrorism-related work at the top of the list. Prior to the
Director’s memorandum, significant white collar crime involving economic
security was a tier one priority. The new set of priorities, however, moved
white collar crime to the bottom half of the list, where it was ranked in
importance behind terrorism-related work, computer security, public
corruption, civil rights, and organized crime.

      Although the tier structure outlining strategic priorities has been in
place since at least 1998, our analyses showed that the FBI’s utilization of
human resources between FY 1996 and 2001 had not supported its priorities.
Two tier one programs, White Collar Crime and National Foreign Intelligence,
are among the top four programs in terms of human resource usage, as
evidenced in Exhibit 3-1. The other tier one programs (Domestic Terrorism
and National Infrastructure Protection/Computer Intrusion), however, utilized
comparatively little of the FBI’s human resources between FY 1996 and 2001.

                                - 22 –
                      REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


At the same time, the other two programs using significant amounts of
personnel resources, Organized Crime/Drugs and Violent Crimes and Major
Offenders, are not tier one programs; rather, they are tier two and tier three
programs, respectively.

      Although looking at the FBI as a whole illustrates that the Bureau did
not utilize its resources in line with its strategic priorities, an even more
important trend is identified when the Bureau’s utilization of special agent
resources is separated from its utilization of support personnel.

Special Agents

      When separated from support personnel, FBI agents worked
predominantly in the White Collar Crime program from FY 1996 through
2001, while large numbers of agent resources also were devoted to the
Organized Crime/Drugs, Violent Crimes and Major Offenders, and National
Foreign Intelligence programs. Reflective of the overall combined trend,
there were significantly more agents on board for these four programs in
each fiscal year than for any other program. In contrast to the combined
data, though, far fewer agents worked in National Foreign Intelligence than in
the other three programs in the top cluster. In fact, in each fiscal year until
FY 2001, at least 500 fewer agents worked on NFIP matters than on those in
the next highest program, as shown in Exhibit 3-2.
                                EXHIBIT 3-2
                             AGENT UTILIZATION
                      FISCAL YEARS 1996 THROUGH 2001




                                CLASSIFIED
                               INFORMATION
                                 REDACTED




    Source: FBI TURK System

                                - 23 –
                      REDACTED AND UNCLASSIFIED
                                     REDACTED AND UNCLASSIFIED


      As shown in Exhibit 3-2, in FY 2001 agent utilization increased in the
National Foreign Intelligence Program and generally decreased in all other
programs. This increase in NFIP agent usage is directly attributable to the
events of 9/11, which occurred during the final month of FY 2001.
Exhibit 3-3 shows that the number of NFIP agent hours worked was generally
consistent at around 300,000 for the first 12 TURK periods of the year. This
changed dramatically in the final TURK period of FY 2001 (during which 9/11
occurred), when agent hours rose more than 250 percent to more than
one million. Thus, the data indicates that agent utilization in NFIP would
have remained unchanged absent the events of 9/11. In turn, without this
major terrorist event, Bureau-wide agent utilization would have remained the
same in FY 2001 and would not have begun to come into alignment with the
strategic plan.
                                                     EXHIBIT 3-3
                                       NATIONAL FOREIGN INTELLIGENCE PROGRAM
                                                  FISCAL YEAR 2001
                 1,100,000


                 1,000,000


                  900,000


                  800,000
    AGENT WORK




                  700,000
      HOURS




                  600,000


                  500,000


                  400,000


                  300,000


                  200,000
                             1   2    3     4     5      6     7      8        9   10   11   12   13

                                                        TURK PERIOD


                 Source: FBI TURK System

       In summary, prior to 9/11 more agents worked on White Collar Crime,
Organized Crime/Drugs, and Violent Crimes and Major Offenders matters
than in the National Foreign Intelligence Program. This resource utilization is
not in line with the goals stated in the FBI’s strategic plan because, while
portions of the FBI’s WCC program fall into tier one and relate to the FBI’s
strategic goal to ensure economic security, OC/D and VCMO program
activities generally do not. Instead, they fall into tiers two and three,
respectively. Although NFIP clearly is a tier one priority, it exhibited the
fourth highest usage of agent resources from FY 1996 through most of
FY 2001.

                                               - 24 –
                                     REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED



Support Personnel

       In contrast to the utilization of agent personnel, the National Foreign
Intelligence Program utilized the most support personnel between FYs 1996
and 2001. As evidenced in the following graph of support utilization, more
than twice the number of support personnel worked in NFIP than in any other
program in each fiscal year of our review period. According to NFIP officials,
this is because the program utilizes many different types of specialized
support personnel (e.g., language specialists and surveillance specialists) that
other FBI programs do not use extensively. Aside from NFIP, the White
Collar Crime, Organized Crime/Drugs, and Violent Crimes and Major
Offenders programs utilized the largest number of support personnel during
the timeframe covered in our analysis.

                                EXHIBIT 3-4
                      SUPPORT PERSONNEL UTILIZATION
                      FISCAL YEARS 1996 THROUGH 2001




                                CLASSIFIED
                               INFORMATION
                                 REDACTED




   Source: FBI TURK System

     In fact, not only did more FBI support personnel work on National
Foreign Intelligence Program matters than in any other single program, but
as shown in the following graph, more support personnel worked on NFIP
matters than in all other programs combined.




                                - 25 –
                      REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED



                                EXHIBIT 3-5
              COMPARISON OF SUPPORT PERSONNEL UTILIZATION
                 NFIP vs. ALL OTHER PROGRAMS COMBINED
                    FISCAL YEARS 1996 THROUGH 2001




                               CLASSIFIED
                              INFORMATION
                                REDACTED




    Source: FBI TURK System

       According to FBI Resource Management and Allocation (RMA) officials,
field office management directs support resources where they are needed the
most. The FBI does not allocate or budget support staff to specific
investigative program areas; support resources are requested in the budget by
using pre-determined formulas based on the number of agents. Specifically,
the FBI uses different formulas to determine the number of investigative
support staff, administrative/clerical staff, technical support staff, computer
forensic specialists, and electronics technicians it needs. RMA officials also
said that, although many requests have been made, the formulas have
remained unchanged since FY 1996. Reflecting these formulas, the ratio
between agents and support personnel has remained generally consistent at
about five to one since FY 1998, as shown in Exhibit 3-6.




                                - 26 –
                      REDACTED AND UNCLASSIFIED
                                          REDACTED AND UNCLASSIFIED

                                                          EXHIBIT 3-6
                                      OVERALL COMPARISON OF AGENT TO SUPPORT PERSONNEL
                                                FISCAL YEARS 1996 THROUGH 2001


                     10,000                             9,182                 9,264   9,301   9,049
                                            8,773
                              8,268
                      8,000
  AVERAGE ON BOARD




                      6,000



                      4,000



                      2,000

                                                        1,760             1,813       1,885   1,849
                         0
                               900          1,144
                               1996          1997        1998                 1999     2000    2001
                                                                FISCAL YEAR
                                                           AGENTS         SUPPORT

                     Source: FBI TURK System

Conclusion

      Prior to the 9/11 terrorist attacks, the FBI did not devote a significant
portion of its special agent resources to domestic and international terrorism
issues. In comparison, the FBI consistently devoted the majority of its
support personnel resources to terrorism-related matters because of the
specialized nature of the work. However, even when agent and support
personnel are combined, the FBI was not utilizing its collective personnel
resources in line with its strategic priorities, which named national and
economic security as the FBI’s primary concerns.

      Between FYs 1996 and 2001, the Bureau’s White Collar Crime program
was the leader in human resource usage and the Organized Crime/Drugs and
Violent Crimes and Major Offenders programs utilized more special agent
resources than its National Foreign Intelligence Program. Further, human
resource usage in the FBI’s Domestic Terrorism and National Infrastructure
Protection/Computer Intrusion programs was far below that in the White
Collar Crime, Organized Crime/Drugs, Violent Crimes and Major Offenders,
and National Foreign Intelligence programs.




                                                    - 27 –
                                          REDACTED AND UNCLASSIFIED
                                        REDACTED AND UNCLASSIFIED


  CHAPTER 4: RESOURCE IMPACT OF TERRORIST EVENTS
                    OF 9/11/01

      In immediate response to 9/11, the Bureau shifted a large amount of
its work effort into the counterterrorism area. As shown in Exhibit 4-1,
between late July and October 2001, agent work effort in the National
Foreign Intelligence Program (NFIP) increased dramatically while all other
programs experienced decreases.


                                                           EXHIBIT 4-1
                                                IMMEDIATE AGENT RESPONSE TO 9/11
                 1,600,000


                 1,400,000


                 1,200,000


                 1,000,000
   AGENT HOURS




                  800,000


                  600,000


                  400,000


                  200,000


                        0
                             07/29/2001 – 08/25/2001        08/26/2001 – 09/22/2001           09/23/2001 – 10/20/2001
                                                                  TURK PERIODS
                                 NFIP       NIPCIP     DT   WCC        OC/D       VCMO   CR       APP        TRAIN


                 Source: FBI TURK System

      Subsequent to this shift in agent work effort, in December 2001 the
FBI Director announced his plan for reorganizing the Bureau and his intent to
formally transfer additional resources to terrorism-related work. As noted in
the schedule of agent allocations for FY 2002 found in Exhibit 1-2, the
Director increased the special agent allocation in terrorism-related programs
from 2,212 to 2,897 in May 2002.




                                                  - 28 –
                                        REDACTED AND UNCLASSIFIED
                            REDACTED AND UNCLASSIFIED


Changes in Hours Worked

      Overall Increase – The dramatic increase in work hours dedicated to
NFIP in the weeks following 9/11 did not come solely at the expense of other
programs. Much of the immediate increase in both agent and support work
hours was due to the large amounts of overtime worked in the initial weeks
following the 9/11 attacks. This can be seen by looking at the total number
of work hours expended by FBI special agents and support personnel both
before and after 9/11.

      As shown in the following graph, the terrorist attacks, which occurred
during TURK period 13 of FY 2001, resulted in a large increase in total agent
work hours in all programs combined. On average, FBI agents were working
1.89 million hours per TURK period in the year prior to 9/11. In TURK
period 13, this work effort increased to almost 2.12 million hours, an
increase of about 12 percent.


                                         EXHIBIT 4-2
                                     TOTAL AGENT HOURS
                                 SEPTEMBER 2000 TO JUNE 2002
                2,150,000
                2,100,000
                2,050,000
                2,000,000
  AGENT HOURS




                1,950,000
                1,900,000
                1,850,000
                1,800,000
                1,750,000
                1,700,000
                1,650,000
                                     1




                                     2
                             M 1




                             M 2
                            JU 01
                                   00




                                   01
                                     1
                                   01




                                   02
                          N - 01




                          N - 02
                            UN 1




                          G - 01




                            UN 2
                             O 1
                                   00




                                   01
                           JU 01




                                   02
                    DE -D 0




                    DE -D 1




                        AR R 0
                        AR R 0
                                   0




                                   0
                        LY Y 0
                                   0




                                   0
                                   0
                                   0




                                   0
                      FE EB




                      FE EB
                               NE
                               EC




                               EC
                      AP PR




                      AP PR
                       JA AN




                       JA AN
                                 Y




                                 Y
                      AU UG

                      SE EP
                     O C CT




                     O C CT
                                 E




                                 E
                      NO OV




                      NO OV
                               A




                               A
                                L
                     M MA




                     M MA
                              F




                              F
                            -A




                             S




                            -A
                             O




                            -J




                            -J
                           -A
                            N




                            N
                          B-




                          B-
                         P-




                         P-
                         R-




                         R-
                          -J




                          -J
                         00




                         01
                         T-




                         T-
                          V




                          V




                      AY
                      AY
                  SE




                      M




                      M
                     JU
                      C




                      C




                                         TURK PERIOD


           Source: FBI TURK System




                                      - 29 –
                            REDACTED AND UNCLASSIFIED
                                    REDACTED AND UNCLASSIFIED


        Similar to agents, FBI support personnel worked significantly more
  hours than normal in response to 9/11. As shown in the following graph,
  support work hours progressed from an average of about 315,000 in the year
  just prior to 9/11, to about 340,000 immediately after (in TURK period 1 of
  FY 2002), reflecting an 8 percent increase.

                                                  EXHIBIT 4-3
                                             TOTAL SUPPORT HOURS
                                          SEPTEMBER 2000 TO JUNE 2002
                350,000


                340,000


                330,000
SUPPORT HOURS




                320,000


                310,000


                300,000


                290,000


                280,000
                                0

                               00




                                1

                      01 01
                   O C T 00




                   O C T 01
                               01




                               02
                               01
                                1

                                1




                   SE P 01




                   MA R 02


                                2
                   FE B 01




                                1




                   FE B 02
                               01




                               02
                               01




                               01




                               02
                   NO V 0




                   NO V 0




                   AP R 0
                   AP R 0
                   MA R 0




                  JU LY 0
                             C




                 DE DEC
                             N




                             N
                           UG
                           NE




                           NE
                             Y




                             Y
                           NE
                          OC

                          NO




                          OC

                          NO
                          DE




                          SE
                         -JA

                          FE




                         -JA

                          FE
                         MA




                         MA

                          AP
                          AP

                         MA




                         MA
                        JU
                        JU




                        JU
                        JU




                        -A
                       N-




                       N-
                       V-




                      G-




                       V-
                      P-

                       T-




                      P-

                       T-




                      R-
                      R-
                      00




                      R-




                      R-
                      B-




                      B-
                     LY
                     Y-




                     Y-
                    JA




                    JA
                   SE




                   AU
                   C




                   C
                  MA




                  MA
                 DE




                                                  TURK PERIOD



                Source: FBI TURK System



        Changes Within FBI Programs – The changes in FBI resource utilization
  can be seen within its investigative program areas. The following graphs
  (Exhibits 4-4 and 4-5) of special agent and support personnel work hours in
  these program areas highlight three distinct time periods: the time prior to
  9/11, the immediate response to 9/11, and the stabilization of work hours
  after 9/11.




                                              - 30 –
                                    REDACTED AND UNCLASSIFIED
                                 REDACTED AND UNCLASSIFIED


                                                EXHIBIT 4-4
                                      AGENT HOURS BY FBI PROGRAM AREA
                                        SEPTEMBER 2000 TO JUNE 2002
                1,600,000


                1,400,000


                1,200,000
  AGENT HOURS




                1,000,000


                 800,000


                 600,000


                 400,000


                 200,000


                          0
                                       1




                                     02
                          V- 00




                          R - 01




                          V- 01




                                       2
                                     01




                                     01




                                       2
                                       0




                                       1
                                       1




                                     02
                            JU 1




                            JU 2
                          G- 01

                                       1
                                     01
                                     00




                                     01
                            JU 1




                                     02
                       MA R 0




                       AP R 0
                        FE B 0
                       OC T 0




                       OC T 0
                        JA N 0




                                     0




                                     0
                        SE P 0
                                     0




                                  R
                                   V




                                  R




                                   V
                                   B




                                   Y




                                  N
                      M A AY




                      M A AY
                                UG
                                NE
                                  C




                                  C
                                NE




                                NE
                                C




                              OC
                              NO




                              NO
                                 L
                               FE




                               FE

                              MA
                              MA

                               AP




                               AP
                              -JA




                              -JA
                              SE
                              DE




                              DE
                             JU
                             -O




                              M




                              M
                            -A
                           N-




                           N-
                           R-




                           R-
                           P-
                           T-




                           T-
                           B-




                           B-



                          R-
                          00




                          01
                      P




                         LY
                         Y-




                         Y-
                        JA



                       MA
                   SE




                        FE




                       AU
                       NO




                       NO
                       AP
                        C




                        C
                      JU
                     DE




                     DE
                                                          TURK PERIOD

                               NFIP   NIPCIP   DT   WCC       OC/D      VCMO   CR   APP   TRAIN


                Source: FBI TURK System

       Between September 2000 and August 2001, the FBI consistently
utilized most of its agent resources in its White Collar Crime, Organized
Crime/Drugs, and Violent Crimes and Major Offenders programs. This
changed dramatically after 9/11, when agent hours in NFIP increased by
almost 400 percent, from just over 300,000 hours to almost 1.5 million
hours. At the same time, agent hours in all other programs decreased.
After NFIP agent work hours reached their post-9/11 peak, the level of effort
gradually declined and stabilized, leveling out between February and March
of 2002. However, although the NFIP agent work hours decreased as time
went on, the stabilized level of effort was at a rate higher than prior to
9/11. NFIP agent work hours increased by about 62 percent per TURK
period, from just over 300,000 in TURK period 12 of FY 2001 to over
485,000 in TURK period 9 of FY 2002.




                                           - 31 –
                                 REDACTED AND UNCLASSIFIED
                                         REDACTED AND UNCLASSIFIED


      For the same timeframe, work hours expended by support personnel in
the National Foreign Intelligence Program rose from about 157,000 to more
than 175,000, an increase of about 12 percent. This increase is displayed in
Exhibit 4-5.
                                                    EXHIBIT 4-5
                                   SUPPORT PERSONNEL HOURS BY FBI PROGRAM AREA
                                            SEPTEMBER 2000 TO JUNE 2002

                 300,000


                 250,000
 SUPPORT HOURS




                 200,000


                 150,000


                 100,000


                  50,000


                      0
                                 01




                                 02
                                 01




                                 02
                                 01
                                 01




                                 02
                                 01




                                 02
                    FE B 01




                                 01




                    FE B 02
                                 00




                                 01




                                 01




                                 01




                                 02
                                 01
                   O C T 00




                   O C T 01
                                00




                                01
                               Y




                               Y
                               R




                               R
                             UG
                               N




                               N




                             NE
                             NE




                             LY
                              C




                              P




                              R
                              R




                              C
                             NE
                              V




                              V
                           MA




                           MA
                            AP




                            AP
                           -JA




                           -JA
                            FE




                           SE




                            FE
                           DE




                           MA




                           DE




                           MA
                          OC




                          OC
                         NO




                         NO
                         JU
                         JU




                         JU
                          -A
                        JU
                        N-




                        N-
                        R-




                        R-
                       R-




                       R-
                       G-
                       V-




                       V-
                       00




                       01
                       B-




                       B-
                       P-




                       P-
                      LY
                       T-




                       T-
                      Y-




                      Y-
                     JA




                     JA
                    MA




                    MA
                    AP




                    AP
                    AU
                    NO




                    NO
                    SE




                    SE
                     C




                     C
                   MA




                   MA
                   JU
                  DE




                  DE
                                                         TURK PERIOD

                                  NFIP    NIPCIP   DT   WCC   OC/D     VCMO   CR    APP   TRAIN



                 Source: FBI TURK System

       In summary, in the weeks immediately following the 9/11 attacks, FBI
personnel in general worked significantly more hours than usual. This
increase in work effort was directed to NFIP, while all other programs
experienced decreases in work hours. In the months after 9/11, NFIP
stabilized and replaced White Collar Crime as the program expending the
largest amount of agent work hours.

Changes in Personnel Distribution

      In addition to reviewing the hours worked in each program before and
after 9/11, we compared the level of effort in the program, in terms of
personnel on board, as percentages of total FBI investigative activity. In
this analysis we averaged, for each investigative program, the annual fiscal
year personnel totals for FYs 1996 through 2001 and compared these to the
personnel totals for FY 2002.36

36
                 Personnel totals are computed using Average On Board figures, as defined in Chapter 2.

                                                   - 32 –
                                         REDACTED AND UNCLASSIFIED
                                                REDACTED AND UNCLASSIFIED


             The following chart highlights the changes in the percentages of total
       personnel (agents and support combined) working in each investigative
       program. The blue bars show pre-9/11 data, while the maroon bars provide
       post-9/11 data.37

                                                   EXHIBIT 4-6
                                PERCENTAGE OF OVERALL WORK FORCE IN FBI PROGRAMS
                                              BEFORE AND AFTER 9/11

                          50%

                          45%

                          40%
PERCENTAGE OF PERSONNEL




                          35%

                          30%

                          25%

                          20%

                          15%

                          10%

                          5%

                          0%
                                NFIP   NIPCIP     DT     WCC          OC/D        VCMO   CR   APP   TRAIN
                                                                FBI PROGRAMS

                                                               PRE-9/11   POST 9/11

                                                       Source: FBI TURK System

              Exhibit 4-6 demonstrates that the percentage of combined agent and
       support personnel working in the FBI’s National Foreign Intelligence Program
       more than doubled, from approximately 22 percent prior to FY 2002 to over
       48 percent in the eight months of FY 2002 in our review. In addition, the
       percentage in the Domestic Terrorism program also rose, from four percent
       to six percent. At the same time, the percentage of FBI personnel working
       on both White Collar Crime and Organized Crime/Drugs matters dropped
       nine percent, and the percentage working on Violent Crimes and Major
       Offenders activities dropped eight percent.

            We also separately analyzed personnel percentages for special agents
       and support personnel. Exhibit 4-7 compares the percentages of agents

       37
          We have defined the pre-9/11 period in our review as October 1, 1995, through
       September 22, 2001, which was the last day of TURK period 13 of FY 2001. For the
       purposes of our review, the post-9/11 period began on September 23, 2001.

                                                          - 33 –
                                                REDACTED AND UNCLASSIFIED
                                              REDACTED AND UNCLASSIFIED


        working in FBI programs for the two time periods (i.e., October 1, 1995,
        through September 22, 2001, and September 23, 2001, through June 1,
        2002).

                                                EXHIBIT 4-7
                                    PERCENTAGE OF AGENTS IN FBI PROGRAMS
                                           BEFORE AND AFTER 9/11

                       50%

                       45%

                       40%
PERCENTAGE OF AGENTS




                       35%

                       30%

                       25%

                       20%

                       15%

                       10%

                       5%

                       0%
                             NFIP    NIPCIP     DT    WCC       OC/D       VCMO   CR   APP   TRAIN
                                                            FBI PROGRAMS

                                                        PRE-9/11   POST-9/11

                                                     Source: FBI TURK System

             As in the analysis of the overall workforce displayed in Exhibit 4-6, the
        percentage of agents increased in the National Foreign Intelligence and
        Domestic Terrorism programs, while percentages for all other programs
        decreased. In the case of agents, though, instead of doubling, the
        percentage in NFIP almost tripled, from 16 percent to 45 percent.

               The following chart shows the same breakdown of data for support
        personnel. Similar to the changes experienced in the agent work force, the
        percentage of support personnel working in NFIP also increased, although
        not by as large a margin. Prior to FY 2002, NFIP already accounted for more
        than half (56 percent) of all support personnel; by June 2002, it had
        increased by an additional 10 percent. Analogous with the trend for agents,
        the percentage of support personnel in DT also increased and the percentage
        in all other programs decreased.




                                                        - 34 –
                                              REDACTED AND UNCLASSIFIED
                                            REDACTED AND UNCLASSIFIED


                                              EXHIBIT 4-8
                            PERCENTAGE OF SUPPORT PERSONNEL IN FBI PROGRAMS
                                         BEFORE AND AFTER 9/11

                           70%


                           60%
   PERCENTAGE OF SUPPORT




                           50%


                           40%


                           30%


                           20%


                           10%


                           0%
                                 NFIP   NIPCIP   DT     WCC       OC/D       VCMO   CR   APP   TRAIN
                                                              FBI PROGRAMS

                                                          PRE-9/11   POST-9/11


                                                      Source: FBI TURK System

      The higher percentages of both agents and support personnel working
in the FBI’s terrorism-related programs after 9/11 are in accord with the FBI
Director’s mandate to make counterterrorism the FBI’s top priority. NFIP
had the largest percentage of support personnel prior to 9/11, and its share
grew even larger afterwards. In the case of agents, the increase in NFIP
personnel moved it past other programs to become the largest FBI program
in terms of agent utilization.

Ratio of Agents to Support Before and After 9/11

      In our previous analyses, we noted significant changes in the
percentages of agents working in different FBI investigative programs before
and after 9/11. Since the changes in support personnel percentages were
not as significant, the ratio of support personnel to special agents within FBI
programs also was altered.




                                                      - 35 –
                                            REDACTED AND UNCLASSIFIED
                                                REDACTED AND UNCLASSIFIED


                                                 EXHIBIT 4-9
                                     RATIO OF AGENTS AND SUPPORT IN NFIP
                              100%                                                                                             Exhibit 4-9 to the left
                              90%                                                                                              highlights the
                                                                                                      23%
                                                                                                                               changes in the ratio
                              80%        37%
                                                                                                                               of agent and support
    PERCENTAGE OF PERSONNEL




                              70%                                                                                              personnel in NFIP
                              60%
                                                                                                                               before and after
                                                                                                                               9/11. It shows that
                              50%
                                                                                                                               prior to 9/11,
                              40%                                                                                              63 percent of the
                                                                                                      77%
                                         63%
                                                                                                                               personnel working in
                              30%
                                                                                                                               NFIP were agents. In
                              20%                                                                                              FY 2002, however,
                              10%
                                                                                                                               agents accounted for
                                                                                                                               77 percent of all
                               0%
                                                                                                                               personnel working in
                                     Pre-9/11 Average                                            Post-9/11 Average
                                                               TIME PERIODS                                                    the program.
                                                        AGENTS                              SUPPORT


                                            Source: FBI TURK System



                                                                                                                   EXHIBIT 4-10
                                                                                                         RATIO OF AGENTS AND SUPPORT IN
                                                                                                               NON-NFIP PROGRAMS
Exhibit 4-10 to the                                                                  100%
                                                                                                       9%                                    11%
right shows how                                                                      90%
little the ratio of
                                                                                     80%
                                                           PERCENTAGE OF PERSONNEL




agent to support
personnel in non-                                                                    70%

NFIP programs                                                                        60%

changed between                                                                      50%
                                                                                                      91%
the two time                                                                         40%
                                                                                                                                             89%
periods. Unlike in
                                                                                     30%
NFIP, the ratio
between agents and                                                                   20%

support in all other                                                                 10%

programs combined                                                                     0%
remained relatively                                                                               Pre-9/11 Average                      Post-9/11 Average

constant, changing                                                                                                    TIME PERIODS
                                                                                                                     AGENTS   SUPPORT
by only 2 percent.
                                                                                                           Source: FBI TURK System



                                                          - 36 –
                                                REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


Conclusion

        Prior to 9/11, the FBI consistently utilized most of its agent resources
in its White Collar Crime, Organized Crime/Drugs, and Violent Crimes and
Major Offenders programs. This changed dramatically in the immediate
aftermath of the terrorist attacks of 9/11, when the average number of NFIP
agent hours worked in the year prior to 9/11 increased by almost
400 percent in the TURK period immediately following 9/11. The National
Foreign Intelligence Program, which had accounted for only 22 percent of
combined agent and support work effort prior to 9/11, grew to over
48 percent of the combined work effort for the 8 months of our review
period in FY 2002. Much of the immediate increase in both agent and
support work effort was due to the large amounts of overtime worked in the
initial weeks following the 9/11 attacks. However, as the work effort
stabilized, leveling off between February and March 2002, NFIP replaced
White Collar Crime as the program expending the largest amount of agent
work hours.




                                - 37 –
                      REDACTED AND UNCLASSIFIED
                               REDACTED AND UNCLASSIFIED


       CHAPTER 5: COMPARISON OF RESOURCE PLANNING TO
                        UTILIZATION

        In general, the FBI utilized fewer agent resources than it allocated
  from FY 1996 through FY 2000. Some, but not all, of this difference is
  attributable to vacancies. The National Foreign Intelligence Program (NFIP)
  consistently utilized fewer agent resources than it was allocated from
  FY 1996 through FY 2000; this trend did not change until FY 2001 and the
  events of 9/11. In contrast, the Violent Crimes and Major Offenders (VCMO)
  program utilized more agent resources than it was allocated for each fiscal
  year between 1996 and 2001.

  FBI Resource Planning

        As previously discussed, the FBI’s Resource Management and
  Allocation (RMA) office uses the budget approved by Congress to allocate
  personnel resources and establish Funded Staffing Levels (FSLs) where each
  FSL equals one person.38 The following chart provides agent FSLs, by
  program, from FY 1996 through 2001.

                                       EXHIBIT 5-1
                               FBI FUNDED STAFFING LEVELS

FY     NFIP NIPCIP39           DT     WCC      OC/D       VCMO CR APP             TRAIN        TOTALS

1996                           205     2,346     2,262     2,058 159         76        127
1997                           548     2,394     2,265     1,981 156         79        131
1998      CLASSIFIED           538     2,423     2,337     1,988 156         79        131 CLASSIFIED
         INFORMATION                                                                         INFORMATION
1999       REDACTED            449     2,419     2,304     2,011 155        134        131     REDACTED
2000                           435     2,457     2,275     2,003 153        131        131
2001                           435     2,405     2,078     1,821 153        121         91

  Source: FBI Finance Division and Resource Management and Allocation office

       Using data from the FBI’s TURK system, we computed annual special
  agent personnel Average On Board (AOB)40 totals for the Bureau as a whole


  38
       FSLs and the resource allocation process are discussed in more detail in Chapter 2.
  39
       NIPCIP did not exist as a program until FY 1999.
  40
       The TURK system and Average on Board are discussed in more detail in Chapter 2.


                                         - 38 –
                               REDACTED AND UNCLASSIFIED
                                REDACTED AND UNCLASSIFIED


and for the individual FBI programs.41 We then compared the annualized
AOB data (resource utilization) to the annual Funded Staffing Level (FSL)
data (resource allocation) for FYs 1996 through 2001.42

      The following chart highlights the general underutilization of agent
resources in the FBI as a whole for the reviewed timeframe. Prior to
FY 2001, the FBI utilized fewer agent resources than allocated in each fiscal
year, although the gap between the two narrowed as time progressed. By
FY 2001, the Bureau utilized more agent resources than allocated.


                                                  EXHIBIT 5-2
                                 COMPARISON OF AGENTS TO FUNDED STAFFING LEVEL
                                            ALL PROGRAMS COMBINED
                                        FISCAL YEARS 1996 THROUGH 2001
              9,600
                                                                  9,406          9,379
                                 9,264          9,340
              9,400

              9,200
                                                                                 9,301    9,049
                                                                  9,264
                                                  9,182
              9,000
                      8,757
              8,800
                                     8,773                                               8,881
     AGENTS




              8,600

              8,400

              8,200
                        8,268
              8,000

              7,800

              7,600
                        1996      1997           1998                 1999       2000    2001
                                                        FISCAL YEAR
                                                         AOB      FSLs



               Source: FBI TURK System and FBI Finance Division

       In order to gain insight into the aggregate differences between
utilization and allocation reflected in Exhibit 5-2, we reviewed each program
individually. We found that some programs consistently used fewer or more
resources than allocated, while the rate varied in other programs. We then
interviewed various FBI officials regarding discrepancies between resource
allocation and usage in their particular programs.




41
   We did not perform this analysis for support personnel because, as previously noted,
support personnel are not allocated to investigative programs.
42
   For this analysis, we excluded data we collected for a portion of FY 2002 because the
events of 9/11 caused the numbers to be skewed.

                                          - 39 –
                                REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


National Foreign Intelligence Program (NFIP)

      Prior to 9/11, the FBI consistently underutilized its NFIP agent
resources. This trend did not change until FY 2001, when agent utilization
actually exceeded allocation.


                          EXHIBIT 5-3
COMPARISON OF AVERAGE AGENTS ON BOARD TO FUNDED STAFFING LEVEL
           NATIONAL FOREIGN INTELLIGENCE PROGRAM
                FISCAL YEARS 1996 THROUGH 2001




                                   CLASSIFIED
                                  INFORMATION
                                    REDACTED




    Source: FBI TURK System and FBI Finance Division

       NFIP officials said the consistent underburn in NFIP could be traced to
changing priorities and hiring issues. Currently, counterterrorism issues are
clearly the highest priority for the Department and the FBI. For the time
period in question, however, NFIP officials stated that priorities were focused
on reducing gun violence and illegal drug trafficking. In addressing these
priorities, the FBI directed resources to its Organized Crime/Drugs and
Violent Crimes and Major Offenders programs and this came, in part, at the
expense of NFIP.




                                - 40 –
                      REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


       As to why FBI activities are not always consistent with or do not
always correspond to the priorities laid out in the FBI’s strategic plan, NFIP
officials reported that the priorities from the strategic plan were established
based on offenses for which the FBI, by statute, had sole jurisdiction,
followed by crimes other federal agencies could investigate, followed by
crimes state and local agencies could investigate. This categorization did not
take into account large events of national significance, which is what often
drives the FBI’s activities. They said that when major national criminal
issues arise, or changes in priorities occur, field offices pull people off of
other programs and direct them towards these matters, causing staff
resources in the other priority programs to suffer.

       NFIP officials also attributed the underburn to hiring issues. They
explained that after Congress provides funding for additional positions, it can
take more than a year to bring new agents on board. Also, between
FY 1996 and 2001, the FBI went through several hiring freezes. They added
that while they are always ready to replace personnel lost by attrition (about
500 people per year), they find it more difficult to gear up to hire after a
hiring freeze. Further, hiring efforts are sometimes hampered by significant
investigations because agents working on background investigations must
shift their efforts to the more pressing matters and the hiring process is
delayed.

National Infrastructure Protection/Computer Intrusion Program
(NIPCIP)

      In FY 1999, its first year as an FBI program, NIPCIP utilized fewer
agents than allocated. In the next two fiscal years, the utilization and
allocation figures were closer with NIPCIP utilizing slightly more agent
resources than allocated.




                               - 41 –
                     REDACTED AND UNCLASSIFIED
                                 REDACTED AND UNCLASSIFIED


                                             EXHIBIT 5-4
                   COMPARISON OF AVERAGE AGENTS ON BOARD TO FUNDED STAFFING LEVEL
                       NATIONAL INFRASTRUCTURE/COMPUTER INTRUSION PROGRAM
                                   FISCAL YEARS 1999 THROUGH 2001
            250
                                                                             214
                          207                        198
            200

                                                     193                     191
            150
   AGENTS




                          129
            100



             50



              0
                          1999                       2000                    2001
                                               FISCAL YEAR
                                                   AOB      FSLs


            Source: FBI TURK System and FBI Finance Division

Domestic Terrorism (DT) Program

       Like NFIP, for much of the analyzed timeframe DT utilized fewer agent
resources than allocated. The exceptions occurred in FY 1996, when DT
utilized 119 agent resources more than it was allocated, and in FY 2000,
when utilization within the program outpaced its allocation by 5 agents.

                                             EXHIBIT 5-5
                   COMPARISON OF AVERAGE AGENTS ON BOARD TO FUNDED STAFFING LEVEL
                                    DOMESTIC TERRORISM PROGRAM
                                   FISCAL YEARS 1996 THROUGH 2001
            700


            600                   548       538

            500                                              449
                                                                      440           435
   AGENTS




            400                                                       435
                    324                                      419                    419
                                            399
            300                   360


            200
                    205
            100


              0
                   1996           1997      1998             1999     2000          2001
                                               FISCAL YEAR
                                                   AOB      FSLs

            Source: FBI TURK System and FBI Finance Division


                                           - 42 –
                                 REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


       DT officials explained that in FY 1996, the FBI was in the midst of a
variety of significant investigations, including cases involving the Mountain
Militia; the Freemen group; the Centennial Park bombing in Atlanta, Georgia
during the 1996 Summer Olympics; and the bombing of the Murrah Federal
Building in Oklahoma City, Oklahoma, in April 1995. Additionally, increased
activity of many domestic militia groups during this period resulted in the
increased workload.

      As for the underutilization in FY 1997, officials noted an enhancement
of 350 agents from a mid-year supplemental appropriation that did not
provide the FBI with sufficient time to fill all of these positions. They further
stated that in FY 1998 the FBI diverted agents to background investigations
so that the Bureau could more quickly bring new agents on board.
Additionally, the FBI diverted agent resources from the DT program to the
Safe Streets Task Forces (located within the Violent Crimes and Major
Offenders program) and firearms training. Officials added that in FY 1999
the FBI did not hire to its hiring plan, resulting in an agent underburn in
most programs.

White Collar Crime (WCC) Program

       As shown in Exhibit 5-6, WCC underutilized its agent resources
between FY 1996 and FY 2001 by a total of 655 agents (4.5 percent); the
average underutilization was 109 agents per year. WCC officials attributed
this, in part, to the general field office understaffing during the same time
period. They also said that increased allocations to counterterrorism matters
began during the same time period, particularly with implementation of the
new Joint Terrorism Task Forces. Like NFIP and DT, officials in WCC also
pointed to hiring issues as a reason for their agent resource underutilization,
explaining that in some years the FBI did not meet its hiring goals.




                                - 43 –
                      REDACTED AND UNCLASSIFIED
                                     REDACTED AND UNCLASSIFIED


                                                     EXHIBIT 5-6
                           COMPARISON OF AVERAGE AGENTS ON BOARD TO FUNDED STAFFING LEVEL
                                            WHITE COLLAR CRIME PROGRAM
                                           FISCAL YEARS 1996 THROUGH 2001
              3,000

                           2,346        2,394       2,423             2,419    2,457        2,405
              2,500

                                                    2,374             2,348    2,426        2,330
              2,000                     2,217
                           2,094
     AGENTS




              1,500


              1,000


                 500


                   0
                            1996        1997         1998              1999    2000         2001
                                                        FISCAL YEAR
                                                             AOB     FSLs


              Source: FBI TURK System and FBI Finance Division

Organized Crime/Drugs (OC/D) Program

       As with NFIP and WCC, OC/D consistently utilized fewer agents than
allocated for each fiscal year between 1996 and 2001. In total, the program
utilized 91.2 percent of its allocated agent resources during this period.43
                                                     EXHIBIT 5-7
                           COMPARISON OF AVERAGE AGENTS ON BOARD TO FUNDED STAFFING LEVEL
                                          ORGANIZED CRIME/DRUGS PROGRAM
                                           FISCAL YEARS 1996 THROUGH 2001
                 3,000


                            2,262       2,265        2,337            2,304    2,275
                                                                                            2,078
                 2,000                                                 2,183   2,172
                                                     2,106                                  2,061
                                        1,995
        AGENTS




                            1,812


                 1,000




                       0
                             1996        1997         1998              1999    2000         2001
                                                            FISCAL YEAR

                                                              A OB    FSLs


                 Source: FBI TURK System and FBI Finance Division


43
    We calculated the overall utilization rate by dividing the total AOB by the total FSL for the review
period. Utilization rates for all programs are found in Exhibit 5-12.

                                               - 44 –
                                     REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


      Officials in OC/D stated that this underutilization was caused by a
variety of factors.

       •      From FY 1996 through 2000, there was a general understaffing
              of agents throughout the FBI, a portion of which the OC/D
              program had to absorb.

       •      The FBI instituted aggressive hiring programs to address
              understaffing, which resulted in a significant overutilization of
              agent resources in both the Applicant Matters and Training
              programs. These two programs took resources from FBI
              investigative programs, including OC/D, causing an
              underutilization of agents in the investigative programs.44

       •      In both FY 1996 and FY 1998, although the OC/D program was
              granted increases in agent allocations from previous fiscal year
              levels, these positions were not filled and therefore were not
              available for assignment.

       •      OC/D positions were used to support terrorism investigations,
              namely the 1995 bombing of the Murrah Federal building in
              Oklahoma City, Oklahoma, and the 1998 bombings of
              U.S. embassies in Kenya and Tanzania.

       •      Although the OC/D program is allocated all of the reimbursed
              Organized Crime Drug Enforcement Task Force (OCDETF)
              positions, some OCDETF-related time is utilized within the violent
              crime program’s Safe Streets Task Forces.

Violent Crimes and Major Offenders (VCMO) Program

      In contrast to most other FBI programs, the VCMO program
consistently utilized more agent resources than allocated in each fiscal year
of the reviewed time period, for an overall utilization rate of 105.6 percent.
VCMO officials attributed this, in part, to changes in resource allocations
without corresponding changes in operational responsibility.




44
    This is corroborated by the results of our resource allocation and utilization comparative
trend analysis for these programs, as reported on pages 48 and 49.


                                    - 45 –
                          REDACTED AND UNCLASSIFIED
                              REDACTED AND UNCLASSIFIED



                                              EXHIBIT 5-8
                    COMPARISON OF AVERAGE AGENTS ON BOARD TO FUNDED STAFFING LEVEL
                             VIOLENT CRIME AND MAJOR OFFENDERS PROGRAM
                                    FISCAL YEARS 1996 THROUGH 2001
            2,500
                                 2,178       2,192
                    2,077                                   2,108     2,055
                                                                                     1,917
            2,000
                    2,058                                   2,011     2,003
                                 1,981       1,988
                                                                                     1,821
            1,500
   AGENTS




            1,000



             500



               0
                     1996        1997         1998           1999      2000          2001
                                                 FISCAL YEAR
                                                     AOB   FSLs



            Source: FBI TURK System and FBI Finance Division

      VCMO officials also said the increases in resource utilization between
FY 1996 and FY 1999, the years with the largest disparity between utilization
and allocation, occurred within the Violent Incident Crime sub-program. This
sub-program includes major reactive violent crimes, such as kidnapping,
extortion, bank/armored car robberies, and major fugitive cases. Officials
noted that these cases often require intensive multi-divisional investigation,
as well as deployment of the Special Weapons and Tactics team (SWAT),
Hostage Rescue Team, Hostage Negotiation, Special Operations Group, and
other manpower-related resources, all of which are charged to the VCMO
program.

Civil Rights (CR) Program

      Although the allocation of resources to the Civil Rights program
generally remained consistent during the analyzed time period, the program
varied in its utilization of agent resources, underutilizing in FYs 1996 and
1997, overutilizing from FY 1998 through FY 2000, and then underutilizing
again in FY 2001. These statistics are displayed in Exhibit 5-9.




                                        - 46 –
                              REDACTED AND UNCLASSIFIED
                              REDACTED AND UNCLASSIFIED



                                               EXHIBIT 5-9
                    COMPARISON OF AVERAGE AGENTS ON BOARD TO FUNDED STAFFING LEVEL
                                         CIVIL RIGHTS PROGRAM
                                    FISCAL YEARS 1996 THROUGH 2001
             200
                                                                 190
                                             182
             180

                     159                                               162
                                 156                                                 153
             160
    AGENTS




                                 155         156           155         153
             140
                                                                                     141
                     135
             120


             100


              80
                    1996         1997        1998          1999        2000          2001
                                                FISCAL YEAR
                                                    AOB   FSLs


             Source: FBI TURK System and FBI Finance Division

       Program officials noted that while FSLs were relatively static (varying
by no more than three from year-to-year), program initiatives, as well as
legislative and Department mandates, varied greatly from year-to-year.
They explained the overutilization in FYs 1998 and 1999 by noting that
several new initiatives were implemented during this time, including the
National Church Arson Initiative, the National Task Force on Reproductive
Health Providers, and the National Workers Exploitation Task Force. They
also noted that on average from FY 1996 through 2002 the program utilized
99.9 percent of its allocated resources.

        Officials also explained that FBI and Department policy require that all
civil rights-related work be addressed, rendering them unable to manage the
program by FSLs. Supervisors do not have discretion to prioritize work in
other programs over existing CR cases. They added that this policy is
unique to CR. Officials also expressed their belief that given this lack of
flexibility, CR will remain subject to fluctuations. They also pointed out that
civil rights is fifth in the FBI Director’s new list of agency priorities (as shown
on page 6), the highest priority ranking it has ever held.




                                        - 47 –
                              REDACTED AND UNCLASSIFIED
                                REDACTED AND UNCLASSIFIED



Applicant Matters (APP) Program

      The Applicant Matters program overburned its agent resources during
each fiscal year of the period studied, from a high of almost 300 agents in
FY 1996 to a low of 40 agents in FY 2000. Overall, the Applicant program
averaged a utilization rate of 245 percent.

                                               EXHIBIT 5-10
                     COMPARISON OF AVERAGE AGENTS ON BOARD TO FUNDED STAFFING LEVEL
                                       APPLICANT MATTERS PROGRAM
                                     FISCAL YEARS 1996 THROUGH 2001
             400
                   367
             350                  326

             300
                                              255
             250
                                                              205
    AGENTS




                                                                                      196
             200                                                        171

             150

             100                                              134       131           121

              50         76       79           79

               0
                         1996     1997        1998            1999      2000          2001
                                                    FISCAL YEAR
                                                      AOB    FSLs




             Source: FBI TURK System and FBI Finance Division

      Program officials stated that while Applicant Matters is considered a
separate program, much of its work is to recruit, test, process, and hire
special agents to staff all investigative programs. Officials also noted that
agent utilization steadily decreased in the program over the years because
the FBI began contracting with a private company to conduct applicant
background checks.

      Additionally, officials attributed the significant agent overutilization in
FY 1996 to the large amount of applicant work when the FBI lifted a 3-year
hiring freeze in 1995. In addressing the spike in utilization from 171 to
196 agents between FY 2000 and FY 2001, officials explained that because
this period included the presidential election, the program was occupied with
background checks on new presidential appointees, federal judges, and
White House staff. According to program officials, contractors are not
permitted to conduct these types of background checks.

                                          - 48 –
                                REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED



Training (TRAIN) Program

     The FBI significantly overutilized its agent resources in the Training
program from FY 1996 through FY 2001.


                                             EXHIBIT 5-11
                   COMPARISON OF AVERAGE AGENTS ON BOARD TO FUNDED STAFFING LEVEL
                                          TRAINING PROGRAM
                                   FISCAL YEARS 1996 THROUGH 2001
             250
                                                           217
                                189          195                      190
             200
                    172

             150
    AGENTS




                                                                                    125

                    127         131          131           131        131
             100

                                                                                    91
              50



               0
                    1996        1997         1998          1999       2000          2001
                                                FISCAL YEAR

                                                    AOB   FSLs



             Source: FBI TURK System and FBI Finance Division

       Program officials explained that prior to FY 2001, training for all
investigative programs was captured under the Training Program and was
reflected in the utilization rate. In FY 2001, the FBI added subclassifications
to capture training hours within the specific program supported by the
training rather than within the overall Training Program. Program officials
further explained that in March 2001, executive management declared that
overutilization in the Training Program would no longer be acceptable and
ordered that the training provided to state and local police officers be
reduced.




                                       - 49 –
                             REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


Conclusion

       Overall, our comparative trend analysis revealed that the FBI’s
utilization of agent resources did not match its allocation of agent resources.
Between FY 1996 and FY 2000, the Bureau as whole used fewer agent
resources than it was allocated. It was not until FY 2001 that this trend
shifted and agent usage surpassed agent allocation.

      At the investigative program level, most programs experienced both
under and overutilization. The matrix below summarizes our analyses;
yellow shading illustrates underutilization and blue shading illustrates
overutilization.

                               EXHIBIT 5-12
                           UTILIZATION MATRIX
                     FISCAL YEARS 1996 THROUGH 2002

     PROGRAM
                                                                          Utilization
               FY   1996     1997     1998     1999     2000     2001        Rate
                                                                          Percentage


      FBI-WIDE        U        U        U        U        U        O        97.8%

        NFIP          U        U        U        U        U        O        89.8%
               45
      NIPCIP          NA      NA       NA        U        O        O        91.6%
         DT           O        U        U        U        O        U        90.5%
        WCC           U        U        U        U        U        U        95.5%
        OC/D          U        U        U        U        U        U        91.2%
        VCMO          O        O        O        O        O        O        105.6%
         CR           U        U        O        O        O        U        103.6%
     APPLICANTS       O        O        O        O        O        O        245.2%
      TRAINING        O        O        O        O        O        O        146.7%

 Source: FBI TURK System and FBI Finance Division

      The FBI’s terrorism-related programs (National Foreign Intelligence,
National Infrastructure Protection/Computer Intrusion, and Domestic
Terrorism) and the Organized Crime/Drugs program underutilized agent
resources at a rate much lower than that of the Bureau overall. The Violent
Crimes and Major Offenders program was the only criminal investigative
program that overutilized its agent resources in each year of our review

45
   The National Infrastructure Protection/Computer Intrusion Program was created in
FY 1999.

                                    - 50 –
                          REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


period. All other FBI criminal investigative programs, including National
Foreign Intelligence, Domestic Terrorism, White Collar Crime, Civil Rights,
and Organized Crime/Drugs, experienced periods where agent utilization
was below agent allocation. In contrast, the two non-criminal investigative
FBI programs, Applicant Matters and Training, overutilized their resources in
every fiscal year of the analyzed timeframe.




                               - 51 –
                     REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED


             CHAPTER 6: FIELD OFFICE AGENT RESOURCE
                         SPECIALIZATION
       We conducted an analysis of agent and support resource utilization in
each of the FBI’s 56 field offices to determine the predominant programs for
each office. To do so, we calculated agent and support resource utilization46
in each field office, by program, for each fiscal year of our review period,
October 1, 1995, through June 1, 2002.47 We defined the “predominant”
program as the program that utilized the most agent resources for the most
fiscal years during the sample timeframe.

      For many field offices, the predominant program varied from year to
year. For example, in the seven years from FY 1996 through June 2002, the
Chicago Field Office utilized the largest number of its agent resources in the
Violent Crimes and Major Offenders program (VCMO) for one fiscal year
(1996), the National Foreign Intelligence Program (NFIP) for one fiscal year
(2002), and White Collar Crime (WCC) program for five years. Thus, the
predominant program for Chicago agents is WCC.
                                          EXHIBIT 6-1
                                   SPECIAL AGENT UTILIZATION
                                     CHICAGO FIELD OFFICE




                                           CLASSIFIED
                                          INFORMATION
                                            REDACTED




Source: FBI TURK System



46
     This is calculated using Average On Board (AOB), as previously defined.
47
     As part of this analysis, we created resource utilization graphs by criminal investigative program
for both agent and support personnel for each of the FBI’s field offices. The FBI considers the data
presented in the graphs to be classified information. Therefore, all 112 graphs were provided to the
FBI under separate cover.

                                       - 52 –
                             REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


       The Chicago Field Office utilized its support resources differently than
its agent resources. As shown in the following graph, Chicago utilized most
of its support resources in NFIP by a large margin, whereas the WCC
program is either second or third in terms of resource usage. This reflects
the overall trend of support in NFIP being greater than in all other programs
combined (as shown in Exhibit 3-5).
                                EXHIBIT 6-2
                       SUPPORT PERSONNEL UTILIZATION
                            CHICAGO FIELD OFFICE




                                 CLASSIFIED
                                INFORMATION
                                  REDACTED




     Source: FBI TURK System

      Unlike Chicago, agent resource trends in some field offices were very
clear and remained consistent throughout the duration of our review period.
For example, in the El Paso Field Office, the largest number of agent
resources were utilized in the Organized Crime/Drugs program (OC/D) for
each of the seven fiscal years.




                               - 53 –
                     REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED



                                  EXHIBIT 6-3
                          SPECIAL AGENT UTILIZATION
                             EL PASO FIELD OFFICE




                                 CLASSIFIED
                                INFORMATION
                                  REDACTED




      Source: FBI TURK System


      Our review also revealed that the majority of other field offices utilized
most of their agent resources in NFIP in FY 2002. This correlates to the
FBI’s shift in workload in the wake of 9/11. In El Paso, however, although
agent usage in NFIP moved ahead of both the Violent Crimes and Major
Offenders and White Collar Crime programs in FY 2002, it remained below
that of OC/D.

       Only 10 other field offices utilized more of their agent resources in
programs other than NFIP in FY 2002: Albuquerque, Anchorage, Cleveland,
Jackson, Minneapolis, Mobile, New Orleans, Salt Lake City, San Antonio, and
San Juan. Each of these, except Salt Lake City, continued to expend more
of its agent resources in that field office’s predominant program from
FY 1996 through FY 2001. As the lone exception, Salt Lake City expended
the majority of its agent resources in the Domestic Terrorism program due
to the 2002 Winter Olympics. The following list groups the FBI field offices
by predominant program.




                                - 54 –
                      REDACTED AND UNCLASSIFIED
                        REDACTED AND UNCLASSIFIED


                                 EXHIBIT 6-4
                  Predominant Field Office Agent Programs48
                    October 1, 1995 through June 1, 2002




                                    CLASSIFIED
                                   INFORMATION
                                     REDACTED




     Source: FBI TURK System

       Only seven field offices experienced no change in their predominant
agent programs during the timeframe we reviewed. These offices are
printed in blue and italicized in Exhibit 6-4. We also have incorporated the
information from the previous list onto the following map, which
geographically illustrates the jurisdictional boundaries of each FBI field office.
As illustrated on Exhibit 6-5, although NFIP is a tier one program in the FBI’s
strategic plan, only four field offices allocated enough agent resources to
make it their predominant program.



48
    None of the other FBI criminal investigative programs (Civil Rights, Domestic Terrorism,
or National Infrastructure Protection/Computer Intrusion) were predominant for any of the 56
field offices.


                                  - 55 –
                        REDACTED AND UNCLASSIFIED
                                   REDACTED AND UNCLASSIFIED
                                            EXHIBIT 6-5
                          PREDOMINANT PROGRAMS WORKED IN FBI FIELD OFFICES
                                        FY 1996 – JUNE 2002




                                                      CLASSIFIED
                                                     INFORMATION
                                                       REDACTED




Source: FBI TURK System, FBI Field Office Map, and OIG analysis.


                                                   - 56 –
                                         REDACTED AND UNCLASSIFIED
                              REDACTED AND UNCLASSIFIED


      CHAPTER 7: TRENDS IN RESOURCE UTILIZATION ON
                      MAJOR CASES
      Major cases are investigative matters, which, at their outset, are of
national importance or require a massive commitment of resources
throughout the FBI field offices. The Bureau began using major case
designators in 1987. Examples of major cases include investigations of the
9/11 attacks; the bombing of the Murrah Federal Building in Oklahoma City,
Oklahoma; and the bombings of U.S. embassies in Africa. In addition, the
FBI has opened major cases related to preparation for the 2002 Winter
Olympic Games in Salt Lake City, Utah, and the 1996 Summer Olympic
Games in Atlanta, Georgia.

Overall FBI Largest Major Cases

     We obtained data for the total hours charged by FBI personnel to all
major cases from FY 1996 through June 1, 2002, and we identified the top
15 cases in terms of combined agent and support personnel hours worked.49
We discovered that 11 of these cases were related to terrorism.
                                   EXHIBIT 7-150
                              TOP 15 FBI MAJOR CASES
                         OCTOBER 1995 THROUGH JUNE 2002
           RANK                  MAJOR CASE              HOURS51
             1       PENTTBOMB                            3,994,968
             2       INNOCENT IMAGES                         628,255
             3       CAMPCON                                 332,378
             4       2002 OLYMPIC WINTER GAMES              297,075
             5       OKBOMB                                 294,157
             6       SW BORDER PROJECT/PUBLIC CORRUPTION     274,451
             7       UNABOM                                 223,586
             8       SANDBOMB                               213,145
             9       CENTBOM                                179,265
            10       THUNDER ROLL                           166,682
            11       AMADO CARRILLO FUENTES INITIATIVE       147,429
            12       KENBOM                                 145,645
            13       1996 SUMMER OLYMPICS                   143,163
            14       AMERITHRAX                             116,575
            15       USAMA BIN LADEN52                       92,570
        Source: FBI TURK System and FBI Finance Division

49
     The FBI had 122 major cases open between October 1, 1995, and June 1, 2002.
50
    Each of the major cases noted in this chapter is briefly described in Appendix II. Terrorism-related
cases in Exhibits 7-1, 7-2, and 7-3 are identified in bolded italics.
51
     The hours shown do not necessarily represent total hours charged to these cases. Instead, the number
reflects the hours charged during our review period of October 1, 1995, to June 1, 2002.
52
     This case was opened on May 14, 1999.

                                        - 57 –
                              REDACTED AND UNCLASSIFIED
                            REDACTED AND UNCLASSIFIED


       By far, the case utilizing the most FBI human resources (special agent
and support personnel combined) has been the investigation into the 9/11
attacks (PENTTBOMB). Through June 1, 2002, the FBI had expended almost
4 million work hours on this investigation, which opened on September 12,
2001. In comparison, the second largest major case, INNOCENT IMAGES, has
been open since 1994 and has consumed about 628,000 work hours.53

Major Case Activities: Agents vs. Support Personnel

       The major case data also highlights that different types of cases require
different levels of effort from agents and support personnel. As noted in
Exhibit 7-1, CAMPCON was the third largest major case for the FBI as a whole.
However, this investigation into campaign contribution violations in the 1996
federal elections ranked seventh for agents and second for support personnel.
Conversely, the case related to the 2002 Winter Olympics ranked third for
agents and fifth for support, resulting in an overall rank of fourth.

      Special Agents – The top 15 cases for agents were generally the same
as the top 15 cases worked overall, with a few exceptions. The 15th largest
case overall, USAMA BIN LADEN, failed to rank in the top 15 for agents (it
was 16th with 82,967 hours). Instead, the 15th largest case for agents was
SPLITRAIL, an investigation into a train derailment in Arizona. The following
table presents the top 15 major cases worked by FBI special agents.
                                   EXHIBIT 7-2
                   TOP 15 FBI MAJOR CASES FOR SPECIAL AGENTS
                        OCTOBER 1995 THROUGH JUNE 2002
        RANK                     MAJOR CASE                 HOURS
          1        PENTTBOMB                                  3,558,813
          2        INNOCENT IMAGES                               509,874
          3        2002 OLYMPIC WINTER GAMES                    268,139
          4        OKBOMB                                       264,728
          5        SW BORDER PROJECT/PUBLIC CORRUPTION           260,237
          6        UNABOM                                       210,034
          7        CAMPCON                                       201,549
          8        SANDBOMB                                     192,025
          9        CENTBOM                                      166,331
         10        THUNDER ROLL                                 149,419
         11        AMADO CARRILLO FUENTES INITIATIVE             142,385
         12        1996 SUMMER OLYMPICS                         140,534
         13        KENBOM                                       138,319
         14        AMERITHRAX                                    97,569
         15        SPLITRAIL                                     84,476
     Source: FBI TURK System and FBI Finance Division

53
    This case is an undercover operation related to internet-based child pornography. See Appendix II
for a more detailed description.

                                      - 58 –
                            REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED



      Support Personnel – The top 15 cases for support personnel include
four cases that do not appear on either the overall or the agent lists. They
are MOZARK, MAJOR CASE 143, AT NORTHSIDE FAMILY PLANNING SERV –
VICTIM, and COLUMBIA/HCA. Also, the investigation into the anthrax
incidents following 9/11 (AMERITHRAX), which began in October 2001, ranks
much higher on the support chart (8th), than on either the agent or
combined charts (14th). The following table presents the top 15 major cases
worked by FBI support personnel.

                           EXHIBIT 7-3
         TOP 15 FBI MAJOR CASES FOR SUPPORT PERSONNEL
                OCTOBER 1995 THROUGH JUNE 2002
 RANK                        MAJOR CASE                           HOURS
   1    PENTTBOMB                                                     436,155
    2   CAMPCON                                                        130,829
    3   INNOCENT IMAGES                                                118,381
   4    OKBOMB                                                         29,429
   5    2002 OLYMPIC WINTER GAMES                                      28,936
   6    SANDBOMB                                                       21,120
    7   MOZARK                                                          20,627
   8    AMERITHRAX                                                     19,006
   9    MAJOR CASE 143                                                 17,635
   10   AT NORTHSIDE FAMILY PLANNING SERV - VICTIM                     17,263
   11   SW BORDER PROJECT/PUBLIC CORRUPTION                             14,214
   12   UNABOM                                                         13,552
   13   CENTBOM                                                        12,934
   14   COLUMBIA/HCA                                                    11,327
   15   USAMA BIN LADEN                                                  9,603
Source: FBI TURK System and FBI Finance Division

System Improvements

      During our audit, we identified errors related to major case hours
recorded in the FBI’s TURK system. Although these errors were minor, we
brought them to the attention of FBI officials. Specifically, we identified work
hours captured for major cases that did not exist. We also identified
Los Angeles as the FBI field office in which most of these errors occurred.

       Because of our identification of these issues, a change was made to
the TURK system. Now, when time is charged to a major case, the system
automatically checks that case number against a current master list of major
case numbers. The system will not accept invalid case numbers, preventing
hours from being captured in non-existent major cases. Further, FBI
officials agreed to review the circumstances surrounding the one field office
with the majority of the errors.

                                - 59 –
                      REDACTED AND UNCLASSIFIED
                            REDACTED AND UNCLASSIFIED


                           CHAPTER 8: FBI CASEWORK
      The Violent Crimes and Major Offenders (VCMO) program accounted
for the most cases worked in the FBI from October 1, 1995, through
June 14, 2002.54 In fact, one quarter of all the cases the FBI worked during
that period were in VCMO. The FBI’s National Foreign Intelligence Program
(NFIP) accounted for 17 percent of the cases worked during the same time
period, while the Domestic Terrorism (DT) program made up only one
percent. Additionally, the Miscellaneous Matters (MISC) program accounted
for 16 percent of the cases in the sample timeframe.55 The distribution of
cases worked by the FBI between October 1, 1995, and June 14, 2002, is
shown in Exhibit 8-1.

                                  EXHIBIT 8-1
                            BREAKDOWN OF FBI CASES
                         OCTOBER 1995 through JUNE 2002



                                             MISC
                                             16%
                                                                WCC
                                                                13%

                                                                      OC/D
                                                                       3%      CR
                                NFIP
                                                                               3%
                                17%

                                                                               TRAIN
                                                                                1%

                                                                             DT
                                                                             1%


                                       APP
                                       21%                            NIPCIP
                                                            VCMO       0%
                                                            25%




                                       Source: FBI ACS System

      In reviewing our analysis of the FBI’s casework found in this chapter, it
is important to note that individual cases vary significantly in terms of
importance and manpower commitment. For example, large-scale criminal

54
    The universe of cases discussed in this chapter includes those opened in FBI field offices as well as
FBI Headquarters.

55
    Cases in the Miscellaneous Matters program are generally administrative in nature. Examples
include FBI automobile accidents, Equal Employment Opportunity counseling, and Freedom of
Information Act inquiries.

                                      - 60 –
                            REDACTED AND UNCLASSIFIED
                         REDACTED AND UNCLASSIFIED


enterprise investigations require the FBI to devote years of effort, while
others, such as an immediate response to a bank robbery, can be short-term
in nature.

Data Analysis

      For our examination of cases worked, we obtained data from the
Automated Case Support (ACS) system consisting of all FBI cases recorded
from October 1, 1995, through June 14, 2002, a set of 1,799,198 individual
records. This data generally included the case number, opening and closing
dates, program, and investigative classification for each case.56

     We observed cases in the data set that were either assigned to FBI
programs no longer in existence or contained no program designation.
These cases accounted for less than one percent of the entire data set, so
we excluded them and focused our analyses on cases from current FBI
programs.

      Another factor to note when viewing our analyses is that in April 1999,
as part of its preparation for the Year 2000 (Y2K) conversion effort, the FBI
closed a large number of cases that originated at FBI Headquarters, and had
been unaddressed for long periods. The FBI did this to reduce the amount
of data that would go through the Y2K conversion process. Although there
was no way for us to determine exactly how many cases were closed for this
reason because some investigations were undoubtedly closed at the same
time for routine reasons, we approximated the number by identifying the
number of Headquarters cases that were opened prior to FY 1996 and were
closed in April 1999. This totaled 675,056 cases and reflected approximately
38 percent of the original data set.

      In addition, we found 59,037 cases in the data set that were designated
as having been destroyed. These destroyed cases, representing about three
percent of the original data set, generally contained only the case number,
the program designation, and a “D” designation for “destroyed.” Because
they contained no opening or closing dates, we counted the destroyed cases
as part of the total case count (and included them in Exhibit 8-1), but we
eliminated them from all subsequent analyses.




56
    Our data download included other fields, as noted in Appendix I; however, this
information was not used in our analysis.


                                   - 61 –
                         REDACTED AND UNCLASSIFIED
                               REDACTED AND UNCLASSIFIED


Cases Worked

      To determine if there were any evident trends in the FBI’s case
workload during our review period, we calculated the number of cases
worked57 per month, in all programs combined, for each fiscal year. We
then computed the average number of cases worked per month and used
this data in our analyses because we were only able to obtain data in
FY 2002 through June 14, 2002. If we had presented the total number of
cases worked per year, our results for 2002 would have been skewed
because we did not have data for the full fiscal year.

       Exhibit 8-2 presents the average number of cases worked per month,
in all programs combined, for each fiscal year of the review period. The
largest number of cases worked per month peaked in FY 1999 at over
94,000, before dropping significantly to just under 40,000 in FY 2000. This
significant drop-off, though, can be attributed to the aforementioned large
number of cases closed in the Y2K cleanup in April 1999. Additionally, the
average number of cases worked per month decreased slightly between
FY 2000 and FY 2001, before increasing by about 18,000 per month in
FY 2002.

                                              EXHIBIT 8-2
                               AVERAGE NUMBER OF CASES WORKED PER MONTH
                                        ALL PROGRAMS COMBINED
                                    OCTOBER 1995 THROUGH JUNE 2002
              100,000

               90,000

               80,000

               70,000

               60,000
      CASES




               50,000

               40,000

               30,000

               20,000

               10,000

                   0
                        1996     1997      1998        1999     2000      2001    2002

                                                  FISCAL YEAR



              Source: FBI ACS System

57
    For our analysis, we considered a case to be “worked” during a fiscal year if it was open
at any time during the year.

                                         - 62 –
                               REDACTED AND UNCLASSIFIED
                                   REDACTED AND UNCLASSIFIED


       Exhibit 8-3 breaks down the overall information and highlights the
average number of cases worked per month, by program, for each fiscal year.
For all but FY 1996, the FBI worked more cases per month in the Applicant
Matters (APP) program than in any other program, with the number ranging
from about 17,500 to almost 29,000 cases worked per month. In FY 1996,
Miscellaneous Matters (MISC) cases and Violent Crimes and Major Offenders
(VCMO) cases accounted for the largest number of cases worked per month,
with almost 19,000 cases. Further, between FY 1996 and FY 1999, the
average number of National Foreign Intelligence Program (NFIP) cases
worked per month remained somewhat steady, varying between
approximately 13,700 and 14,600 worked per month. For the same period,
White Collar Crime (WCC) cases also held relatively constant, averaging
between approximately 8,500 and 9,000 cases worked per month.

      As displayed in Exhibit 8-3, following the Y2K cleanup in April 1999, the
APP program continued to lead all other programs in the average number of
cases worked per month. At the same time, the number of VCMO, WCC, and
NFIP cases surpassed the number of MISC cases. By FY 2002, the number of
NFIP cases worked per month had increased enough to place it second in the
average number of cases worked per month. This increase in NFIP work can
most likely be attributed to the FBI’s response to the 9/11 terrorist attacks,
which occurred at the end of FY 2001.

                                              EXHIBIT 8-3
                        AVERAGE NUMBER OF CASES WORKED PER MONTH - BY PROGRAM
                                   OCTOBER 1995 THROUGH JUNE 2002
            30,000


            25,000

                                                                         APP
            20,000                                             MISC
                                                              VCMO
    CASES




            15,000
                            NFIP

            10,000
                                           WCC


             5,000
                        CR
                                                                                                          OC/D
                0
                     1996           1997              1998            1999          2000         2001            2002
                                                               FISCAL YEAR
                            NFIP   NIPCIP        DT     WCC      OC/D        VCMO    CR    APP    TRAIN     MISC



            Source: FBI ACS System

       Additionally, the Y2K cleanup seems to have affected various programs
differently. The average number of cases worked per month in the MISC,

                                             - 63 –
                                   REDACTED AND UNCLASSIFIED
                             REDACTED AND UNCLASSIFIED


VCMO, NFIP, WCC, and Civil Rights (CR) programs dropped significantly
from FY 1999 to 2000. However, the number in other programs (Applicant
Matters, Organized Crime/Drugs, Domestic Terrorism, and National
Infrastructure Protection/Computer Intrusion) decreased at a much smaller
rate. Also, between FY 2001 and FY 2002, the number of cases worked per
month in the APP, MISC, VCMO, NFIP, WCC, OC/D, and DT programs
increased. The average number of APP cases increased by 64 percent, the
largest amount of any program.

      According to the FBI, Applicant Matters accounts for a large portion of
the active cases because of the types of cases worked in this program.
Background investigation cases are opened for all FBI applicants, some of
which remain open throughout an employee’s entire career. In addition, this
program is responsible for performing background checks on presidential
appointees, as well as White House staff and visitors.

Case Openings

      We calculated and analyzed the average number of FBI cases opened
per month for each fiscal year between October 1, 1995, and June 14, 2002,
and identified a general downward trend. The FBI opened fewer cases per
month in each successive fiscal year between 1997 and 2001, reflecting a
one-third reduction in case openings, from just over an average of 12,000
cases opened per month in FY 1997 to just over 8,000 in FY 2001.58 The FBI
reversed this trend in the portion of FY 2002 examined in our analysis by
opening almost 2,000 cases per month more than in FY 2001.
                                                        E X H IB IT 8-4
                              A V E R A G E N U M B E R O F C A SE S O PE N E D PE R M O N T H
                                              A LL PR O GR A M S C O M B IN E D
                                       O C T O B E R 1995 T H R O U G H J U N E 2002

             14,000


             12,000


             10,000


              8,000
     CASES




              6,000


              4,000


              2,000


                  0
                      1996       1997            1998             1999            2000           2001   2002
                                                            FISC A L Y E A R

             Source: FBI ACS System


58
   This analysis is not affected by the Y2K cleanup in April 1999 because that exercise
involved only case closings, not case openings.

                                       - 64 –
                             REDACTED AND UNCLASSIFIED
                                     REDACTED AND UNCLASSIFIED


        We also looked at case openings in each FBI program as an annual
 monthly average. We found that prior to FY 2002, the FBI opened
 significantly more cases per month in its Violent Crimes and Major Offenders
 program than in any other program, followed by Applicant Matters, White
 Collar Crime, National Foreign Intelligence, and Miscellaneous Matters. In
 contrast, in the portion of FY 2002 in our review, the number of APP, NFIP,
 and Domestic Terrorism cases opened per month increased, while the
 number opened per month in all other programs decreased.


                                                    EXHIBIT 8-5
                               AVERAGE NUMBER OF CASES OPENED PER MONTH - BY PROGRAM
                                          OCTOBER 1995 THROUGH JUNE 2002
        4,000


        3,500      VCMO

        3,000
                        APP
        2,500          WCC
CASES




        2,000


        1,500                            NFIP

        1,000
                       MISC

         500            OC/D
                                         CR
                   DT
           0
                1996              1997           1998          1999        2000           2001      2002
                                                           FISCAL YEAR

                       APP      CR       DT     MISC    NFIP    NIPCIP   OC/D     TRAIN     VCMO   WCC


        Source: FBI ACS System

 Case Closings

       We also calculated and analyzed the average number of cases closed
 per month for each fiscal year of the data set. Of all the graphs found in this
 chapter, the following one in particular is distorted by the inordinate number
 of cases closed in FY 1999 as part of the Y2K cleanup. Exhibit 8-6 shows
 that excluding FY 1999, the FBI consistently has closed fewer cases per
 month in each successive fiscal year since 1998.




                                               - 65 –
                                     REDACTED AND UNCLASSIFIED
                              REDACTED AND UNCLASSIFIED


                                              EXHIBIT 8-6
                               AVERAGE NUMBER OF CASES CLOSED PER MONTH
                                        ALL PROGRAMS COMBINED
                                    OCTOBER 1995 THROUGH JUNE 2002
           70,000


           60,000


           50,000


           40,000
   CASES




           30,000


           20,000


           10,000


                0
                    1996         1997         1998          1999           2000      2001      2002
                                                        FISCAL YEAR

           Source: FBI ACS System

     To provide a more easily observable view of this downward trend in
case closings, we developed Exhibit 8-7, which contains the same
information as Exhibit 8-6 but removes all data from FY 1999.
                                                     E XH IBIT 8-7
                      AVER AGE N UM BER O F C ASES C LO SED PER M O N TH IN ALL PRO GR AM S
                          O C T O BER 1995 T H R O UGH JUN E 2002 (EXC LUDIN G FY 1999)

           10,000

            9,000

            8,000

            7,000

            6,000
   CASES




            5,000

            4,000

            3,000

            2,000

            1,000

                0
                    1996            1997             1998           2000          2001        2002
                                                        FISC AL Y EAR




           Source: FBI ACS System



      Exhibit 8-7 clearly shows that the average number of cases closed per
month is declining, from a high of approximately 9,000 in FY 1998, to a low
of just under 7,000 in FY 2002, a reduction of more than 2,000 cases per
month.

                                        - 66 –
                              REDACTED AND UNCLASSIFIED
                                 REDACTED AND UNCLASSIFIED



      We also analyzed case closings at the program level. As with
Exhibit 8-7, we removed FY 1999 data that distorts the case closing figures.
The FBI closed the most cases per month in Violent Crimes and Major
Offenders, followed by White Collar Crime, National Foreign Intelligence and
Applicant Matters programs. These trends remained consistent in FY 2002,
after 9/11.


                                             EXHIBIT 8-8
                        AVERAGE NUMBER OF CASES CLOSED PER MONTH - BY PROGRAM
                          OCTOBER 1995 THROUGH JUNE 2002 (EXCLUDING FY 1999)
        4,000


        3,500
                        VCMO
        3,000


        2,500
                           WCC
CASES




        2,000


        1,500
                         NFIP

        1,000
                           APP
         500


           0
                 1996                1997          1998           2000            2001            2002
                                                      FISCAL YEAR

                   TRAIN        DT     CR   OC/D     MISC   APP      NFIP   WCC          VCMO   NIPCIP



        Source: FBI ACS System

Cases Opened and Closed in the Same Fiscal Year

       We also calculated the length (in days) that each FBI case in our data
set was open. In doing so, we observed that the FBI had investigated a
significant number of cases that both opened and closed in the same fiscal
year. For the purposes of further analysis, we designated these cases as
“short-term,” and analyzed them at the program level to determine which
programs tended to conduct the largest number of short-term investigations.



                                           - 67 –
                                 REDACTED AND UNCLASSIFIED
                          REDACTED AND UNCLASSIFIED


As with the other analyses in this chapter, to obtain the most accurate
information possible, we computed the data as a monthly average for each
fiscal year period.

      Even with FY 1999 data included, we identified the same downward
trend in this analysis that we observed for both case openings and case
closings. In all programs combined, the FBI opened and closed individual
cases in the same fiscal year with much less frequency from FY 1998
onward. For example, in FY 1997, the FBI was working on an average of
almost 5,000 short-term cases per month. By FY 2002, though, this
average had dropped by more than 50 percent, to just over 2,200 per
month.
                                         EXHIBIT 8-9
                             AVERAGE NUMBER OF CASES PER MONTH
                          OPENED AND CLOSED IN THE SAME FISCAL YEAR
                               OCTOBER 1995 THROUGH JUNE 2002
          6,000


          5,000


          4,000
  CASES




          3,000


          2,000


          1,000


             0
                  1996     1997      1998       1999       2000       2001   2002

                                            FISCAL YEAR

          Source: FBI ACS System



      Our program-level analysis of short-term cases is noted in the
Exhibit 8-10. In general, the FBI worked most of its short-term cases in the
VCMO program, followed by WCC, APP, and NFIP.




                                    - 68 –
                          REDACTED AND UNCLASSIFIED
                                    REDACTED AND UNCLASSIFIED


                                              EXHIBIT 8-10
                             AVERAGE NUMBER OF CASES PER MONTH - BY PROGRAM
                                OPENED AND CLOSED IN THE SAME FISCAL YEAR
                                     OCTOBER 1995 THROUGH JUNE 2002
        2,000

        1,800          VCMO
        1,600
                       WCC
        1,400

        1,200
CASES




        1,000

         800

         600
                             APP
         400                                   NFIP
                                                        MISC
         200

           0
                1996               1997               1998          1999       2000           2001      2002
                                                               FISCAL YEAR
                       APP         CR     DT      MISC       NFIP    NIPCIP   OC/D    TRAIN     VCMO   WCC



        Source: FBI ACS System




                                              - 69 –
                                    REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


           CHAPTER 9: OVERALL CONCLUSIONS AND
                    RECOMMENDATIONS

       Since 1998, according to the FBI’s strategic plan, its top priority has
been addressing foreign intelligence, terrorist, and criminal activities that
directly threaten the national security of the United States. In May 2002,
the FBI Director announced a realignment of the Bureau’s top ten priorities
that again placed terrorism-related matters at the top. Despite these stated
priorities, we found that prior to 9/11:

      •     The FBI utilized more of its agent resources in the White Collar
            Crime (WCC), Violent Crimes and Major Offenders (VCMO), and
            Organized Crime/Drugs (OC/D) programs than in those related
            to terrorism.

      •     The terrorism-related programs consistently underutilized their
            allocated personnel resources at a rate greater than the Bureau
            as a whole. In comparison, agent utilization rates in VCMO, Civil
            Rights (CR), and WCC were significantly higher.

      •     Only 4 of the 56 field offices expended more of their agent
            resources in a terrorism-related program than in any other
            program. The remaining 52 field offices predominantly used
            agent resources in WCC, VCMO, or OC/D.

      •     Terrorism-related cases accounted for only 18 percent of those
            open any time between October 1995 and June 2002. In
            contrast, the VCMO program accounted for 25 percent of this
            universe of cases.

      The FBI responded to the 9/11 tragedy with a level of effort
unprecedented in its history. In a comparatively short period of time, the
investigation into the attacks became the FBI’s largest major case in the
past seven years. Additionally, since 9/11, the FBI has continued to devote
more of its time to terrorism-related work than any other single area.

        We believe the FBI needs to create an environment in which its
operational priorities, in terms of human resource utilization and
investigations, consistently coincide with the priorities that it has identified in
its strategic plan. Without such a sustained and systemic effort, there is a
possibility that the FBI’s priorities and resource allocation could diverge as
they did before September 11, 2001.



                                - 70 –
                      REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


      Based on the issues we observed during our review, we offer the
following recommendations to help improve the FBI’s management of human
resources and casework.

Bureau-wide Comparative Analyses of Human Resource Utilization

      FBI program managers currently conduct comparative analyses of
human resource utilization to allocations at the program and sub-program
level. This information is used as a tool for monitoring programs, as well as
for requesting and allocating resources for field offices. However, according
to FBI officials, the Bureau had never undertaken an overall analysis
involving all programs over a period of time. We believe that the FBI should
conduct a review similar to ours on a recurring basis.

1.   We recommend that the Director of the FBI regularly review resource
     utilization reports for the Bureau as a whole, as well as for the individual
     investigative programs, and explore additional means of analyzing the
     Bureau’s resource utilization among the various programs.

Level of Effort in the Violent Crimes and Major Offenders (VCMO)
Program

       The criminal investigations in the VCMO program fall primarily into the
third, and lowest, tier of the strategic plan. Despite this, the FBI
consistently overutilized its agent resources in the VCMO program during our
review period. Also, the FBI opened more VCMO cases than in any other
program. Since the Director stressed in May 2002 that the Bureau needed
to shift from a reactive force to a proactive one, and this program has
consistently been allocated a significant number of agent resources, its
resource utilization should be further scrutinized.

2.    We recommend that the Director of the FBI research and implement
      methods for addressing the overutilization and high allocation of agent
      resources in the VCMO program.

Rate of Case Openings and Closings Between 1998 and 2001

      Generally, the FBI opened and closed fewer cases per month, from
FY 1998 through 2001. Our audit was not designed to identify the cause for
these trends. Considering that the FBI’s financial resources have increased
over this timeframe and the fewer case openings and closings could be
construed as a reduction in productivity, the FBI should examine its overall
case activity to identify trends and address matters impacting its productivity.
Further, we found that the rate at which the cases are being closed is falling

                               - 71 –
                     REDACTED AND UNCLASSIFIED
                      REDACTED AND UNCLASSIFIED


behind the rate of case openings, resulting in an increasing population of
open cases.

3.    We recommend that the FBI perform research to determine why the
      rate of case openings and closings is decreasing and the population of
      open cases is increasing.

Timing of Funded Staffing Levels

       Funded Staffing Levels (FSL) are set after the budget has been
approved by Congress and the Resource Management and Allocation office
has performed its analysis and allocated the positions. Often, this occurs
late in the fiscal year. For example, in FY 2002 the FSLs were not finalized
until June 2002, even though the actual realignment of resources in
response to 9/11 occurred immediately following the terrorist attacks.
Further, the 2003 FSLs were not established and sent to field offices until
May 7, 2003. However, during the reviews of FBI field offices performed by
the Inspection Division, field office management is evaluated on the official
FSLs in place, which may be outdated and present a false view of the actual
field office utilization rate. For example, an office that may have been
inspected in May 2002 would have been judged on pre-9/11 FSLs that did
not reflect the shift in personnel devoted to terrorism-related programs.

4.    We recommend that the Director of the FBI review the current
      resource management and allocation process and make necessary
      changes to ensure that FSL allocations are made in a more timely
      manner.

Utilization in the Applicant Matters and Training Programs

       The FBI’s Applicant Matters and Training programs utilized significantly
more agent resources than they were allocated during the timeframe we
reviewed. This consistent disparity between planned and actual resource
usage exposes an inherent problem in the planning process for these
programs. Further, overutilization in these programs logically results in
underutilization in other programs. The FBI needs to determine the actual
resources that these programs require by evaluating the planning factors
(e.g., election years, hiring surges) and remedy the process that has
resulted in significant differences between resource allocation and utilization.

5.    We recommend that the Director of the FBI review the current
      planning factors and processes for the Applicant Matters and Training
      programs to more closely approximate the agent resources they
      actually need.

                                - 72 –
                      REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED



Data Errors and Omissions in the ACS System

       During our review of data extracted from the ACS system, we
identified some errors and omissions in individual case records. Specifically,
some records did not have a program designator or the designator was for a
program no longer in existence. In addition, we found errors related to
Preliminary Inquiry (PI) dates, as well as case opening and closing dates.
For example, we discovered cases in which opening dates preceded PI dates,
even though case opening dates should follow the date the associated PI
was initiated. ACS officials explained that this sometimes occurred in cases
originally opened under the legacy system to ACS, the Field Office
Information Management System (FOIMS). Cases that were closed in
FOIMS and then subsequently re-opened in ACS had their case opening
dates overwritten by the case re-opening date. ACS officials also said some
of these inconsistencies between case opening dates and PI dates could be
attributed to user error or program conversion problems where ACS did not
edit the date correctly. Additionally, officials said that when the system
went on line, it converted some case opening dates to the default date of
October 1, 1995; they advised that they corrected this problem between
three and four years ago.

      The FBI is planning to bring a new case management system on line in
the near future to replace ACS. In light of the errors we found in the data
and the problems the FBI encountered when switching from FOIMS to ACS,
the possibility exists for conversion errors when switching from ACS to the
new system. Therefore, management should take action to ensure that the
data is as complete and accurate as possible prior to the implementation of
the new system in order to reduce any conversion errors.

6.    We recommend that the Director of the FBI ensure that the data in
      ACS is complete and accurate prior to converting to a new case
      management system.

Usefulness of Monthly Administrative Reports from the Automated
Case Support (ACS) System

       The FBI Headquarters program managers are the primary users of the
ACS Monthly Administrative Reports that contain investigative case
statistics. These individuals are also the most knowledgeable about their
programs and the tools they find useful in managing their resources and
responsibilities. Our discussions with program managers revealed that
several question the utility of the information they receive from the reports.
Further, some stated that the information did not help them in performing

                               - 73 –
                     REDACTED AND UNCLASSIFIED
                    REDACTED AND UNCLASSIFIED


their program management duties. We suggest that the FBI form a
committee of program managers to share information and opinions and
develop ideas for improving the reports from ACS or the forthcoming case
management system.

7.   We recommend that the Director of the FBI revamp the current
     Monthly Administrative Report format and determine if more useful
     information can be extracted from the ACS system and be provided to
     program managers to help them in performing their duties.




                              - 74 –
                    REDACTED AND UNCLASSIFIED
                     REDACTED AND UNCLASSIFIED


           STATEMENT ON MANAGEMENT CONTROLS

      In planning and performing our audit of the FBI’s management of
casework and human resources, we considered the FBI’s control structure
for the purpose of determining our audit procedures. This evaluation was
not made for the purpose of providing assurance on the FBI management
control structure as a whole. However, we noted certain matters involving
management controls that we consider to be reportable conditions under
government auditing standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operations of the management
control structure that, in our judgment, could adversely affect the FBI’s
ability to effectively manage its case workload and human resources. We
identified weaknesses in the following areas:

      •    senior management actions to review human resource allocation
           and utilization, as well as casework distribution, for the Bureau
           as whole, among and between programs, and for compliance
           with the strategic plan;

      •    timing of the human resource allocations developed by the
           Resource Management and Allocation office; and

      •    quality of specific data in the Automated Case Support (ACS)
           system and the utility of the reports containing ACS data.

      Because we are not expressing an opinion on the FBI’s management
control structure as a whole, this statement is intended solely for the
information and use of the FBI in managing its casework and resource
management processes.




                               - 75 –
                     REDACTED AND UNCLASSIFIED
                                                                 APPENDIX I
                     REDACTED AND UNCLASSIFIED
           OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

       The objectives of this audit were to: 1) review the FBI’s allocation and
utilization of human resources in its investigative programs from FY 1996
through June 2002, and 2) determine the types and number of cases
investigated over the same time period.

Scope and Methodology

      We performed our audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States and
included such tests of the records and procedures that we considered
necessary to accomplish the audit objectives. The informational nature of
our audit objectives did not require that we perform testing of the FBI’s
compliance with laws and regulations.

      We conducted work at FBI Headquarters in Washington, D.C., and at
the FBI Chicago Field Office in Chicago, Illinois. We interviewed over
50 officials from the FBI, including the Director, the Assistant Director and
Chief Technology Officer, the Chief of Staff, the Special Assistants to the
Director for both Strategic Planning and Resource Management and
Allocation, and several Assistant Directors. We also interviewed FBI
Headquarters officials from the Finance Division and Resource Management
and Allocation office, as well as numerous Section Chiefs and Unit Chiefs
representing all FBI programs. Through these interviews and review of
documents and records pertaining to the audit objectives, we obtained an
understanding of the control environment for strategic and program
planning, requirements determination, and the resource allocation and
management processes. Further, we worked extensively with management
and support personnel responsible for the Time Utilization and
Recordkeeping (TURK) and Automated Case Support (ACS) systems to gain
an understanding of the systems, the data contained therein, the ways in
which the systems support the investigative work of the Bureau, and the
management controls over the systems.

      To achieve the audit objectives, we used computer-processed data
maintained in FBI information systems. To examine the FBI’s human
resource utilization, we reviewed data from the TURK system, a module of
the FBI’s payroll system, for the period of October 1, 1995, through June 1,
2002. The TURK system contains work hour and Average On Board data for
most FBI agents and support involved with investigative matters. To
examine the numbers and types of cases in its various criminal programs,

                               - 76 –
                     REDACTED AND UNCLASSIFIED
                                                                 APPENDIX I
                          REDACTED AND UNCLASSIFIED
we reviewed data from the Automated Case Support (ACS) system, which
assigns unique case identifiers to all investigations and contains case-related
material, for the period of October 1, 1995, through June 14, 2002.

       We assessed the reliability of the computer-processed data provided
by the FBI by obtaining information from FBI officials and performing various
tests. For data from the TURK and ACS systems, we performed tests to
establish reliability and obtained confirmation from FBI officials as to the
data’s reliability. For both systems, we reviewed management controls and
we performed data validity tests at the FBI Chicago Field Office in Chicago,
Illinois. Based on our test results and the information we obtained, we
concluded the data was sufficiently reliable to achieve our audit objectives.

Data Analysis

      We performed analyses of FBI resource allocation and utilization data,
as well as casework data, to identify trends in the FBI’s operations from
October 1995 through June 2002. In total, this data amounted to 2,407,108
records.

      Average On Board (AOB) - We received two runs of Average On Board
(AOB) data,59 for both agents and support personnel, covering the period
from October 1, 1995, through June 1, 2002. The first data run was
provided in a text file, which we then exported to a database file, and
contained 34,944 records broken into the following fields:

        •   COST CODE: Four-digit office identifier
        •   EMPLOYEE INDICATOR: Agent or Support
        •   FISCAL YEAR: 1996 through 2002
        •   PROGRAM: Numeric Indicator - See Appendix IV
        •   SUB-PROGRAM: Alpha Indicator - See Appendix IV
        •   AVERAGE ON BOARD: AOB for the program/sub-program designated

      We provided the annual AOB figures from our analyses to FBI
Headquarters program managers for verification and explanation of the data.
In doing so, we discovered that we had not been provided with data for the
entire universe of FBI personnel who are captured in the TURK system. We
then received a second data run containing AOB data in the same format as
the original sample for three cost codes that were not captured in the first

59
     The definition of AOB can be found on page 14.

                                    - 77 –
                          REDACTED AND UNCLASSIFIED
                                                                  APPENDIX I
                      REDACTED AND UNCLASSIFIED
run: Critical Incident Response Group; Independent Counsels; and
CAMPCON, a major case related to the investigation of campaign finance
irregularities in the 1996 presidential election. We received this data in a text
file containing 1,644 records and imported it into a database file for testing.
We exported the data from both the original and new data runs into a
spreadsheet program and calculated a new grand total. We then used this
total for our trend analyses of AOB data found in Chapters 3, 4, 5, and 6.

      TURK Work Hours – We obtained work hour data from the FBI’s TURK
system as a measurement of resource utilization. We received a total of
four data runs for both agent and support personnel covering the period
from October 1, 1995, through June 1, 2002. The first two runs had to be
discarded due to data omissions and organization errors; the third data run
appeared complete and organized in the manner we requested. We received
the data in a text file and imported it into a database file for testing. The
data consisted of 550,486 records, each containing the following fields:

     •    COST CODE: Four-digit office identifier
      •   FISCAL YEAR: 1996 through 2002
      •   TURK PERIOD: See Appendix III
      •   EMPLOYEE INDICATOR: Agent or Support
      •   PROGRAM: Numeric Indicator - See Appendix IV
      •   SUB-PROGRAM: Alpha Indicator - See Appendix IV
      •   MAJOR CASE: Only if appropriate, see Appendix II for examples
      •   HOURS: Hours expended in the program/sub-program designated
      •   LEAVE: Hours charged to any type of leave, such as annual or sick leave
      •   MISCELLANEOUS: Time expended on matters such as firearms training
          or automotive accidents that are not directly related to an investigative
          program

      The data universe the FBI provided included subtotals by program and
sub-program. For us to perform the required analyses, we removed all
subtotals and calculated the TURK work hours, miscellaneous, and leave
amounts for each TURK period to obtain the total time TURKed for that time
period. With these totals, we were able to compute the Direct Agent Work
Years (DAWYs) and Direct Support Work Years (DSWYs). As previously
explained, DAWYs and DSWYs are an estimation of work effort (not people),
calculated based on a 10-hour day for a special agents and an 8-hour day


                                - 78 –
                      REDACTED AND UNCLASSIFIED
                                                                 APPENDIX I
                     REDACTED AND UNCLASSIFIED
for support personnel. The formulae to calculate the DAWYs or DSWYs are
as follows:

          DAWYs = ((Hours / number of payperiods) * 26) / 2600
          DSWYs = ((Hours / number of payperiods) * 26) / 2080

       As with the AOB data, we discovered that we had not been provided
TURK work hour data for all TURKing FBI personnel. Therefore, we had to
request a fourth data run, containing agent and support work hour data for
the same three cost codes that were not captured in the initial AOB run. We
received the data in a text file consisting of 9,175 records in the same
format as the initial data and imported it into a database file for testing. We
exported the data from both the third and fourth data runs into a
spreadsheet program and combined it for a new grand total. We used this
total for our analyses of TURK work hour data found in Chapters 4 and 7.

        Funded Staffing Levels – In our comparative trend analyses of agent
resource utilization to allocation, we used the Bureau’s Funded Staffing
Levels (FSLs) that are established by the Resource Management and
Allocation (RMA) office. We obtained two sets of FSLs for each program and
fiscal year. The first set we obtained from the RMA office represented the
initial allocations set for each fiscal year. We also obtained FSLs from TURK
program officials that represented the final allocation for the fiscal year,
which reflected any mid-year adjustments. The two sets of data amounted
to 11,661 records. We used the final FSLs in our comparative trend
analyses discussed in Chapter 5.

       Casework - For our analyses of the FBI’s casework, we received a total
of five data runs from the Automated Case Support (ACS) system containing
all FBI cases worked from October 1, 1995, through June 14, 2002. We had
to discard the first four runs due to omissions and data organization errors
before receiving a fifth and final one. The information was provided in a
database file containing 1,799,198 records, separated into the following
fields:

      •      CASE ID: Universal Case File Number
      •      SOURCE: Source of information that resulted in the opening of a
             case
      •      PRELIMINARY DATE: Date the Preliminary Inquiry (PI) began

      •      FULL DATE: Date the full investigation began

      •      CASE OPEN DATE: Date the case was officially opened

                               - 79 –
                     REDACTED AND UNCLASSIFIED
                                                                  APPENDIX I
                     REDACTED AND UNCLASSIFIED

      •      CASE CLOSE DATE: Date the case was officially closed

      •      PROGRAM: Full name of FBI program

      •      PREV CLASS 1-30: Previous FBI classification for any case that
             was classified under two or more investigative classifications
             during its tenure
      •      CLASS LEVEL: National security classification of the case
             (e.g., Secret)
      •      DESTROYED CASE: Indicator ("D") that case was destroyed

      The ACS data did not contain all of the fields we requested in our initial
data request memorandum. ACS officials advised that they were unable to
provide the following three fields we had requested because ACS does not
track them: 1) the source organization requesting assistance or referring a
case, 2) the lead agency on a multi-agency case, and 3) a field showing the
disposition of a Preliminary Inquiry (PI) or Suitability Inquiry.

      In reviewing the final data run, we identified cases that were
designated as belonging to FBI programs no longer in existence or in which
no program was listed. Without a current program identifier for these cases,
we were required to eliminate them from our analyses. In total, this
accounted for 12,641 cases, or less than three quarters of one percent of the
original universe. As a result, our universe consisted of 1,786,557 cases on
which we performed our initial breakdown of FBI cases from October 1995
through June 2002, found in Exhibit 8-1.

       In addition, we discovered 59,037 cases in the database that were
designated as having been destroyed (59 of these destroyed cases also had
no program listed and were removed as part of those noted in the preceding
paragraph). These destroyed cases, representing 3.28 percent of the
original data set, did not contain any case opening or closing dates. ACS
officials advised that they are sometimes directed to destroy cases, and if
this is done it is impossible to extract any information from them except for
the case number (which remains in ACS to maintain the sequential
numbering system). Without case opening or closing dates, we were unable
to include these cases in our subsequent analyses, which were dependent
upon these dates. This reduction of 58,978 cases (the 59,037 destroyed
cases, less the 59 cases already captured as having no program and having
already been excluded) left a sample of 1,727,579 cases, on which we
performed the remainder of our testing in Chapter 8.


                               - 80 –
                     REDACTED AND UNCLASSIFIED
                                                                APPENDIX I
                     REDACTED AND UNCLASSIFIED
       As previously discussed, we discovered a significant number of cases
that were closed in FY 1999 (761,406, compared to 106,958 in FY 1998).
Upon our inquiry, ACS officials explained that in April 1999, as part of its
preparation for Y2K on January 1, 2000, the FBI closed a large number of
Headquarters cases that had been unaddressed for long periods of time to
reduce the amount of data that would go through the Y2K conversion
process. Although there was no way for us to determine exactly how many
cases were closed for this reason, because some investigations were closed
at the same time for routine reasons, we approximated the number by
identifying the number of Headquarters cases that were opened prior to
FY 1996 and were closed in April 1999. This totaled 675,056 cases and
reflected approximately 38 percent of the original data set.




                               - 81 –
                     REDACTED AND UNCLASSIFIED
                                                              APPENDIX II
                   REDACTED AND UNCLASSIFIED
                  EXAMPLES OF MAJOR CASES
AMADO CARRILLO FUENTES INITIATIVE

    According to the FBI, the Amado Carrillo Fuentes Organization is a
    core level Mexican drug trafficking organization. It has evolved its role
    in drug trafficking into a brokerage, directing multi-ton quantities of
    Medellin and Cali cocaine toward established Mexican importation and
    distribution organizations.

    Rank:       Overall     11
                Agents      11
                Support     N/A

AMERITHRAX

    In October 2001, members of Congress and the media received
    letters, through the postal service, containing anthrax, a deadly
    chemical.

    Rank:       Overall     14
                Agents      14
                Support     8

AT NORTHSIDE FAMILY PLANNING SERV – VICTIM

    This investigation related to an explosive device that was detonated
    outside the Atlanta Northside Family Planning Center, fatally injuring
    an individual employed at the facility.

    Rank:       Overall     N/A
                Agents      N/A
                Support     10

CAMPCON

    The CAMPCON investigation involves illegal campaign contributions by
    foreign nationals and corporations to the Democratic National
    Committee during the 1996 Federal elections.

    Rank:       Overall     3
                Agents      7
                Support     2


                             - 82 –
                   REDACTED AND UNCLASSIFIED
                                                              APPENDIX II
                   REDACTED AND UNCLASSIFIED
CENTBOM

    CENTBOM refers to the investigation of the bombing in Centennial Park
    during the 1996 Summer Olympic Games in Atlanta, Georgia, which
    killed one individual.

    Rank:       Overall     9
                Agents      9
                Support     13

COLUMBIA/HCA

    COLUMBIA/HCA involves a criminal investigation into whether the
    nation’s largest hospital chain over billed government health insurance
    programs.

    Rank:       Overall     N/A
                Agents      N/A
                Support     14

INNOCENT IMAGES

    The INNOCENT IMAGES investigation is an undercover operation
    designed to identify and develop sufficient evidence to support the
    prosecution of individuals utilizing computer telecommunications
    facilities to receive and/or distribute child pornography, as well as
    those who use this technology to lure minors into illicit sexual
    relationships.

    Rank:       Overall     2
                Agents      2
                Support     3

KENBOM

    This investigation related to the bombing at the U.S. Embassy in
    Nairobi, Kenya.

    Rank:       Overall     12
                Agents      13
                Support     N/A




                             - 83 –
                   REDACTED AND UNCLASSIFIED
                                                              APPENDIX II
                   REDACTED AND UNCLASSIFIED
MOZARK

    MOZARK involves the investigation of allegations of fraud against the
    Small Business Administration as well as the investigation of a failed
    financial institution.

    Rank:       Overall     N/A
                Agents      N/A
                Support     7

OKBOMB

    On April 19, 1995, the Alfred P. Murrah federal building in Oklahoma
    City, Oklahoma exploded following the detonation of a bomb, killing
    168 people.

    Rank:       Overall     5
                Agents      4
                Support     4

PENTTBOMB

    PENTTBOMB refers to the investigation into the terrorist events on
    September 11, 2001, in which commercial airplanes were crashed into
    the Pentagon, the twin towers of the World Trade Center in New York
    City, and a field in rural Pennsylvania.

    Rank:       Overall     1
                Agents      1
                Support     1

MAJOR CASE 143

    Due to the sensitivity of this investigation, this major case cannot be
    described and can be referred to only by case number.

    Rank:       Overall     N/A
                Agents      N/A
                Support     9




                             - 84 –
                   REDACTED AND UNCLASSIFIED
                                                             APPENDIX II
                   REDACTED AND UNCLASSIFIED
SANDBOMB

    In February 1998, an explosive device detonated outside the New
    Woman and All Women Health Care Clinic in Birmingham, Alabama,
    fatally injuring an off-duty policeman and severely injuring a nurse
    employed at the facility. According to the FBI, the investigation
    indicates that this bombing may be related to two other bombings
    claimed by the Army of God, which occurred in Atlanta, Georgia during
    1997.

    Rank:      Overall     8
               Agents      8
               Support     6

SPLITRAIL

    The SPLITRAIL investigation involves allegations that an Amtrak train
    was intentionally derailed at a remote site approximately 60 miles
    southwest of Phoenix, Arizona in October 1995. One passenger was
    killed, 12 were injured critically, and another 100 sustained other
    injuries.

    Rank:      Overall     N/A
               Agents      15
               Support     N/A

SW BORDER PROJECT/PUBLIC CORRUPTION

    This investigation involves crime along the Southwest Border of the
    U.S., especially drug trafficking, corruption, and auto/cargo theft.

    Rank:      Overall     6
               Agents      5
               Support     11

THUNDER ROLL

    The THUNDER ROLL investigation related to the arresting of 2 suspects
    and seizing approximately 45 bags of evidence in August 1997,
    including a suicide note and a 2-page letter in Arabic containing bomb-
    making instructions.

    Rank:      Overall     10
               Agents      10
               Support     N/A
                             - 85 –
                   REDACTED AND UNCLASSIFIED
                                                           APPENDIX II
                  REDACTED AND UNCLASSIFIED

UNABOM

    Over a 17-year period, Theodore Kaczynski constructed bombs that
    killed 3 and injured 22 people. He was arrested in April 1995 and
    pleaded guilty in January 1998.

    Rank:      Overall     7
               Agents      6
               Support     12

USAMA BIN LADEN

    The investigation, opened on May 14, 1999, focused on foreign acts of
    terrorism around the globe, including the bombings of the U.S.
    embassies in Africa in 1998, attributable to Bin Laden.

    Rank:      Overall     15
               Agents      N/A
               Support     15

1996 SUMMER OLYMPICS

    This major case designator was used to consolidate time charged in
    preparation of the summer games held in Atlanta, Georgia in 1996.

    Rank:      Overall     13
               Agents      12
               Support     N/A

2002 OLYMPIC WINTER GAMES

    The 2002 Winter Olympic Games were held in Salt Lake City, Utah. As
    this large, international event took place just months after the 9/11
    attacks, the FBI made extensive security preparations.

    Rank:      Overall     4
               Agents      3
               Support     5




                            - 86 –
                  REDACTED AND UNCLASSIFIED
                                                 APPENDIX III
               REDACTED AND UNCLASSIFIED
LIST OF TURK PERIODS IN REVIEW TIMEFRAME

Fiscal    Turk                               Pay Period
                        Date Range
Year     Period                                Range
1996       1       10/01/1995 - 10/28/1995     22 - 23
           2       10/29/1995 - 11/25/1995     24 - 25
           3       11/26/1995 - 12/23/1995     26 - 01
           4       12/24/1995 - 01/20/1996     02 - 03
           5       01/21/1996 - 02/17/1996     04 - 05
           6       02/18/1996 - 03/16/1996     06 - 07
           7       03/17/1996 - 04/13/1996     08 - 09
           8       04/14/1996 - 05/11/1996     10 - 11
           9       05/12/1996 - 06/08/1996     12 - 13
           10      06/09/1996 - 07/06/1996     14 - 15
           11      07/07/1996 - 08/03/1996     16 - 17
           12      08/04/1996 - 08/31/1996     18 - 19
           13      09/01/1996 - 09/28/1996     20 - 21



Fiscal    Turk                               Pay Period
                        Date Range
Year     Period                                Range
1997       1       09/29/1996 - 10/26/1996     22 - 23
           2       10/27/1996 - 11/23/1996     24 - 25
           3       11/24/1996 - 12/21/1996     26 - 01
           4       12/22/1996 - 01/18/1997     02 - 03
           5       01/19/1997 - 02/15/1997     04 - 05
           6       02/16/1997 - 03/15/1997     06 - 07
           7       03/16/1997 - 04/12/1997     08 - 09
           8       04/13/1997 - 05/10/1997     10 - 11
           9       05/11/1997 - 06/07/1997     12 - 13
           10      06/08/1997 - 07/05/1997     14 - 15
           11      07/06/1997 - 08/02/1997     16 - 17
           12      08/03/1997 - 08/30/1997     18 - 19
           13      08/31/1997 - 09/27/1997     20 - 21



                         - 87 –
               REDACTED AND UNCLASSIFIED
                                                 APPENDIX III
               REDACTED AND UNCLASSIFIED
Fiscal    Turk                               Pay Period
                        Date Range
Year     Period                                Range
1998       1       09/28/1997 - 10/25/1997     22 - 23
           2       10/26/1997 - 11/22/1997     24 - 25
           3       11/23/1997 - 12/20/1997     26 - 27
           4       12/21/1997 - 01/17/1998     01 - 02
           5       01/18/1998 - 02/14/1998     03 - 04
           6       02/15/1998 - 03/14/1998     05 - 06
           7       03/15/1998 - 04/11/1998     07 - 08
           8       04/12/1998 - 05/09/1998     09 - 10
           9       05/10/1998 - 06/06/1998     11 - 12
           10      06/07/1998 - 07/04/1998     13 - 14
           11      07/05/1998 - 08/01/1998     15 - 16
           12      08/02/1998 - 08/29/1998     17 - 18
           13      08/30/1998 - 09/26/1998     19 - 20



Fiscal    Turk                               Pay Period
                        Date Range
Year     Period                                Range
1999       1       09/27/1998 - 10/24/1998     21 - 22
           2       10/25/1998 - 11/21/1998     23 - 24
           3       11/22/1998 - 12/19/1998     25 - 26
           4       12/20/1998 - 01/16/1999     01 - 02
           5       01/17/1999 - 02/13/1999     03 - 04
           6       02/14/1999 - 03/13/1999     05 - 06
           7       03/14/1999 - 04/10/1999     07 - 08
           8       04/11/1999 - 05/08/1999     09 - 10
           9       05/09/1999 - 06/05/1999     11 - 12
           10      06/06/1999 - 07/03/1999     13 - 14
           11      07/04/1999 - 07/31/1999     15 - 16
           12      08/01/1999 - 08/28/1999     17 - 18
           13      08/29/1999 - 09/25/1999     19 - 20




                         - 88 –
               REDACTED AND UNCLASSIFIED
                                                 APPENDIX III
               REDACTED AND UNCLASSIFIED
Fiscal    Turk                               Pay Period
                        Date Range
Year     Period                                Range
2000       1       09/26/1999 - 10/23/1999     21 - 22
           2       10/24/1999 - 11/20/1999     23 - 24
           3       11/21/1999 - 12/18/1999     25 - 26
           4       12/19/1999 - 01/15/2000     01 - 02
           5       01/16/2000 - 02/12/2000     03 - 04
           6       02/13/2000 - 03/11/2000     05 - 06
           7       03/12/2000 - 04/08/2000     07 - 08
           8       04/09/2000 - 05/06/2000     09 - 10
           9       05/07/2000 - 06/03/2000     11 - 12
           10      06/04/2000 - 07/01/2000     13 - 14
           11      07/02/2000 - 07/29/2000     15 - 16
           12      07/30/2000 - 08/26/2000     17 - 18
           13      08/27/2000 - 09/23/2000     19 - 20



Fiscal    Turk                               Pay Period
                        Date Range
Year     Period                                Range
2001       1       09/24/2000 - 10/21/2000     21 - 22
           2       10/22/2000 - 11/18/2000     23 - 24
           3       11/19/2000 - 12/16/2000     25 - 26
           4       12/17/2000 - 01/13/2001     01 - 02
           5       01/14/2001 - 02/10/2001     03 - 04
           6       02/11/2001 - 03/10/2001     05 - 06
           7       03/11/2001 - 04/07/2001     07 - 08
           8       04/08/2001 - 05/05/2001     09 - 10
           9       05/06/2001 - 06/02/2001     11 - 12
           10      06/03/2001 - 06/30/2001     13 - 14
           11      07/01/2001 - 07/28/2001     15 - 16
           12      07/29/2001 - 08/25/2001     17 - 18
           13      08/26/2001 - 09/22/2001     19 - 20




                         - 89 –
               REDACTED AND UNCLASSIFIED
                                                APPENDIX III
               REDACTED AND UNCLASSIFIED



Fiscal    Turk                              Pay Period
                       Date Range
Year     Period                               Range
2002       1      09/23/2001 - 10/20/2001     21 - 22
           2      10/21/2001 - 11/17/2001     23 - 24
           3      11/18/2001 - 12/15/2001     25 - 26
           4      12/16/2001 - 01/12/2002     01 - 02
           5      01/13/2002 - 02/09/2002     03 - 04
           6      02/10/2002 - 03/09/2002     05 - 06
           7      03/10/2002 - 04/06/2002     07 - 08
           8      04/07/2002 - 05/04/2002     09 - 10
           9      05/05/2002 - 06/01/2002     11 - 12




                         - 90 –
               REDACTED AND UNCLASSIFIED
                                                                                                     APPENDIX IV
                                        REDACTED AND UNCLASSIFIED
                     CROSSWALK OF FBI PROGRAMS AND SUB-PROGRAMS

PROGRAM                                     SUB-PROGRAM AND FISCAL YEAR START

#    NAME     1996 & PRIOR           1997   1998     1999            2000       2001                             2002
              Foreign Counterintelligence (CI)
       NFIP




02            FBI Security (SC)
              International Terrorism (TI)
03   NIPCIP   No program in existence                No Sub-programs
                                                                                Counterterrorism Preparedness (CT)
       DT




04                                                                              Domestic Terrorism Operations (DT)
                                                                                Weapons of Mass Destruction Operations (WM)
              Economic Crimes (EC)
              Financial Institution Fraud (FI)
              Governmental Fraud (GF)
              Public Corruption (PC)
              Other Matters (ZZ)
                                    Antitrust (AT)
                                    Bankruptcy Fraud (BF)
                                    Computer Investigations/
                                    Threat Assessment (CC)
       WCC




05
                                    Environmental Crimes (EN)
                                    Health Care Fraud (HF)
                                    Insurance Fraud (IF)
                                    Money Laundering (ML)
                                    Public Corruption (PC)
                                    Securities/Commodities Fraud (SF)
                                    Telemarketing Fraud (TM)
                                            Intellectual Property Rights (IP)
                                                                                Other Wire and Mail Fraud Schemes (WF)

                                                  - 91 –
                                        REDACTED AND UNCLASSIFIED
                                                                                               APPENDIX IV
                                    REDACTED AND UNCLASSIFIED


PROGRAM                                SUB-PROGRAM AND FISCAL YEAR START

#    NAME    1996 & PRIOR       1997    1998    1999        2000          2001                             2002
             Drug Demand Reduction Program/Community Outreach (DD)
             Organized Crime (OC) Drug Enforcement Task Force (DE)
             Organized Crime/Drugs Program (DP)
                                                        Asian Criminal Enterprise (AC)
07
      OC/D




                                                        Columbian/Caribbean (CO)
                                                            La Costra Nostra/Italian OC/Labor Racketeering (LC)
                                                            Mexican/Criminal Syndicates (MC)
                                                            Other Matters-OC (OM)
                                                            Russian/East Europe/Eurasian Criminal Enterprises (RE)
                                                                          Other Matters-Drugs (OD)
             Violent Crime-Organized Crime Drug Enforcement Task Force (DF)
             Financial Crimes (FU)
             Government Reservation Crimes (GR)
             Interstate Theft (IT)
             Violent Crimes/Violent Incident Crimes (VC)
                                         Victim Witness Assistance (VW)
08                                                          Crimes Against Children (CA)
      VCMO




                                                            Fugitives (FU)
                                                            Crimes in Indian Country (IC)
                                                            Innocent Images National Initiative (II)
                                                            Major Theft (MT)
                                                            Special Jurisdiction Matters (SJ)
                                                            Transportation Crimes (TC)
                                                            Violent Gangs (VG)
                                                            Other Matters (ZV)


                                              - 92 –
                                    REDACTED AND UNCLASSIFIED
                                                                                      APPENDIX IV
                                     REDACTED AND UNCLASSIFIED


PROGRAM                                SUB-PROGRAM AND FISCAL YEAR START
#    NAME    1996 & PRIOR       1997    1998   1999        2000        2001               2002

09
      CEI    The Criminal Enterprise Investigations program was created in FY 2003.


10
     CCP     The Cyber Crime Program was created in FY 2003.


11
      CR     No Sub-programs

             Other Reimbursable (OR)
14           Other Non-Reimbursable (ON)
      APP




             Background Investigations (BP)
             Recruitment and Processing (RP)

16           Federal Training (FE)
     TRAIN
             State and Local Training (ST)

17
     MISC    No Sub-programs




                                               - 93 –
                                     REDACTED AND UNCLASSIFIED
                                                              APPENDIX V
                   REDACTED AND UNCLASSIFIED

                    DEFINITIONS OF
              ACRONYMS AND ABBREVIATIONS

ACS      Automated Case Support
AFOR     Annual Field Office Report
AG       Attorney General
AOB      Average On Board
APP      Applicant Matters Program
ATC      Administrative Time Capture
CFR      Code of Federal Regulations
CR       Civil Rights Program
DAWY     Direct Agent Work Year
DEA      Drug Enforcement Administration
DSWY     Direct Support Work Year
DT       Domestic Terrorism Program
FSL      Funded Staffing Level
FY       Fiscal Year
MISC     Miscellaneous Matters Program
NFIP     National Foreign Intelligence Program
9/11     September 11, 2001
NIPCIP   National Infrastructure Protection/Computer Intrusion Program
OC/D     Organized Crime/Drugs Program
OCDETF   Organized Crime Drug Enforcement Task Force
OIG      Office of the Inspector General
OMB      Office of Management and Budget
PI       Preliminary Inquiry
RMA      Resource Management and Allocation
SWAT     Special Weapons and Tactics
TRAIN    Training Program
TURK     Time Utilization and Recordkeeping
USMS     United States Marshals Service
VCMO     Violent Crimes and Major Offenders Program
WCC      White Collar Crime Program




                             - 94 –
                   REDACTED AND UNCLASSIFIED
                                    APPENDIX VI
        REDACTED AND UNCLASSIFIED


FEDERAL BUREAU OF INVESTIGATION RESPONSE




                  - 95 –
        REDACTED AND UNCLASSIFIED
                            APPENDIX VI
REDACTED AND UNCLASSIFIED




          - 96 –
REDACTED AND UNCLASSIFIED
                                                      APPENDIX VI
                 REDACTED AND UNCLASSIFIED


                           FBI Response
                                to
                    DOJ OIG Draft Audit Report
                 Federal Bureau of Investigation
             Casework and Human Resource Allocation


Bureau-wide Comparative Analyses of Human Resource Utilization

Recommendation Number 1, Page 72: We recommend that the Director
of the FBI regularly review resource utilization reports for the
Bureau as a whole, as well as for the individual investigative
programs, and explore additional means of analyzing the Bureau’s
resource utilization among the various programs.

Response: The FBI agrees with the recommendation. The FBI is in
the process of providing the Director with an automated resource
utilization report function and is developing a portfolio of new
resource utilization reports that will be provided to the
Director each pay period. Both the automated report function and
the hard copy reports will present resource utilization
information across organizational programs and within each
program.


Level of Effort in the Violent Crimes and Major Offenders (VCMO)
Program

Recommendation Number 2, Page 72: We recommend that the Director
of the FBI research and implement methods for addressing the
overutilization and high allocation of agent resources in the
VCMO program.

OIG Rationale: The criminal investigations in the VCMO program
fall into the third, and lowest, tier of the strategic plan, with
a primary goal of assisting state and local law enforcement.
Despite this, the FBI consistently over utilized its agent
resources in the VCMO program during our review period. Also,
the FBI opened more VCMO cases than in any other program. Since
the Director stressed in May 2002 that the Bureau needed to shift
from a reactive force to a proactive one, and this program has
consistently been allocated a significant number of agent
resources, its resource utilization should be further
scrutinized.




                           - 97 –
                 REDACTED AND UNCLASSIFIED
                                                    APPENDIX VI
                 REDACTED AND UNCLASSIFIED

Response: The FBI disagrees with the statement in the OIG
rationale that the primary goal of the VCMO Program (VCMOP) is
assisting state and local law enforcement. The primary goal of
the VCMOP is to combat significant violent crime in the United
States and make the streets safe for its citizens. Assistance to
state and local law enforcement is a component of this effort.
The FBI also disagrees with the assumption that the VCMOP is
entirely reactive in nature. Although part of the VCMOP mission
will always require a reactive response to major violent crimes,
the FBI’s VCMOP has always promoted proactive measures to address
violent crime, particularly with regard to intelligence
gathering, implementation of joint task forces and criminal
enterprise investigations as a means of reducing violent crime.

     The FBI agrees with OIG’s recommendation and has made
significant progress toward its implementation.

     Specifically, in March 2002 the Violent Crime and Major
Offenders Section (VCMOS) instituted a measured response policy
in bank robbery investigations in the VCMOP plan to focus
resources on the most violent and/or serial bank robbers.

     To provide greater flexibility in prioritizing the FBI’s use
of resources, in August 2002, the FBI established the Criminal
Enterprise Investigative Program (CEIP) with a separate Funded
Staffing Level. A total of 650 SA bodies were transferred from
the VCMOP to ensure proactive criminal enterprise investigations
of violent street gangs and major theft criminal enterprises are
adequately addressed. In April 2003, CEIP Funded Staffing Level
(FSL) was increased to its current level of 701.

     In June 2003, the VCMOS implemented a new VCMOP program plan
recognizing that, while combating significant violent crime in
the United States to protect US citizens is a lower priority, it
is still a recognized priority of the FBI. Additionally, the
plan recognizes VCMOP has traditionally brought ancillary
benefits to other FBI programs through the liaison relationships
developed with other agencies, media and private industry, and
development of broad based investigative capabilities of FBI
personnel. The current VCMOP program plan seeks to complement
state and local law enforcement and focus FBI efforts in those
investigations where the FBI is in a unique position to make a
contribution, primarily in those instances where investigations
are multi-jurisdictional in nature and/or FBI has unique
resources that benefit both the FBI and other involved agencies.

     Additionally, the VCMOP and CEIP Program Plans further
focused investigative efforts and instituted proactive
                           - 98 –
                 REDACTED AND UNCLASSIFIED
                                                    APPENDIX VI
                 REDACTED AND UNCLASSIFIED


initiatives to address specific crime problems in child
prostitution, gang related crime in the most violent cities, and
reduce bank robberies through improved security programs at
financial institutions in the US. These plans also support the
fight against terrorism by aggressively pursuing Crimes Aboard
Aircraft, establishing Memorandums of Understanding with
Department of Homeland Security to ensure coordinated responses,
and targeting major theft groups whose proceeds are funneled back
to countries harboring terrorist organizations.

     As a result of these efforts, the FBI enhanced other
priority programs through an overall reduction of VCMOP and CEIP
FSL to its current level of 1710 in FY 2003. Additionally,
current resource utilization is beneath established FSLs with
VCMOP AOB of 936.67 (underburn of 72.33) and CEIP AOB at 499.03
(underburn of 201.97) through the third quarter of FY2003.
Although these underburns have negatively impacted the CEIP, the
underburn was considered necessary as the FBI temporarily
diverted violent crime resources to address elevated terrorism
threat levels as a result of the war in Iraq.

     To further ensure resources are expended within established
parameters, the VCMOS instituted quarterly reviews of resource
utilization, statistical and case accomplishments. VCMOS will
also review field office strategies, and goals and objectives,
through the Annual Field Office Report (AFOR) reviews and
assessments of field office performance as part of the Inspection
process.

Rate of Case Openings and Closings Between 1998 and 2001

Recommendation Number 3, Page 73: We recommend that the FBI
perform research to determine why the rate of case openings and
closings is decreasing and the population of open cases is
increasing.

Response from the Counterterrorism Division (CTD) and
Counterintelligence Division (CD): After September 11, the FBI
Director refocused the FBI's traditional crime-fighting
orientation of investigating criminal acts after-the-fact for
prosecution to place the highest priority on preventing
terrorism. The Director also shifted resources to meet this new




                           - 99 –
                 REDACTED AND UNCLASSIFIED
                                                   APPENDIX VI
                 REDACTED AND UNCLASSIFIED

priority. As such, the volume of opened International Terrorism
(IT) and Foreign Counterintelligence (FCI) cases being opened
has increased. Additionally, IT cases are often in open and in
pending status for years. Exhibit 1 depicts the pending and
closed CTD cases. Exhibit 2 depicts the pending and closed FCI
cases.




                           CLASSIFIED
                          INFORMATION
                            REDACTED




         Exhibit 1: Closed, Pending and Received IT Cases
            *FY 2003 reflects actuals as of 3/31/03




                           CLASSIFIED
                          INFORMATION
                            REDACTED




       Exhibit 2: Closed, Pending and Received FCI Cases
       *FY 2003 reflects actuals as of June 30, 2003




                           - 100 –
                 REDACTED AND UNCLASSIFIED
                                                     APPENDIX VI
                  REDACTED AND UNCLASSIFIED



Other explanations for the increased time requirements for IT and
FCI cases include the following:

  •   scope of FCI/IT cases is on intelligence gathering (not just
      criminal investigation) which is open-ended and not
      necessarily focused entirely on pushing the case toward the
      end goal of criminal prosecution
  •   the overseas nexus of FCI/IT cases creates additional time
      burdens
  •   a shift away from state sponsored terrorism to terrorism
      instigated by extremist groups which are located in various
      places all over the world
  •   increased emphasis on espionage and economic espionage
      cases, which are, by nature, intricate
  •   increased emphasis on priority country cases
  •   increased emphasis on counterproliferation cases, which are
      traditionally complex cases involving the necessity to
      coordinate with multiple agencies for a successful outcome

Response from the Criminal Investigative Division (CID):
The Criminal Intelligence Section (CIS) has administrative
responsibility for only one investigative classification which
was reviewed for this response. The "92" classification,
Racketeering Enterprise Investigations (REI), which are
intelligence gathering investigations, are governed by the
Attorney General Guidelines with strict guidelines which specify
under what circumstances the REI can be opened and when the REI
must be closed. In view of the fact that REIs cover all
criminal programs, any shift of resources to address non
criminal investigative matters can affect the rate of case
openings and closings. A review of REI openings/closings for
fiscal years 2001, 2002, and 2003, determined that a total of
154 REIs were opened and 170 REIs were closed. At the beginning
of FY 2001 there were 199 REIs pending. As of 6/30/03, there
were 186 REIs pending. A breakdown by fiscal year for the REIs
is listed below:
                          Opened    Closed
                FY 2001     67        48
                FY 2002     54        52
                FY 2003     33        70
                Totals     154       170



                            - 101 –
                  REDACTED AND UNCLASSIFIED
                                                   APPENDIX VI
                 REDACTED AND UNCLASSIFIED




       The FBI Drug Program (DP) reviewed the data contained in
the DOJ/OIG report relative to the above recommendation, as it
pertained to DP investigations. In 1998, in support of the
FBI's 1998-2003 Strategic Plan, the DP developed its five-year
program plan. The plan detailed the FBI's strategy for
disrupting and dismantling the most significant Drug Trafficking
Organizations (DTO) through application of the Enterprise Theory
of Investigation, and was the basis for the National Priority
Target List, created by the DP to focus the FBI's limited
counter-drug resources on the domestic components of DTOs posing
the greatest threat to the United States.

     Enterprise Investigations are strategically planned, long-
term investigations that focus on all aspects of a defined
criminal organization, utilizing an array of sophisticated
investigative techniques that ultimately disrupt or dismantle
the targeted organization. These Drug Enterprise Investigations
require the FBI to devote years of investigative and
prosecutorial effort in contrast to short-term investigations
managed under other FBI criminal programs. The decrease in the
rate of DP case openings and closings is, in part, the result of
FBI field offices applying the Enterprise Theory of
Investigation to DP investigations. Consequently, fewer drug
investigations are initiated, but they remain open longer. A
survey of 12 field offices, conducted in December 2001, revealed
that 75% of Criminal Enterprise Investigations in the field were
conducted within the DP.

     Concurrent with the change in the strategic focus of DP
investigations, the DP experienced decreases in Agent-funded
staffing levels (FSL) since the beginning of FY 1998 (prior to
FY 2000, the FSLs for the Organized Crime (OC) program and DP
were combined). Using estimated figures for FY 1998 and FY
1999, the DP experienced a 12% decrease in its FSL between FY
1998 and the beginning of FY 2002. However, between FY 1998 and
the end of FY 2002, the DP experienced a 51% decrease in its
FSL. Further reductions in the DP during FY 2003 amounted to a
decrease in the FSL of 68%.

     Within CID, the DP's rate at which case openings and
closing declined is commensurate with the change in strategic
focus of the program and the reduction in Agent resources
assigned to DP investigations.

                           - 102 –
                 REDACTED AND UNCLASSIFIED
                                             APPENDIX VI
              REDACTED AND UNCLASSIFIED
     The FBI is cognizant that the rate of case openings and
closings is decreasing and that the population of open cases is
increasing. During the period following 9/11, the massive




reorganization of the FBI presented unique challenges in
determining an appropriate distribution of existing resources
needed to effectively address the exigent Counterterrorism (CT)
threat, while maintaining a sufficient presence within the
Counterintelligence, Criminal and other programs. This
reorganization necessitated the temporary diversion of FBI
resources at an unprecedented level. As a result of this
diversion of resources, significant number of existing criminal
investigations went unaddressed or were under-addressed. As a
result, these existing cases remained open which obviously is
reflected in the rate of case closings and in the population of
open cases.

     Additionally, the temporary (and ultimately permanent)
diversion of significant numbers of agents from Criminal
programs to CT has had a corresponding reduction in the number
of new investigations initiated within many Criminal programs.
This is a significant factor in the declining rate of case
openings/closings of criminal investigations.

     Lastly, a factor which impacts primarily on the population
of open cases is the reality that the FBI is actively engaged in
a significant number of "Intelligence" investigations within the
CT program which by their nature tend to be long term and thus
may remain open for extended periods of time.

     The limited analysis to date indicates a strong correlation
between the percentage reduction in agents available to conduct
criminal investigations, with the corresponding reduction in
initiations of criminal investigations. It is expected that
additional analysis will support this as the primary factor and
will in no way support a conclusion of reduced productivity.


Timing of Funded Staffing Levels

Recommendation Number 4, Page 73: We recommend that the
Director of the FBI review the current resource management and
allocation process and make necessary changes to ensure that FSL
allocations are made in a more timely manner.


                       - 103 –
             REDACTED AND UNCLASSIFIED
                                             APPENDIX VI
              REDACTED AND UNCLASSIFIED
Response: The FBI agrees with this recommendation and has
already reviewed the process and determined an appropriate
course of action. In the past, FBI executive management
direction was to hold the FSL allocation in abeyance until a
budget was passed. Then, once the Finance Division had




                       - 104 –
             REDACTED AND UNCLASSIFIED
                                                    APPENDIX VI
                 REDACTED AND UNCLASSIFIED


reconciled any budgetary issues and provided the final funded
position/workyear levels, the Resource Management and Allocation
Office, Administrative Services Division, would allocate the
FSL. This method has resulted in FSLs not being set until late
in the year since the budget is typically not approved by
 Congress until after the start of a new fiscal year and many
 times as late as six months into the year.

     The FBI has instituted a strategy whereby the allocation
process will begin several months prior to the beginning of a
fiscal year based on existing personnel resources and pending
enhancement requests. This will be adjusted and modified as the
Congress progresses toward a final determination of the FBI's
budget. In this fashion, an allocation of available resources
may occur shortly after the budget is enacted.


Utilization in the Applicant Matters and Training Programs

Recommendation Number 5, Page 73-74: We recommend that the
Director of the FBI review the current planning factors and
processes for the Applicant Matters and Training programs to
more closely approximate the agent resources they actually need.

Response: Applicant Program resources are used in direct
support of hiring FBI employees and in conducting backgrounds
for certain other agencies. The FBI utilizes the services of
Contract Investigators to conduct pre- FBI employment
backgrounds. This has minimized the requirement for the use of
Special Agent resources in the Applicant Program. There are
certain aspects of the hiring process that require Special Agent
resources such as in the testing and processing of FBI
applicants. During a transition of Administration in the White
House there is a seasonal increase in the requirement for
applicant resources. Most high level government appointments
require that FBI backgrounds be conducted by FBI Special Agents.

     A review of allocated Applicant Program resources compared
with actual utilization of resources shows a convergence from
Fiscal Year 1996 through 2000. This occurred as a result of the
use of Contract Investigators instead of FBI Special Agents.
Although these resources are depicted as being utilized on
applicants, they are in direct support of the FBI's most
significant investigative priorities. These additional
resources over the established FSL for the Applicant Program,
are in actuality providing the human capital for the major
investigative programs of the FBI. The temporary redirection of
resources from the investigative programs into the Applicant
Program is consistent and in direct support of those
investigative programs.

     A slight increase in actual utilization of applicant

                           - 105 –
                 REDACTED AND UNCLASSIFIED
                                                    APPENDIX VI
                 REDACTED AND UNCLASSIFIED


resources occurred in FY 2001 due to the backgrounds required
during the transition of the Administration. This increase
occurs at a change of Administration and exists for a short
period of time. If additional resources were acquired for this
resource need during a change of Administration, a redirection
would occur during the several years of no Administration
change. Many of these resources are required in areas of the
country where the Administration had been based. The movement
of resources into those geographic areas would be more costly
than the temporary diversion of current resources assigned to
those offices.

     The FBI will review the current process in allocating
resources in the Applicant Program and determine if a method can
be developed to more accurately project and record resource
allocation and utilization.



Data Errors and Omissions in the ACS System

Recommendation Number 6, Page 74: We recommend that the
Director of the FBI ensure that the data in ACS is complete and
accurate prior to converting to a new case management system.

Response: The FBI agrees with the recommendation. The Virtual
Case File (VCF) application, scheduled to be released in December
of 2003, will replace the Automated Case Support (ACS) system.
All case-related information will be migrated from ACS into the
VCF and made available to all authorized users. Because VCF is
significantly different from ACS in facilitating workflow and how
data is viewed, there will be situations where it does not make
sense to move certain data over. Even so, all information in ACS
will be strictly accounted for. Any data not moved over to the
VCF will be logged, then archived in anticipation that this
information may still be needed at some future date.

     In preparation for the data migration, all data currently
residing in ACS has been analyzed, looking for any anomalies or
error conditions that could cause problems in the VCF
environment. A Data Quality report has been produced that
identifies areas of potential concern. Each one of these areas
is currently being examined, prioritized, and analyzed for
adjudication prior to migration to VCF.

     Error conditions that have been discovered include business
rule violations (e.g., open leads in closed cases), missing data
in required fields, and invalid data (e.g., erroneous field
office codes.) All of these conditions have been categorized and
are in the process of being resolved by the ACS project team,



                           - 106 –
                 REDACTED AND UNCLASSIFIED
                                                               APPENDIX VI
                        REDACTED AND UNCLASSIFIED


 with support from the Records Management Division. Any areas
 that need to be adjudicated will be presented to the newly formed
 Data Governance Board (DGB), made up of Data Stewards that
 represent all the operational divisions. These Data Stewards are
 charged with the responsibility to make any final decisions
 necessary to bring data error conditions or invalid data issues
 to resolution.

      It has been determined that certain errors found in ACS must
 be fixed within ACS itself before the data can be moved over to
 the new environment (e.g., conflicting information, such as case
 open and Preliminary Inquiry dates, where it is unclear which
 information is valid.) Other errors can be handled by fixing
 them as they are moved over to VCF. These will be handled in
 parallel over the next five months in preparation for the final
 migration. Due to resource and time constraints, some lower
 priority error conditions may not be resolved prior to migration.
 However, they will continue to be tracked and resolved at a later
 date if deemed necessary.


Task        Compliance Task           Compliance Task        Due Date Compliance
 #                                      Deliverable                      Task
                                                                        Status

 1     Analyze Quality of Data    Data Quality Report         6/10/03 Draft
       in ACS                                                         Completed
 2     Define ACS to VCF          Transformation Rule set;     9/9/03
       Transformation Rules       Gap Analysis Report;
                                  coded Transformation
                                  routines
 3     Fix Data Problems in ACS   Problem Reports             11/1/03
 4     Test Migration             Data Migration Dry Run     11/15/03
                                  reports
 5     Migrate Data               Final Data Migration       12/13/03

 Usefulness of Monthly Administrative Reports (MAR) from the
 Automated Case Support (ACS) System

 Recommendation Number 7, Page 75: We recommend that the Director
 of the FBI revamp the current Monthly Administrative Report
 format and determine if more useful information can be extracted
 from the ACS system and be provided to program managers to help
 them in performing their duties.




                                  - 107 –
                        REDACTED AND UNCLASSIFIED
                                                            APPENDIX VI
                     REDACTED AND UNCLASSIFIED


Response: The FBI agrees with the recommendation.    The Virtual
Case File (VCF) team’s initial mandate was to replace the current
ACS application. Early in the project, it was decided that this
was insufficient to support the needs of the FBI. Instead, a
Business Process Reengineering (BPR) approach was undertaken to
determine what business processes needed to be changed to make
the FBI more effective. Operational and Program Management
Subject Matter Experts (SME) have been consulted to determine
what data is required to support their needs, including
statistical and program management information.

     Current reports, including the MAR, have been reviewed with
these SMEs to determine their continued utility. In addition,
suggested changes have been incorporated into the VCF design. For
example, case closing information has been expanded to include
more useful categories of closings, including those that track
with the United States Attorney’s Office.

     Currently, the project team is validating that all
appropriate information required to support the MAR is
identified and captured in VCF. In addition, prior to
implementation in December of 2003, the VCF will undergo
acceptance testing to ensure that the application meets the
defined requirements. This will take place starting in August of
2003 and will include testing all pertinent reports.


Task        Compliance Task         Compliance Task   Delivery Compliance
 #                                    Deliverable       Date   Task Status

 1     Determine Program           Software / System 11/25/02 Completed
       Management Reporting        Requirements
       Requirements                Statements
 2     Design Program Management   Gap Analysis;       8/15/03
       Reports                     Report Definitions
 3     User Acceptance Test        Test Plans, Test   11/18/03
                                   Results
 4     Implements Reports          VCF Implementation 12/13/03




                               - 108 –
                     REDACTED AND UNCLASSIFIED
                                                             APPENDIX VII
                    REDACTED AND UNCLASSIFIED

 OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
                TO CLOSE THE REPORT

Recommendation Number:

1.   Resolved. The FBI agreed with our recommendation and reported
     that it is in the process of providing the Director with an automated
     resource utilization report function. In order to close this
     recommendation, please provide us with documentation describing
     the new report function, and evidence that the Director has
     received reports on a regular basis. In the interim, please provide
     us with an implementation schedule that details when the system
     will be fully operational.

2.   Resolved. The FBI responded that it agreed with our
     recommendation and sought to clarify our characterization of the
     Violent Crimes and Major Offenders (VCMO) program. As a result,
     we have made an adjustment in our discussion preceding
     Recommendation Number 2 in Chapter 9.

     In response to our recommendation, the FBI stated that it has
     reduced the allocation of resources to the VCMO program and it is
     monitoring resource utilization and case activity in the program on a
     quarterly basis. This recommendation can be closed when we
     receive a copy of the FY 2003 and FY 2004 funded staffing levels
     and samples of the quarterly reviews.

3.   Resolved. In its response, the FBI provided evidence that it
     performed some research into certain aspects of its increasing
     universe of open cases. Specifically, the FBI provided detailed
     information on the reasons why the number of cases open in the
     Counterterrorism and Counterintelligence Divisions has increased
     since 9/11. In addition, the Criminal Investigative Division (CID)
     reported that since FY 2001, the universe of open Racketeering
     Enterprise Investigations has decreased. The CID further reported
     that the Drug program had been allocated fewer resources since
     FY 1998 and its enterprise theory of investigations results in
     strategically planned long-term investigations. Therefore, fewer
     cases are opened, but these cases are open for longer periods of
     time. The FBI concluded that these results could not be interpreted
     as a reduction in productivity.


                              - 109 –
                    REDACTED AND UNCLASSIFIED
                                                              APPENDIX VII
                    REDACTED AND UNCLASSIFIED

     However, the FBI did not address the entirety of its increasing case
     universe since 1998. Rather, much of its response points to
     increased counterterrorism work in the wake of 9/11 as a reason for
     the increase. As noted in our report, in April 1999 the FBI found it
     necessary to administratively close over 675,000 cases that had
     been unaddressed for long periods of time. The increasing volume
     of open cases invites the possibility that the FBI will have to take
     similar steps in the future and we believe that the FBI should
     further study this issue to alleviate the need for another large-scale
     administrative closure of cases. In order to close this
     recommendation, please provide us with the results of additional
     research that targets the increasing caseload between 1998 and
     2001 for the FBI as a whole.

4.   Resolved. According to the FBI, it has made changes to its
     resource allocation process so that funded staffing levels (FSLs) will
     be allocated in a more timely manner. To close this
     recommendation, please provide us with evidence that the new
     strategy has been officially implemented. In addition, please keep
     us informed of the Resource Management and Allocation office’s
     actions to establish the FY 2004 FSLs.

5.   Unresolved. In its response, the FBI provided further explanation
     for the difference between the allocated and utilized personnel
     resources in its Applicant Matters program and agreed to review its
     process for allocating resources to this program. However, the
     FBI’s response did not address the significant differences in
     resource allocation and utilization in its Training program. This
     recommendation can be resolved when the FBI provides information
     related to its efforts to address these differences.

6.   Resolved. The FBI provided us with an implementation schedule
     for its efforts to improve the quality of ACS data before its
     migration into the new Virtual Case File application. To close this
     recommendation, please provide us with a copy of the data quality
     report and evidence that the data has been improved and
     successfully migrated. In the interim, please keep us informed of
     the progress made towards the data migration.

7.   Resolved. According to the FBI, in its creation of the Virtual Case
     File application, the Bureau utilized a Business Process
     Reengineering approach to determine what business processes
     needed to be changed to make the FBI more effective. Part of this
     involved reviewing the Monthly Administrative Reports to assess

                              - 110 –
                    REDACTED AND UNCLASSIFIED
                                                      APPENDIX VII
               REDACTED AND UNCLASSIFIED

their utility. The FBI provided us with an implementation schedule
for its plans to design new reports and implement them as part of
the new Virtual Case File system. This recommendation can be
closed when we receive samples of the test reports; feedback from
subject matter experts to confirm that the new reports are
acceptable, provide necessary data, and are an effective program
management tool; results of the user acceptance tests; and
evidence that the new reports have been implemented.




                         - 111 –
               REDACTED AND UNCLASSIFIED
